<html>
<title> - NOMINATION OF MARGARET SPELLINGS</title>
<body><pre>[Senate Hearing 109-88]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-88

                    NOMINATION OF MARGARET SPELLINGS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

NOMINATION OF MARGARET SPELLINGS, OF TEXAS, TO BE SECRETARY, DEPARTMENT 
                              OF EDUCATION

                               __________

                            JANUARY 6, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                    U.S. GOVERNMENT PRINTING OFFICE
97-751                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, JANUARY 6, 2005

                                                                   Page
Hon. Enzi, Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
    Prepared statement...........................................     4
Hon. Kennedy, Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     7
Hon. Hutchison, Kay Bailey, a U.S. Senator from the State of 
  Texas, prepared statement......................................    10
Hon. Cornyn, John, a U.S. Senator from the State of Texas, 
  opening statement..............................................    11
Spellings, Margaret, of Texas, nominated to be Secretary, U.S. 
  Department of Education........................................    12
    Prepared statement...........................................    15
Hon. Gregg, Judd, a U.S. Senator from the State of New Hampshire, 
  prepared statement.............................................    60
Hon. Alexander, Lamar, a U.S. Senator from the State of 
  Tennessee, prepared statement..................................    65
Hon. Hatch, Orrin, a U.S. Senator from the State of Utah, 
  prepared statement.............................................    78

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letters of support...........................................    18
    Hon. Mikulski, Barbara, a U.S. Senator from the State of 
      Maryland, prepared statement...............................    85
    Margaret Spellings response to questions of:
        Senator Enzi.............................................    85
        Senator Hatch............................................    87
        Senator Roberts..........................................    89
        Senator Kennedy..........................................    90
        Senator Dodd.............................................   100
        Senator Harkin...........................................   104
        Senator Mikulski.........................................   105
        Senator Murray...........................................   106
        Senator Reed.............................................   109
        Senator Clinton..........................................   112

                                 (iii)

  

 
                    NOMINATION OF MARGARET SPELLINGS

                              ----------                              


                       THURSDAY, JANUARY 6, 2005

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Michael B. 
Enzi (chairman of the committee) presiding.
    Present: Senators Enzi, Gregg, Alexander, Burr, Isakson, 
Sessions, Kennedy, Dodd, Harkin, Jeffords, Reed, and Clinton.

                   Opening Statement of Senator Enzi

    The Chairman. I will call the hearing to order.
    Good morning, and welcome to the hearing on the President's 
nomination of Margaret Spellings to serve as our next Secretary 
of Education.
    It is a pleasure to welcome Ms. Spellings and all those in 
attendance to our first hearing of the 109th Congress.
    Before we begin, I want to mention that it has been the 
tradition of the committee that the chairman and the ranking 
member are the only ones who give statements; anyone else with 
a statement can have it included in the record or can add oral 
comments as part of their questioning period.
    There are several ``firsts'' that are happening. For me, it 
is the first committee hearing that I will be conducting as the 
chairman, and I cannot think of a better or more important 
opening hearing for the committee than talking about the State 
of education in this country and how to make it better for 
students of all ages.
    It is also my first opportunity to welcome to the committee 
and thank for their willingness to serve on it our new members, 
Senator Burr from North Carolina and Senator Isakson of 
Georgia, who will be here later, and also, I believe that the 
former chairman of the committee, Senator Hatch, will be here.
    Today's hearing is the first on the President's nominees 
for his Cabinet for his second term, and it is also the 
beginning of what I hope will be a continuing dialogue between 
this committee, the Administration, and you and your staff at 
the Department of Education.
    Looking back, I believe that we have made an excellent 
start, and we will have some real progress to show for our work 
on education issues which have such a strong and direct impact 
on our children. The centerpiece of that effort, the 
President's No Child Left Behind Act, emphasized the 
accountability and importance of getting results in the 
classroom. As the President's domestic advisor, you were part 
of that effort. Now you will be taking up the reins of the 
Department of Education and bringing your own style and 
substance to the task at hand.
    You have more than 10 years of experience with these issues 
on the local, State and national levels, and I do not think 
anyone has a better understanding of the President's position 
on them. Having had the chance to spend some time discussing 
these issues with you, I know that you share my commitment to 
ensuring that children receive the education they will need to 
take their place in a workplace that continues to change and 
evolve. Your record on those issues is very clear. You believe 
as I do that every school can be a good one, and every student 
can be a star achiever.
    That has been my experience as the father of three college 
graduates, one of whom is a former school teacher and principal 
who has returned to teaching.
    It is also my hope as the grandpa of a little boy--I know 
he is counting on his grandpa and the other parents and 
grandparents on this committee to ensure that he receives the 
kind of education that he will need to find a good job and the 
continuing training he will need to keep it.
    We must provide a lifetime of learning to our students and 
the workers of today and tomorrow that will enable the United 
States to retain its competitive edge. It may sound like I am 
jumping the gun by expressing my concerns about the kind of 
world that my grandson will face in the years to come, but as 
the old adage says so well, ``The future will be here before we 
know it.'' It is our job to ensure that we are prepared for it 
when it arrives.
    That is why these reforms that we have been working on must 
continue to be put in place as soon as possible. Our schools 
need to take action today for the sake of tomorrow. Reforms 
that will make our schools better in 10 years or more will not 
help our children who need the foundation that only a good 
education can provide now. They are looking to us to keep the 
promise of No Child Left Behind and ensuring that they leave 
school with the education they need to be prepared for the 
challenges that await them as they join the workforce and begin 
their careers.
    I believe you also share my concerns about current workers 
and the importance of ensuring that they have access to the 
kind of skills training they will need to keep their abilities 
up-to-date. The workplace is not what it used to be. Time was 
that graduation day marked the beginning of a career that would 
last a lifetime and the end of classes and the learning 
experience. It is not like that anymore. In this global 
economy, school is never out. A child starting school today 
will probably have 14 different occupations, 10 of which have 
not even been invented yet.
    Today's workplace demands an ever-changing workforce that 
can adapt to the requirements and skills of the new high-tech 
jobs that are in such high demand. Keeping our workforce 
abilities and skills current will be vital to not only our 
Nation's families but our economy as well. That will mean 
integrating our education programs so that they support a 
lifetime of learning and changing the way that we think about 
school and the education process.
    In the past, we too often looked at the process of 
education as if it existed in separate, distinct silos--
preschool, elementary, secondary, postsecondary, the end. This 
perspective is often reflected in local, State, and Federal 
policies. If we are going to be successful as a nation in 
preparing the next generation of engineers, teachers, health 
care professionals, and the thousands of other jobs in demand, 
we need to make sure there is a seamless transition all the way 
from preschool through postsecondary and beyond.
    When we met to discuss your goals and your unique vision 
for the Department of Education, you made it clear that you 
understand the need for flexibility in our approach to 
education. Each State has its unique needs, and we as 
policymakers need to address each State's challenges 
individually.
    In my own State of Wyoming, for example, every school and 
classroom is different. Some schools require teachers to handle 
several subjects. Others require them to be highly specialized. 
Rural areas like Wyoming face a unique challenge in this area 
because we receive fewer dollars for almost every Federal 
program because we have the smallest population. Complicating 
matters, Wyoming also has one of the largest physical areas of 
any State. That means that some schools exist to serve a 
relative handful of students. If forced to close, those 
children would have to travel 60 miles or more to school. We do 
not consider that to be acceptable. It also makes teacher 
recruitment and retention a very real problem that must be 
constantly addressed. Unique demands of rural education needs 
may require unique education solutions.
    As a former mayor and now as I serve in the Senate, it has 
always been my belief that the system that works best is the 
one that keeps the decisionmaking process as close to home as 
possible. There is a lot of wisdom at the kitchen dinner table. 
We need to do all that we can to promote each parent's active 
participation in the education of their children. That is a 
vital component of the process.
    In the end, it will not be enough for us to ensure that 
each child has access to a good education, but we must ensure 
that we produce well-educated young adults. Best of all, when 
teachers, students, and parents work together, the teamwork 
that results will help our children to gain a greater respect 
for our historical traditions and a better appreciation of the 
ideals and values that made our country great.
    I believe that each child is born with a special gift, 
destined to make a unique contribution in the world, a 
contribution that only he or she can make. An integrated system 
of education will cultivate the child's gift and help to 
develop it so that it can be expressed and shared.
    It is not an easy thing for us to do, but it must be done. 
Providing a lifetime of learning for our children and continued 
training to current workers is the key that they need to find 
good jobs and keep them. Our success in that effort will ensure 
that every child's life will be a success story and that the 
cherished American dream is within every child's grasp, no 
matter what school they attend, everything from early education 
to career and higher education.
    Today we have before us an excellent nominee who possesses 
the skills, experience, and character to help shepherd our 
students of all ages and backgrounds along the pathway of the 
American dream. I look forward to Ms. Spellings' speedy 
confirmation, and I look forward to working with her in her new 
role as Secretary of Education to help achieve this goal.
    [The prepared statement of Senator Enzi follows:]

                       Statement of Senator Enzi

    Good Morning and welcome to today's hearing on the 
President's nomination of Margaret Spellings to serve as our 
next Secretary of Education. It is a pleasure to welcome Mrs. 
Spellings and all those in attendance to this, our first 
hearing of the 109th Congress.
    Before we begin, we are marking several firsts today and I 
would like to take a moment to call attention to a few of them.
    For me, this is the first committee hearing that I will 
conduct as its Chairman. I can't think of a better or more 
important opening hearing for the committee than to spend this 
morning talking about the State of education in the country and 
how to make it better for students of all ages.
    It is also my first opportunity to welcome to the committee 
and thank for their willingness to serve on it our new members, 
Senator Burr of North Carolina and Senator Isakson of Georgia. 
In addition, it is a pleasure to welcome back a former Chairman 
of this committee, Senator Hatch. It is good to be here with 
you and my other colleagues who are returning to serve on this 
committee, especially my good friend and our ranking member, 
Senator Kennedy.
    Today's hearing is one of the first on the President's 
nominees for his Cabinet for his second term. It is also the 
beginning of what I hope will be a continuing dialogue between 
this committee, the Administration, and you and your staff at 
the Department of Education.
    Looking back, I believe we have made an excellent start. We 
have some real progress to show for our work on the education 
issues that have such a strong and direct impact on our 
children.
    The centerpiece of that effort, the President's No Child 
Left Behind Act, emphasized accountability and the importance 
of getting results in the classroom. Thanks to that important 
legislation, our Nation's classrooms are more effective and 
efficient places of learning and our children are benefiting 
from that.
    As the President's Domestic Advisor, you were a part of 
that effort. Now you will be taking up the reins at the 
Department of Education and bringing your own style and 
substance to the task at hand. It will be difficult but I am 
confident you will do a good job. You have more than 10 years 
of experience with these issues on the local, State and 
national level and I don't think anyone has a better 
understanding of the President's position on them. You will now 
be in the perfect position to promote his agenda and ensure 
that we continue to make progress on an issue that I know is as 
important to you as it is to him.
    Having had the chance to spend some time discussing these 
issues with you, I know you share my commitment to ensuring our 
children receive the education they will need to take their 
place in a workplace that continues to change and evolve. Your 
record on these issues is clear--you believe, as I do, that 
every school can be a good one and every student can be a star 
achiever. That has been my experience as the father of three 
college graduates, one of whom is a former school teacher and 
current principal. It is also my hope as the grandfather of a 
little boy. I know he is counting on his grandfather and the 
other parents and grandparents on this committee to ensure he 
receives the kind of education he will need to find a good job 
and the continuing training he will need to keep it. We must 
provide a lifetime of learning to our students and workers of 
today and tomorrow that will enable the United States to retain 
its competitive edge.
    It may sound like I am jumping the gun by expressing my 
concerns about the kind of world my grandson will face in the 
years to come, but, as the old adage says so well, the future 
will be here before we know it. It's our job to ensure we're 
prepared for it when it arrives.
    That is why these reforms we have been working on must 
continue to be put in place as soon as possible. Our schools 
need us to take action today, for tomorrow may be too late. 
Reforms that will make our schools better in ten or more years 
won't help our children who need the foundation only a good 
education can provide now. They are looking to us to keep the 
promise of No Child Left Behind and ensure they leave school 
with the education they will need to be prepared for the 
challenges that await them as they join the workforce and begin 
their careers.
    We have all heard the horror stories of young adults 
graduating from High School or College unable to fully 
participate in society--unable to even read the diploma they 
have just been given by their school. The programs we will work 
to support and improve here in committee and on the Senate 
floor will continue to make those stories a thing of the past.
    I believe you also share my concerns about current workers, 
and the importance of ensuring that they have access to the 
kind of skills training they will need to keep their abilities 
up to date. The workplace isn't what it used to be. Time was 
that graduation day marked the beginning of a career that would 
last a lifetime and the end of classes and the learning 
experience. It isn't like that anymore. In this global, 
technology-driven economy, school is never out. Today's 
workplace demands an ever changing workforce that can adapt to 
the requirements and skills of the new high tech jobs that are 
in such high demand. Keeping our workforce's abilities current 
will be vital if workers are to continue to find the kind of 
good jobs they will need to support their families and maintain 
a constant and consistent standard of living.
    That will mean integrating our education programs so they 
support a lifetime of learning and changing the way we think 
about school and the education process. In the past, we too 
often looked at the process of education as if it existed in 
separate, distinct silos. Preschool, elementary, secondary and 
postsecondary education were thought of as separate programs 
and, often, considered in isolation. This perspective was often 
reflected in local, State and Federal policies. If we are going 
to be successful as a nation in preparing the next generation 
of engineers, teachers, healthcare professionals, and the 
thousands of other jobs in demand, we need to make sure there 
is a seamless transition all the way from preschool through 
postsecondary education and beyond.
    When we met to discuss your goals and your unique vision 
for the Department of Education, you made it clear that you 
understand the need for flexibility in our approach to 
education. Each State has its own unique needs and we need to 
address each State's challenges individually. In my own State 
of Wyoming, for example, every school and classroom is 
different. Some schools require teachers to handle several 
subjects--others require them to be highly specialized. Rural 
areas, like Wyoming, face a unique challenge in this area 
because we receive fewer dollars for almost every Federal 
program because we have the smallest population. Complicating 
matters, Wyoming also has one of the largest physical areas of 
any State. That means some schools exist to serve a relative 
handful of students. If forced to close, those children would 
have to travel 60 miles or more to school and that would be 
unacceptable. The problem of providing good schools over such a 
widespread area makes unique demands on our school system that 
have to be dealt with on a case by case basis. It also makes 
teacher recruitment and retention a very real problem that must 
be constantly addressed.
    As a former Mayor and now as I serve in the Senate, it has 
always been my belief that the system that works best is the 
one that keeps the decision making process as close to home as 
possible. There is a lot of wisdom at the kitchen dinner table 
and we need to do all we can to promote each parent's active 
participation in the education of their children. That is a 
vital component of the process because, in the end, it will not 
be enough for us to ensure each child has access to a good 
education. We must ensure we produce well educated young 
adults. Increasing the level of parental involvement in our 
children's education will help to make sure that happens. Best 
of all, when teachers, students and parents work together--the 
teamwork that results will help our children to gain a greater 
respect for our historical traditions and a better appreciation 
of the ideals and values that made our country great.
    Looking ahead, studies show that today's workers will 
change jobs and careers more times than they might change cars. 
It is estimated that a worker starting a job today will have 
around 14 different careers in their lifetime. It is also 
suggested that 10 of those careers haven't been invented yet. 
With each change, that person must learn a new skill set or 
apply their current skills in a different way.
    To meet this challenge, the Federal Government can and 
should do a better job of coordinating Federal education 
programs with Federal workforce preparation and anti-poverty 
programs. Some programs are even working at odds with each 
other. The lack of consistent objective outcome standards 
across Federal programs creates unnecessary burdens for 
students, schools, State and local governments, and just about 
anyone else involved with more than one Federal education or 
workforce program.
    Congress needs to look at ways that we can ensure these 
programs work together and meet the needs of business at all 
levels of government, from city hall all the way up to the 
halls of Congress. When we are successful at integrating these 
programs, we will be successful at leveraging scarce resources 
in a way that will have an immediate and immense impact on 
outcomes for our students, our workers, and our businesses.
    I believe every child is born with a special gift, destined 
to make a unique contribution to the world that only he or she 
can make. An integrated system of education will cultivate that 
child's gift and help to develop it so that it can be expressed 
and shared.
    It won't be an easy thing for us to do, but it must be 
done. Providing a lifetime of learning to our children and 
continued training to current workers is the key they will need 
to find good jobs and keep them. Our success in that effort 
will ensure that every child's life will be a success story and 
the cherished American Dream a possibility that will be within 
every child's grasp, no matter where they live or what school 
they attend.
    Today, we have before us an excellent nominee who possesses 
the skills, experience and character to help bring our students 
of all ages and backgrounds along the pathway to the American 
Dream.
    I look forward to Mrs. Spellings' speedy confirmation, and 
I look forward to working with her in her new role as Secretary 
of Education to help achieve this goal.
    Senator Kennedy?

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much, Mr. Chairman.
    All of us on this side of the aisle want to congratulate 
you as the chairman of this committee. All of us have had a 
warm experience and a valuable professional experience working 
with you on many of the issues that have been before this 
committee over a very considerable period of time. I can think 
just personally of working with you on a WIA reauthorization. 
We were unable to get that achieved in the last session, but I 
think all of us know you as a hardworking, dedicated, committed 
leader, and we are looking forward to working closely with you 
to meet the responsibilities that we have before this 
committee.
    It is nice to see our old chairman, Senator Gregg, here as 
well.
    Senator Gregg. Old? [Laughter.]
    Senator Kennedy. Our old chairman--that he has not gone off 
the reservation to other, greener pastures. We know he is out 
there on the Budget Committee, and we know he will keep a close 
eye on education issues as the chairman of the Budget 
Committee.
    We welcome back Orrin Hatch, who was chairman of this 
committee for so many years, and we all enjoyed working very 
closely with him on the Ryan White legislation and a host of 
other pieces of legislation.
    I want to say personally that we welcome our two new 
members on the other side of the aisle, Senator Burr and 
Senator Isakson, and we look forward to working with you as 
well. We know that you have been interested in the issues that 
have been before the committee. This is something that I think, 
of all of our committees that at least I have had the chance to 
serve on, is one that can really get some important things done 
for families in this country.
    It is a special privilege to join in welcoming Margaret 
Spellings to our committee, and I commend her for her 
nomination. She has an impressive record on domestic policy, 
especially in education. She has been a champion for public 
education. I look forward very much to working with her as 
Secretary.
    There is nothing more basic to our values as Americans than 
good schools. Our Nation's founders understood this when they 
put forward our first commitments to a free public education 
for all citizens. John Adams' admonition to the citizens of 
Massachusetts could not have been clearer in indicating the 
responsibility that future legislators had to the education of 
the children of our Commonwealth, and much of that language is 
incorporated in State constitutions across the country.
    As our former colleague Claiborne Pell used to say, the 
real strength and security of our Nation lies in the education 
of our people, and over our history, we have come to learn that 
a quality education is the golden gateway for fulfilling the 
American dream, ensuring greater opportunity for our citizens, 
encouraging good citizenship, commitment to community, for 
building an economy that rises to modern challenges, and for 
helping young Americans reach for the stars.
    Today our commitment to education must be strengthened to 
meet the challenges and opportunities posed by the global 
economy. There is not a parent in America who doesn't want a 
quality education for their children. We have an obligation to 
provide everyone, whatever their background, with the best 
possible education to develop their God-given talents to the 
best of their abilities.
    Now more than ever, we owe it to our citizens and to our 
country to provide world-class public schools, more help with 
the cost of college, and a new commitment in math and science. 
These are the keys to American progress in the new century, and 
they must be among our Nation's highest priorities as we look 
to the future. The investments that we make today in stronger 
schools and better teachers will bring rewards for tomorrow.
    We have made some progress in recent years. The No Child 
Left Behind Act marked a new national commitment to improve 
public schools and raise student achievement. And the recent 
reauthorization of the Individuals with Disabilities Education 
Act added to that progress.
    We have seen the results in my own State of Massachusetts. 
Student achievement is up across the board in both reading and 
math, and we have made significant progress in educating 
children with disabilities. We are seeing the results of the No 
Child Left Behind reforms in other parts of the country, too. 
High academic standards in reading, math and science and 
working. Eighty-four percent of the States agree that the law's 
standards have had a positive effect on student achievement, an 
effect that can already be measured in almost every grade in 
Illinois.
    Research-based instruction, assessments, targeted 
interventions are working. The Barrister Elementary School in 
Baltimore has helped many more children reach the standards in 
reaching over the past 2 years, raising achievement by 34 
points in grade three and virtually eliminating the achievement 
gap between poor students and other students.
    Professional development is working. In Cuervo, TX, every 
one of the district's African American students now meet the 
State's standard in math, writing, and social studies in both 
elementary school and middle school, and the district says that 
progress comes from its streamlined professional development.
    But these results are not possible without new investments. 
We simply cannot reform our public schools and expand access to 
college education on a tin cup education budget. You knew you 
were going to hear that, Madam Secretary. [Laughter.] If we are 
to move forward in this new century to meet the demands of the 
global economy, we must overcome the deficiencies in today's 
schools with continuing reforms and new resources.
    Here is what we still see across the country: \2/3\ of 4th-
graders are not proficient readers, and \1/3\ are unable to 
read even at minimum level. Less than \1/3\ of the Nation's 
students are proficient in math and science. In fact, the most 
recent study ranked America 29th out of the 40 most developed 
nations in math and science. Access to qualified teachers is 
still a promise denied for many children, especially in the 
poorest schools, where the turnover of teachers is \1/3\ higher 
than in other schools and where \1/3\ of all classes are taught 
by teachers with no background in the subject matter. And half 
of all public school districts are facing funding cuts at a 
time when the Nation is in demand that they do more, not less. 
I can take you to Holyoke, MA, where 45 percent of the students 
come from poverty families. They are strongly committed to 
trying to make the No Child Left Behind Act work, but they are 
under increasing demands under the bill, and they are even 
going to see reductions in the title I program.
    Twenty percent of public schools are on watch lists in 
their States. Over 10,000 schools have been identified as 
needing improvement under No Child Left Behind, and 1/3 of the 
students who begin high school fail to earn a diploma. The high 
school dropout rate is four times as high for Latinos, twice as 
high for African Americans, the rate for whites. Under the 
leadership provided by Senator Bingaman on this issue, we hope 
we can work with the Administration.
    College tuition climbed 35 percent in the past 4 years, yet 
the Pell grants for students remain stalled. The typical 
financial aid package for needy students today consists of 60 
percent grants and 40 percent loans, the exact opposite of 20 
years ago. Once they reach college, 30 percent of students need 
remedial courses in math and writing--30 percent of the 
students. So barely half of those who enter college earn a 
degree in 6 years, let alone four.
    It is impossible to justify numbers like these. The public 
schools need a partner at the Department of Education and a 
road map for effective implementation of the No Child Left 
Behind Act. That means more help for low-performing schools, 
greater support for teachers, and the development of better 
tests and accountability.
    It is critical for Congress and the Administration to work 
together to fully fund the act's essential reforms and to see 
that they are fully implemented. We must do more as well to 
extend opportunities in higher education. The dream of college 
should come true for any student with the talent, desire, and 
drive to pursue it. It is ridiculous in this day and age to 
allow a dollar sign to bar the door to college for anyone or to 
open it grudgingly at the price of crushing student debt.
    And we must do more for our youngest children. There is a 
scientific consensus that what we do for our children's 
education and development starting at birth does more to ensure 
success later in life than any other investment.
    I hope it is not a kiss of death for the right wing, but I 
welcome the opportunity to work with Margaret Spellings. Over 
the past 4 years on education, we have had our differences, but 
I believe she is an inspired choice to be Secretary of 
Education at this critical moment in our Nation's history. I 
look forward very much to working with her in the years ahead.
    I want to just announce that I have just left our friend--
Senator Cornyn, I was listening to you about 15 minutes ago 
down in the Judiciary Committee with Judge Gonzales, and since 
I am ranking member there, I am going down to question Judge 
Gonzales and will be back shortly. I apologize for that 
absence, but I will read closely your statement and look 
forward to asking questions. You are very welcome to the 
committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hutchison wanted to be here today but was unable to 
do so due to a scheduling conflict. She has sent us a statement 
that I ask unanimous consent to enter in the record.
    [The prepared statement of Senator Hutchison follows:]

                     Statement of Senator Hutchison

    Mr. Chairman, I strongly support the nomination of Margaret 
Spellings as the eighth Secretary of Education. Ms. Spellings 
is a longtime public servant who for the past 4 years has 
served as President Bush's chief domestic policy advisor. In 
her White House efforts, she has helped implement policies on 
education, health, labor and housing. Her familiarity with 
America's students and teachers will prove invaluable in her 
new role managing our public educational system.
    Ms. Spellings also assisted President Bush when he was 
Governor of our home State of Texas, where they worked together 
on a number of important education programs including the Texas 
Reading Initiative to improve literacy, the Student Success 
Initiative to eliminate social promotion, and the State's 
accountability standard which is the forerunner to the No Child 
Left Behind Act. Because of her educational accomplishments, 
each year the United States develops more qualified teachers, 
better facilities and superior resources.
    A veteran of the Texas Association of School Boards, Ms. 
Spellings knows firsthand the advantages afforded by education 
and has pledged to ensure every child acquires the skills 
necessary to realize the American Dream. I am proud to support 
her in that effort, and to support her nomination. I urge my 
colleagues to vote swiftly to confirm her so she may continue 
her important work.
    The Chairman. We are fortunate today to have with us our 
distinguished colleague from Texas, Senator Cornyn, to 
introduce Ms. Spellings, and we know from the previous 
conversation and from seeing you on television that you have 
had a lot of work this morning with Texas connections.
    Senator Cornyn?

  STATEMENT OF THE HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator. Cornyn. Thank you, Mr. Chairman and members of the 
committee.
    It is a pleasure to be with you this morning, and Senator 
Kennedy and I have and will continue to shuttle back and forth 
because of two great Texans who have been nominated for 
positions of such importance in our Nation's government.
    It is a real pleasure for me to say a few words of praise 
for a personal friend and an outstanding nominee, and I must 
say it was worth the price of coming here just to hear Senator 
Kennedy's endorsement of the nominee.
    Like you, I want to ensure that the Senate confirms someone 
ready and able to continue this Administration's strong 
leadership and the establishment of high standards that are 
improving education for the Nation. It is critical that the 
person who takes the helm at the U.S. Department of Education 
be capable of leadership on a national scale, an innovator 
willing to challenge conventional wisdom, someone who is 
dedicated to the principle that people's lives are enriched 
through learning and our country is made stronger through 
education.
    I am confident that today you will discover, if you do not 
already know, that Margaret Spellings is a consummate 
professional with the knowledge and experience to exceed every 
expectation. She has a comprehensive knowledge of the education 
system at the local, State, and Federal levels, and she is 
dedicated to achieving challenging goals and, in short, an 
ideal person to take up the mantle of Secretary of Education.
    In Texas, Margaret played a significant role in every major 
educational reform in the State for the last 2 decades. As you 
well know, she brought this experience and success to the 
national level and helped to transform Federal education policy 
through the landmark No Child Left Behind legislation. The 
results of her labor are higher levels of accountability for 
schools, meaningful incentives that promote school improvement, 
greater options for parents, increased support for teachers, 
and solid improvements in fundamental subject areas.
    On a personal level, I know that Margaret is a woman of 
intelligence and compassion. You will never meet a more 
genuinely devoted and passionate advocate for our Nation's 
children and the quality of their education. She herself is a 
proud product of Texas public schools and a mother of two, 
which makes her both a consumer and an advocate. The 
combination of her professional accomplishments and her 
personal strengths makes Margaret an ideal candidate, one who 
will be an excellent leader as part of the Administration and 
an important partner to Congress in formulating education 
policy.
    Under the guidance of Rod Paige, another skilled Texan, the 
Department of Education has achieved a more efficient and 
meaningful Federal role in education. The United States must 
continue the landmark efforts of the past years as well as 
doggedly pursue the country's education needs in years to come.
    There is no greater component of our Nation's quality of 
life and global economic competitiveness than a well-educated 
population. I am confident that Margaret Spellings will do an 
outstanding job and is a wonderful choice to lead us in these 
education challenges of this century, to challenge our 
education system to new goals and to raise our Nation's 
prominence in the world.
    Thank you very much, Mr. Chairman and members, for allowing 
me to come and say these few words.
    The Chairman. Thank you for being here and for that great 
introduction.
    The Chairman. Before your statement, Ms. Spellings, would 
you like to introduce your family members who are here today?
    Ms. Spellings. I would. They are in my remarks as well, but 
my husband Robert is sitting right there, and my daughter Mary 
LaMontagne and daughter Grace LaMontagne; also, my sister and 
brother-in-law, Nan and John Lawson, are here with me, and I am 
thrilled that they are.
    The Chairman. Thank you for being here, and we look forward 
to your testimony.

  STATEMENT OF MARGARET SPELLINGS, OF TEXAS, NOMINATED TO BE 
            SECRETARY, U.S. DEPARTMENT OF EDUCATION

    Ms. Spellings. Thank you.
    Mr. Chairman, Senator Kennedy, and members of the 
committee, I am gratified for the opportunity to appear this 
morning before you as President Bush's nominee to be Secretary 
of Education.
    There is no more important obligation each of us has to the 
American people than to educate our citizens. In our diverse 
country, we share the belief that education is the great 
equalizer. It is the key to success for individual Americans 
and the key to the success of our Nation--not just economic 
success but civic and democratic success. In our country, we 
believe that a great education must be available to each and 
every American.
    It is in that spirit that I am honored and humbled to be 
nominated to this post, and I am most grateful to President 
Bush for asking me to serve our country and our children in 
this important way.
    I am further gratified to be the first order of business 
before this reorganized Senate Health, Education, Labor, and 
Pensions Committee, and I congratulate you, Senator Enzi, on 
your chairmanship. I have had the opportunity to work with 
members and staff of this committee under the able leadership 
of Senator Gregg and Senator Kennedy, with whom I worked on No 
Child Left Behind, and I am grateful to them as well.
    I appreciate very much the kind remarks of Senator Cornyn. 
I am sorry that Senator Hutchison could not be here as well. I 
am proud to be represented by them in this body, and I have 
known both of them for many years.
    I too want to thank Secretary Rod Paige, who has given his 
life in service to children. There is no more passionate 
advocate for leaving no child behind than Secretary Paige. He 
has laid the foundation for improving education, and if 
confirmed, I will work to honor his lifelong commitment to 
children by continuing the good work he started.
    As I mentioned a minute ago, my family is with me--my 
husband Robert and my daughters Mary and Grace. As you all know 
well, public service is a commitment for families, and I love 
mine dearly for their sacrifices on my behalf.
    I have been involved in our public schools for more than 2 
decades and in many different ways. I am the parent of school-
age children, one in private school and one in public school. I 
have worked in public education as a policy wonk and a 
legislative advocate. I have worked in both the legislative and 
executive branches of government as well as at the local, 
State, and Federal levels. From parent to policymaker, I have 
seen public education from many angles and often been in the 
other person's shoes. As a proprietor of shoe stores, Mr. 
Chairman, I know you will appreciate that.
    In short, in 2 decades in public education, I have learned 
two main lessons. First, I have learned that every player in 
education has an important and rightful place. Those involved 
in education are people of good will who mean to serve 
children. There is plenty to do, and we must respect the role 
that we each play. In other words, not everybody should do 
everything. That is not always the case.
    In the early and mid-1980's, we focused on fixes and fads 
with little attention to results for kids. At the State level, 
we dictated who could play in the game on Friday night; we 
created career ladders for teachers; we established school 
councils, and on and on. We looked at averages and felt 
satisfied and complacent about the needs of individual 
children, especially poor and minority children.
    By the mid-1990's, the tide was beginning to turn. Through 
the implementation of sound data gathering and analysis, 
through standards and assessment, through enhanced 
accountability, we gained clarity of purpose and a clarity of 
roles and responsibilities that is now getting results for 
children and schools.
    Second, I have learned specifically about the appropriate 
role for each of us who works on behalf of students--in other 
words, what should we all do? Parents must be active 
participants in a child's education. They deserve information 
about their child's school, they deserve to know who is 
teaching their children, and they deserve options when their 
schools are not serving their children.
    Teachers--those loving adults who work with our children 
day to day--must have the support and tools necessary to teach 
all children. They deserve curricula based on the best research 
science has to offer about how best to teach. They deserve to 
know how their students are doing and who needs help with what. 
They deserve to teach in safe schools and orderly classrooms, 
and they deserve our deepest gratitude and utmost professional 
respect.
    Principals, superintendents and school boards, as leaders 
and managers of our schools, need data to evaluate programs and 
practices and to know what students and teachers need. They 
need resources aligned with priorities and results. They need 
to know what is working outside their communities as well as 
within them.
    State policymakers, who typically devote more than half 
their State budgets to education, expect that the students in 
their States will be prepared to compete in our country and the 
world. They need flexibility to meet the needs of their unique 
States and communities, and they need to be trusted to do right 
by their students.
    Federal officials, like us, have a responsibility to set 
strategic goals and provide resources aligned to these goals to 
ensure that our Nation is preparing our students to compete in 
the global economy. We must assist States in holding our 
schools accountable for the education of every child and 
promote access to high-quality education for all students 
irrespective of economic status, geography, or disability. We 
must foster the sharing of best practices and commission the 
research to keep our education system moving forward.
    This new governance paradigm, which is the foundation upon 
which the No Child Left Behind Act is built, is working for 
children across the land. We are investing resources and 
calling for results. In States all over our country, like in 
Maryland, Georgia, New Mexico, and Minnesota, students are 
scoring higher on State reading and math tests, and the 
achievement gap between African American, Hispanic, and low-
income students and their white peers is beginning to close.
    We have laid the foundation, and now we must take the 
necessary next steps in three key areas.
    First, we must do so politically. there is no more 
important example of real bipartisanship in this Congress or in 
this Administration than our work together on education. The 
recent enactment of the Individuals with Disabilities Education 
Act, as well as No Child Left Behind, are proof that education 
is an area where we can truly come together. IDEA passed this 
body by unanimous consent, and NCLB passed by a vote of 87 to 
10.
    Do we agree on everything? Of course we do not, and we will 
not. But if confirmed, I pledge to do all I can on behalf of 
the President to work with you to continue the spirit of 
bipartisanship that has been built. When we do so, we serve 
children by enacting policies and programs in their interest, 
and we model how government should work. I am committed to be a 
part of that lesson in good government for America's students.
    Second, we must build on the policy foundation that has 
been laid in NCLB. The focus of the act was establishing an 
accountability framework for schools. We called for annual 
assessment in grades 3 through 8 and called for attention to 
each student and each student group. It was largely focused on 
elementary and middle schools, and it gave special attention to 
the importance of reading. All were necessary and right.
    With only 67 of every 100 9th graders graduating from high 
school on time, and with the United States lagging behind in 
math, as recently reported in the Program for International 
Student Assessment Study, or PISA, we must turn our attention 
to high schools and to math and science.
    President Bush has called for additional resources to help 
middle and high school students who have fallen behind in 
reading and math. To ensure that high school principals and 
faculty have the data they need to improve instruction, the 
President has called for extending assessments to grades 3 
through 11 and for a high school intervention initiative which 
focuses on reading skills and the critical 9th grade year.
    We must also focus on the needs of adult learners. Of those 
100 9th graders I just spoke about, only 26 will still be in 
college in their sophomore year in a day and time when the 
fastest-growing jobs require at least that level of education. 
In this area, the President has called for additional resources 
for community colleges and other institutions to implement dual 
enrollment programs and ease student transfers. The President 
has also called on Congress to integrate a rigorous academic 
program for students in career and technology programs.
    With our authorizations of the Higher Education Act, the 
Workforce Investment Act, and the Carl A. Perkins Act which 
funds vocational education, we have a great opportunity to meet 
the needs of older students and adults to help them compete and 
succeed in our ever more competitive world.
    We must address the issues of affordability and 
accessibility by increasing resources for Pell grants and 
revamping the student aid system to better meet the needs of 
today's college students, 2/3 of whom are nontraditional 
students.
    Finally, we must work together to improve the process of 
implementing this new law. No Child Left Behind is transforming 
our system of education. We must listen to States and 
localities, to parents and reformers, about their experience 
with the act. We must stay true to the sound principles of 
leaving no child behind, but we in the Administration must 
engage with those closest to children to embed these principles 
in a sensible and workable way.
    I know there are many other areas of interest and concern 
to all of us, from charters to choice, from funding to 
families. My time today does not allow me to delve into all I 
would like. I would simply say that as we confront other policy 
areas together, we should do so in a way that supports the 
policies we have put in place in No Child Left Behind. In fact, 
we will celebrate the third anniversary of NCLB just 2 days 
from now. This law set in motion an historic transformation of 
American education that says every child matters, and every 
child can learn.
    We have begun that journey together, and if confirmed, I 
pledge to continue to travel that road with you, to work 
alongside you, to fulfill the promise of our great Nation to 
each and every citizen.
    Thank you for the opportunity to appear before you today. I 
appreciate very much the courtesy I have been shown by you and 
your staff. I look forward to listening to you, getting to know 
you better, and working together on behalf of America's 
children.
    I would be pleased to respond to your questions.
    [The prepared statement of Ms. Spellings follows:]

                    Statement of Margaret Spellings

    Mr. Chairman, Senator Kennedy, and members of the committee, I am 
gratified for the opportunity to appear this morning before you as 
President Bush's nominee to be Secretary of Education. There is no more 
important obligation each of us has to the American people than to 
educate our citizens. In our diverse country we share the belief that 
education is the great equalizer. It is the key to success for 
individual Americans and the key to the success of our Nation. Not just 
economic success but civic and democratic success. In our country we 
believe that a great education must be available to each and every 
American. It is in that spirit that I am honored and humbled to be 
nominated to this post and I am most grateful to President Bush for 
asking me to serve our country and our children in this important way.
    I am further gratified to be the first order of business before 
this reorganized Senate Health, Education, Labor, and Pensions 
Committee and I congratulate you, Senator Enzi, on your Chairmanship. I 
have had the opportunity to work with members and staff of this 
committee under the able leadership of Senators Gregg and Kennedy with 
whom I worked on No Child Left Behind and I am grateful to them as 
well.
    I appreciate very much the kind remarks of Senator Cornyn. I am 
sorry Senator Hutchison could not be here as well. I have known both of 
them for many years and am proud to be represented by them in this 
body.
    I wish to thank Secretary Rod Paige who has given his life in 
service to children. There is no more passionate advocate for leaving 
no child behind than Secretary Paige. He has laid the foundation for 
improving education and if confirmed I will work to honor his lifelong 
commitment to children by continuing the good work he started.
    Finally, I wish to acknowledge my family; my husband, Robert, my 
daughters, Mary and Grace, and sons, Robert and Britain. My husband, 
Robert, and my daughters are here today. As you all know well, public 
service is a commitment for families and I love my family dearly for 
their sacrifices on my behalf.
    I have been involved in our public schools for more than 2 decades 
and in many different ways. I am a parent of school-aged children--one 
in public school and one in a private parochial school. I have worked 
in public education as a policy wonk and as a legislative advocate. I 
have worked in both the legislative and executive branches of 
government as well as at the local, State and Federal levels. From 
parent to policy maker, I have seen public education from many angles 
and often been in the other person's shoes. As a proprietor of shoe 
stores, Mr. Chairman I know you will appreciate that.
    In short, in 2 decades in public education I have learned two main 
lessons. First, I have learned that every player in education has an 
important and rightful place. Those involved in education are people of 
good will who mean to serve children--there is plenty to do and we must 
respect the role we each play. In other words, not everybody should do 
everything. That was not always the case.
    In the early and mid 1980's we focused on fixes and fads with 
little attention to results for kids. At the State level, we dictated 
who could play in the game on Friday night, we created career ladders 
for teachers, we established school councils, and on and on. We looked 
at averages and felt satisfied and complacent about the needs of 
individual children--especially poor and minority children. By the mid 
1990's, the tide was beginning to turn.
    Through the implementation of sound data gathering and analysis, 
through standards and assessment, through enhanced accountability, we 
gained clarity of purpose and a clarity of roles and responsibilities 
that is now getting results for children in schools.
    Second, I have learned specifically about the appropriate role for 
each of us who work on behalf of students. In other words, what should 
we all do?
    Parents must be active participants in a child's education--they 
deserve information about their child's school, they deserve to know 
who is teaching their child and they deserve options when their schools 
are not serving their children.
    Teachers, those loving adults who work with our children day to 
day, must have the support and tools necessary to teach all children. 
They deserve curricula based on the best research science has to offer 
about how best to teach. They deserve to know how their students are 
doing and who needs help with what. They deserve to teach in safe 
schools and orderly classrooms and they deserve our deepest gratitude 
and utmost professional respect.
    Principals, Superintendents, and School Boards, as leaders and 
managers of our schools, need data to evaluate programs and practices 
and to know what students and teachers need. They need resources 
aligned with priorities and results. They need to know what is working 
outside their communities as well as within them.
    State policymakers, who typically devote more than half their State 
budgets to education, expect that the students in their State will be 
prepared to compete in our country and the world. They need flexibility 
to meet the needs of their unique States and communities and they need 
to be trusted to do right by their students.
    Federal officials--like us--have a responsibility to set strategic 
goals and provide resources aligned to these goals to ensure that our 
Nation is preparing our students to compete in the global economy. We 
must assist States in holding our schools accountable for the education 
of every child and promote access to high quality education for all 
students irrespective of economic status, geography or disability. We 
must foster the sharing of best practices and commission the research 
to keep our education system moving forward.
    This new governance paradigm--which is the foundation upon which 
the No Child Left Behind Act is built--is working for children across 
the land. We are investing resources and calling for results. In States 
all over the country--like in Maryland, Georgia, New Mexico and 
Minnesota--students are scoring higher on State reading and math tests. 
And, the achievement gap between African-American, Hispanic and low-
income students and their white peers is beginning to close.
    We have laid the foundation and now must take the necessary next 
steps in three key areas:
    First, we must do so politically. There is no more important 
example of real bipartisanship in this Congress or in this 
Administration than our work together on education. The recent 
enactment of the Individuals with Disabilities Education Act (IDEA), as 
well as No Child Left Behind, are proof that education is an area where 
we can truly come together. IDEA passed by unanimous consent and NCLB 
passed the Senate by a vote of 87 to 10.
    Do we agree on everything? Of course we don't. And we won't. But if 
confirmed, I pledge to do all I can on behalf of the President to work 
with you to continue the spirit of bipartisanship that has been built. 
When we do so, we serve children by enacting policies and programs in 
their interest and we model how government should work. I am committed 
to be a part of that lesson in good government for America's students.
    Second, we must build on the policy foundation that has been laid 
in NCLB. The focus of the act was establishing an accountability 
framework for schools. We called for annual assessment in grades 3 
through 8 and called for attention to each student and each student 
group. It was largely focused on elementary and middle schools, and it 
gave special attention to the importance of reading. All were necessary 
and right.
    With only 67 of every 100 9th graders graduating from high school 
on time and with the United States lagging behind in math, as recently 
reported in the Program for International Student Assessment study 
(PISA), we must turn our attention to high schools and to math and 
science. President Bush has called for additional resources to help 
middle and high school students who have fallen behind in reading and 
math. To ensure that high school principals and faculty have the data 
they need to improve instruction the President has called for extending 
assessments to grades 3 through 11 and for a high school intervention 
initiative, which focuses on reading skills and the critical 9th grade 
year.
    We must also focus on the needs of adult learners. Of those 100 9th 
graders I just spoke about only 26 will still be in college in their 
sophomore year in a day and time when the fastest growing jobs require 
at least that level of education. In this area, the President has 
called for additional resources for community colleges and other 
institutions to implement dual enrollment programs and ease student 
transfers. The President has also called on Congress to integrate a 
rigorous academic program for students in career and technology 
programs.
    With the authorizations of the Higher Education Act, the Carl A. 
Perkins Act, which funds vocational education, and the Workforce 
Investment Act, we have a great opportunity to meet the needs of older 
students and adults to help them compete and succeed in our ever more 
competitive world. We must address the issues of affordability and 
accessibility by increasing resources for Pell Grants and revamping the 
student aid system to better meet the needs of today's college 
students--2/3 of whom are nontraditional students.
    Finally, we must work together to improve the process of 
implementing this new law. No Child Left Behind is transforming our 
system of education. We must listen to States and localities--to 
parents and reformers about their experience with the act. We must stay 
true to the sound principles of leaving no child behind but we in the 
Administration must engage with those closest to children to embed 
these principles in a sensible and workable way.
    I know there are many other areas of interest and concern to all of 
us, from charters to choice, from funding to families. My time today 
does not allow me to delve into all I would like. I would simply say, 
as we confront other policy areas together, we should do so in a way 
that supports the policies we have put in place in No Child Left 
Behind. In fact, we will celebrate the third anniversary of NCLB 2 days 
from now. This law set in motion a historic transformation of American 
education that says every child matters and every child can learn. We 
have begun that journey together and if confirmed I pledge to continue 
to travel that road with you to work alongside you to fulfill the 
promise of our great Nation to each and every citizen.
    Thank you for the opportunity to appear before you today. I 
appreciate the courtesy I have been shown by you and your staff. I look 
forward to listening to you, getting to know you better, and working 
together on behalf of America's children. I will be pleased to respond 
to your questions.

    The Chairman. Thank you for your testimony.
    You have generated a lot of interest. So far, we have 
received 63 letters of support for you as the next Secretary of 
Education, and they come from a wide variety of stakeholders--
they are teachers, administrators, school board members, and a 
number of other groups--and I would ask unanimous consent that 
these be made a part of the record.
    Without objection. [Letters follow:]

                                ------                                

   Associated Builders and Contractors, Inc. (ABC),
                                       Arlington, VA 22203,
                                                   January 7, 2005.
U.S. Senate,
Washington, DC 20510.

    Dear Senator: On behalf of Associated Builders and Contractors 
(ABC) and its 23,000 construction and construction-related member 
firms, I urge you to support the nomination of Margaret Spellings as 
the U.S. Secretary of Education.
    Ms. Spellings' prior experience working with the State of Texas 
educational system, coupled with her recent experience serving as 
domestic policy advisor for the Bush Administration, makes her an 
excellent candidate to lead this vital Department.
    ABC has long been involved with the Department of Education's 
efforts to strengthen the quality of career and technical education 
programs at the secondary school level. We share the vision that 
students who are well prepared through career and technical education 
programs will have an array of college and career choices, and will 
ultimately be ready to step into the workforce and make an immediate 
contribution.
    There are more than 240,000 job opportunities opening every year in 
the construction industry due to the aging and retiring of our 
workforce. Most of the skilled trade positions are experiencing job 
growth rates of 10 percent and above, while unemployment among the 
skilled trades is below 2 percent. Many high school students are eager 
to enter the workforce immediately following graduation and apply the 
academics they have learned in a hands-on, practical manner. ABC craft 
training and apprenticeship programs offer today's youth pathways into 
a high-skilled career with corresponding high wages.
    Again, I urge you to support the confirmation of Margaret Spellings 
as Secretary of Education when her nomination is considered by the U.S. 
Senate. ABC looks forward to continued collaboration with the 
Department of Education and the 109th Congress, particularly in the 
reauthorizations of the Workforce Investment Act and the Carl Perkins 
Act.
            Sincerely,
                                             Gary D. Roden,
                                            2005 National Chairman.
                                 ______
                                 
                      American Enterprise Institute
                        for Public Policy Research,
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi, 
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: I am honored to have the opportunity to write 
this letter in support of Margaret Spellings' nomination to serve as 
U.S. Secretary of Education. Margaret Spellings is a committed and 
experienced reformer who has been at the forefront of efforts to 
promote educational excellence in the State of Texas and in the United 
States. She is superbly suited to lead the U.S. Department of Education 
in its effort to improve schools across the Nation.
    Ms. Spellings is highly regarded by analysts, observers, and 
partisans across the breadth of the education community. She is widely 
recognized for her acumen, mastery of complex issues, and leadership in 
school improvement. She is particularly well-known for her efforts to 
make school performance transparent and ensure that all families have a 
choice of effective schools.
    Those of us who follow education policy on a routine basis have 
been impressed by the critical role Ms. Spellings has played in shaping 
and enacting education legislation, most notably the landmark No Child 
Left Behind Act. Those who have negotiated and worked closely with her 
have testified to her knowledge, passion, and steadfastness while 
working to improve education. It is a testament to Ms. Spellings' 
character that she has endeavored to maintain a modest profile during 
the past 4 years while assisting Secretary Paige and his team in their 
efforts to implement No Child Left Behind. Ms. Spellings seems 
especially well-suited for the position at this point in time, when 
ongoing negotiations with States may be best accomplished by a measured 
tone and a steady hand.
    Ms. Spellings is a committed education reformer and an ally of 
those who would use the principles of accountability, competition, 
flexibility, and reinvention to help ensure that our Nation's schools 
are equal to the challenges of the 21st century. I wholeheartedly 
support her nomination for U.S. Secretary of Education.
            Sincerely,
                                         Frederick M. Hess,
                              Director of Education Policy Studies.
                                 ______
                                 
                                   State of Alabama
                           Department of Education,
                                 Montgomery, AL 36130-2101,
                                                   January 4, 2005.
Hon. Mike Enzi,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: I am writing to request your support for the 
confirmation of Mrs. Margaret Spellings who, as you know, has been 
nominated by President Bush for the position of Secretary of Education. 
I believe that Mrs. Spellings has proven that she is an energetic 
reformer and will be an outstanding Secretary of Education. She shares 
your deep commitment to education and your passionate desire to make 
America's schools the finest in the world. She also understands that it 
is through the education of America's children that the strength and 
greatness of America will continue.
    Mrs. Margaret Spellings, like Dr. Rod Paige, has held a lifelong 
commitment to children and has distinguished herself as an education 
and domestic policy advisor and a champion for the strengthening of 
public schools. Through her work with the Texas Association of School 
Boards, two Texas governors, and the U.S. Domestic Policy Council, Mrs. 
Spellings displayed the intellect, discipline, and determination needed 
of a person who serves as the highest education official in America. I 
believe that her talent, idealism, good humor, and her grounded 
perspective on life make her ideal to become one of the most effective 
Secretary's of Education in our Nation's history. It is with this 
belief that I ask for your support for Mrs. Spellings confirmation as 
Secretary of Education.
    Thank you for your leadership, your intolerance of failure, and 
your inspired commitment to all students in America's public schools. 
As State Director of Special Education in Alabama, I know that every 
child can learn and that no child should be left behind. It is up to 
you, me, and leaders like Mrs. Spellings to ensure that every child, 
including a student with disabilities, has the skills and qualities 
necessary to realize the American Dream. We cannot fail. We must keep 
this promise that our Nation has made to ALL our children.
            Sincerely,
                                          Mabrey Whetstone,
                                                    State Director,
                                        Special Education Services.
                                 ______
                                 
                               Business Roundtable,
                                 Washington, DC 20036-5610,
                                                   January 4, 2005.
Hon. Michael B. Enzi,
U.S. Senate,
Washington, DC 20510.
Hon. Edward M. Kennedy,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi and Senator Kennedy: On behalf of Business 
Roundtable, an association of CEOs of leading corporations with a 
combined workforce of more than 10 million employees in the United 
States, I would like to convey our strong support for the confirmation 
of Margaret Spellings as U.S. Secretary of Education. We are confident 
that Ms. Spellings has the necessary experience and character to lead 
the Department of Education at a time when knowledge and skills 
increasingly provide the foundation for both individual and national 
success.
    Improving U.S. education performance is one of Business 
Roundtable's top priorities, and we are encouraged by early signs of 
progress since passage of the No Child Left Behind Act. However, as 
recently released international assessments of student performance 
indicate, we still have a long way to go. We are particularly concerned 
about the need for a stronger national commitment to science, 
technology, engineering and mathematics education. We urge you to 
confirm Ms. Spellings as quickly as possible so that she can begin to 
work on these critical issues.
    As Members of Congress and the Administration work to promote 
policies that help build a healthy, prosperous economy and secure 
America's future, Ms. Spellings is a strong education leader who 
deserves speedy confirmation.
    Thank you for your tireless leadership in working to improve 
education for all of our children. The CEOs of Business Roundtable are 
eager to work with you to support education reform aggressively 
throughout the country.
            Sincerely,
                                           Joseph M. Tucci,
                    Chairman, Education & the Workforce Task Force,
                                               Business Roundtable,
                                                 President and CEO,
                                                   EMC Corporation.
                                 ______
                                 
                American Youth Policy Forum (AYPF),
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
    Dear Senator Enzi: I am writing in support of the nomination of 
Margaret Spellings to be U.S. Secretary of Education.
    As Director of the American Youth Policy Forum (AYPF), a nonprofit, 
nonpartisan organization that provides information on effective 
education and youth policies and programs to policymakers, I have had 
an opportunity to become familiar with Margaret Spellings and her work 
as Assistant to the President for Domestic Policy. I have been 
particularly encouraged by her leadership of the White House Task Force 
on Disadvantaged Youth, which has highlighted a number of serious 
issues affecting youth populations such as foster care youth, youth 
involved in the juvenile justice system, and those who drop out of high 
school. As an organization that focuses to a large extent on high 
school reform, I am also very pleased by the interest expressed by the 
President to ensure that the Nation's secondary schools prepare every 
student to graduate with the skills needed to succeed in today's 
economy and society, and am certain that Ms. Spellings will be a 
forceful advocate for this position. The Administration's policy focus 
on educational standards and accountability for high schools has been 
needed, but it is balanced and supplemented by an emphasis on improving 
adolescent literacy and helping youth improve their reading skills, 
which Ms. Spellings has helped articulate.
    I look forward to working with Ms. Spellings and the Administration 
as it continues efforts to strengthen educational opportunities and 
outcomes for all American youth.
            Sincerely,
                                               Betsy Brand,
                                                          Director.
                                 ______
                                 
                  Department of Public Instruction,
                                   Bismarck, ND 58505-0440,
                                                   January 3, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: In the deliberations ahead regarding President 
Bush's nominee to be the next Secretary of Education, I respectfully 
encourage your support for Margaret Spellings. It's my understanding of 
Ms. Spellings' background that she is a former teacher. Nominating a 
teacher to be the key policymaker in education in our Nation would send 
a clear signal to the education community that the time has come for a 
new level of collaboration with the frontline education professionals 
in our Nation.
    My principal reason in writing to express support for Ms. Spelling 
is because of her longstanding commitment for our Federal special 
education law, the Individuals with Disabilities Education Act (IDEA). 
Ms. Spellings was also instrumental in designing the No Child Left 
Behind Act (NCLB) that has so dramatically altered the plane of focus 
in American education. With the reauthorization of the IDEA we have 
seen an increased alignment of the IDEA with NCLB. It is imperative at 
this critical juncture that an individual who is truly knowledgeable 
about all aspects of both of these major pieces of Federal legislation 
be guiding the U.S. Department of Education. I am confident that Ms. 
Spellings would keep in mind the needs of our Nation's students who 
have disabilities, their families, and the educators who work so 
tirelessly to serve them.
    Your consideration of Margaret Spellings to be the next Secretary 
of Education would he greatly appreciated.
            Respectfully,
                                             Robert Rutten,
                                     Director of Special Education.
                                 ______
                                 
                                                   January 4, 2005.
Hon. Edward Kennedy,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

Re: Nomination of Margaret Spellings as U.S. Secretary of Education

    Dear Senator Kennedy: I am writing in support of the nomination of 
Margaret Spelling as U.S. Secretary of Education. I have known Mrs. 
Spellings since April of 1999, and I give her my strongest endorsement.
    I am a research fellow at Stanford University's Hoover Institution, 
where I specialize in education policy. I am the editor of and a 
contributor to a number of books on K-12 education, as well as having 
written articles for newspapers and magazines. On a practical level, I 
am an elected member of the Santa Clara County School Board and the 
former board president of the East Palo Alto Charter School. I also 
serve on official California State panels that approve K-8 history 
textbooks, run training programs for K-12 history teaching, and write 
and approve test questions in mathematics and in history for the 
statewide program of student testing. I served as a member of the U.S. 
Department of Education's National Educational Research Policy and 
Priorities Board, from 2001 to 2002.
    I worked with Mrs. Spellings during the 2000 George W. Bush 
campaign and during her tenure as domestic policy adviser to the 
President. She gave me counsel before and while I was in Iraq as senior 
education adviser to Ambassador Paul Bremer (July-December 2003).
    I have found Mrs. Spellings to be unfailingly straightforward, 
friendly, sensible and realistic. In my experience, she has always 
shown herself be a person of good judgment. She is dedicated to every 
child attaining his or her academic potential and wants to ensure that 
all of our schools are effective in this endeavor. She is thoroughly 
knowledgeable about education policy at the various levels of 
government and has a broad and extensive familiarity with research on 
education.
    I give her my wholehearted endorsement.
            Sincerely yours,
                                       Williamson M. Evers,
                                                   Research Fellow,
                           Hoover Institution, Stanford University.
    (The views in this letter are those of the author and not 
necessarily the views of Stanford University or the Hoover 
Institution.)
                                 ______
                                 
                       Thomas B. Fordham Institute,
                                      Washington, DC 20006,
                                                 December 27, 2004.
Senator Mike Enzi,
Chairman-designate,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman: I want to applaud and endorse the nomination of 
Margaret Spellings to become the 8th U.S. Secretary of Education and to 
encourage the committee and the Senate to confirm her in that position.
    Though Margaret and I are not always in complete agreement on 
issues of education policy, she is an accomplished and knowledgeable 
policymaker in this field. She is conversant with a wide range of 
issues. She enjoys the President's complete confidence. She is a major 
architect of the No Child Left Behind Act, the successful 
implementation of which is probably the greatest single challenge 
facing the Education Department during the President's second term. She 
is capable of working closely with the Congress. She has ample state-
level experience. She is not intimidated by education's army of 
interest groups. And she will assemble a capable team.
    In sum, she's a fine choice for this important position. Thanks 
very much for your consideration.
            Sincerely,
                                      Chester E. Finn, Jr.,
                                                         President.
                                 ______
                                 
            The International Dyslexia Association,
                                  Baltimore, MD 21286-2044,
                                                   January 5, 2005.
Hon. Michael B. Enzi,
Member Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Re: Confirmation of Margaret Spellings as Secretary of Education

    Dear Senator Enzi: The one area where Republicans, Democrats, 
Liberals, and Conservatives display a mutuality of interest, concern, 
and dedication is education. ``If you think education is expensive, try 
ignorance!'' (Peter Drucker) Forty percent of children in this country 
are significantly delayed in their acquisition of literacy skills by 
the 3rd grade. This is not a mere fact, it is an indictment. In the 
United States our policy has been to respond to failure not the risk of 
failure. If medicine followed the same policy a doctor would tell a 
patient whose cancer was detected early to comeback when his ability to 
walk is affected. In education the impact goes beyond the life of the 
individual; the economy suffers, society suffers, and future 
generations suffer. John Kenneth Galbraith (in comparing freedom, 
democracy, and literacy) has said that, ``the conquest of literacy 
comes first.'' The conquest of literacy is a war we can all agree to 
fight in our country, in our time. This war is bloodless, everyone 
wins, and the rest of the world will learn by our example,
    Margaret Spellings is the right person at the right time to lead us 
in this campaign and to move our front lines from research to practice. 
She is dedicated to a model of early intervention that prevents rather 
than merely responds to failure.
    No Child Left Behind is like a huge lumbering cargo ship; its holds 
need to be filled with quality goods and it has to be sailed with 
finesse and restraint by someone who respects what works, recognizes 
what doesn't, and knows where to look for answers. There could be no 
better leader in this time of change than someone who values prevention 
and who has drawn close the most informed, expert, and respected 
advisors in the field of education. Margaret Spellings does not merely 
bring her individual talents to the position, but more significantly, 
she brings a team of the most talented, expert, and experienced 
advisors that are available.
    As President, President-Elect, and Executive Director of the 
International Dyslexia Association we respectfully encourage you to 
support and move quickly to confirm the nomination of Margaret 
Spellings as Secretary of Education.
            Respectfully submitted,
                                            Nancy Hennessy,
                                                         President.
                                        G. Emerson Dickman,
                                                   President-Elect.
                                           J. Thomas Viall,
                                                Executive Director.
                                 ______
                                 
           Manhattan Institute for Policy Research,
                                        New York, NY 10017,
                                                   January 4, 2005.

    Dear Senators Enzi and Kennedy: I was pleased to learn that 
President Bush nominated Margaret Spellings to be Secretary of 
Education.
    From my experience with her in Austin and Washington, I believe 
that she is extremely capable and dedicated to improving the quality of 
American education. She appears to share the President's commitment to 
an education reform strategy based on the twin pillars of increasing 
choice and accountability. In particular, I understand that she played 
key roles in passing the No Child Left Behind legislation as well as 
Washington, DC's pilot voucher program.
    I expect that upon confirmation by the Senate she will continue her 
promotion of choice and accountability as Secretary. I look forward to 
working with her in that role to assess the effectiveness of reform 
efforts and advocate for policies that help children achieve greater 
success in school and their later lives.
            Sincerely,
                                      Jay P. Greene, Ph.D.,
                                                     Senior Fellow.
                                 ______
                                 
             National Association of Manufacturers,
                                 Washington, DC 20004-1790,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Edward Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Chairman Enzi and Ranking Member Kennedy: On behalf of the 
members of the National Association of Manufacturers (NAM), the 
Nation's largest industrial trade association, representing small and 
large manufacturers in every industrial sector and in all 50 States, I 
write to express our strong support for the nomination of Margaret 
Spellings to serve as Secretary of Education.
    Ms. Spellings is eminently qualified to serve as the Nation's 
Secretary of Education. Ms. Spellings understands the importance of a 
strong education system in ensuring America's economic competitiveness 
in a challenging global economy. Perhaps more importantly, she 
appreciates the critical role that education plays in providing hope 
and opportunity and believes strongly that every child can succeed. In 
Texas, where she served as then-Governor Bush's chief education 
advisor, Ms. Spellings was instrumental in developing and implementing 
strong standards, good assessments and tough accountability measures in 
Texas schools. That first hand experience and know-how served her well 
as the Assistant to the President for Domestic Policy where she, among 
other things, advised President Bush on No Child Left Behind. I believe 
Ms. Spellings has the experience, commitment and passion for education 
to fully realize the promise of that law in addition to the all other 
matters under the purview of the Department of Education.
    I hope that you will act promptly and favorable upon Ms. Spellings 
nomination. If there is any way that the NAM can be of assistance to 
you, please do not hesitate to contact us.
            Sincerely,
                                               John Engler,
                                                 President and CEO.
                                 ______
                                 
            National Association of State Directors
               of Special Education, Inc. (NASDSE),
                                      Alexandria, VA 22314,
                                                   January 3, 2005.
Hon. George W. Bush,
President,
United States of America,
Washington, DC 20510.

Attn: Ms. Joey Lee, Office of Public Liaison

    Dear President Bush: On behalf of the members of the National 
Association of State Directors of Special Education (NASDSE), I am 
writing in support of your nomination of Margaret Spellings to be the 
Secretary of Education. NASDSE represents the directors of special 
education in the States, the District of Columbia, the Bureau of Indian 
Affairs, the Department of Defense and other Federal jurisdictions and 
Freely Associated States.
    Ms. Spellings is uniquely qualified to be our Nation's next 
Secretary of Education and we look forward to her confirmation by the 
U.S. Senate. Her background at the State level in Texas and involvement 
with the enactment and implementation of the No Child Left Behind Act 
(NCLB) will enable her to work well with the States, not only on the 
ongoing implementation of NCLB, but also on the newly enacted 
Individuals with Disabilities Education Improvement Act of 2004 (IDEA).
    NASDSE's members are eager to begin implementation of the new IDEA 
and look forward to working with Ms. Spellings to ensure that all 
students with disabilities achieve to their maximum potential.
            Sincerely,
                                          Bill East, Ed.D.,
                                                Executive Director.
                                 ______
                                 
   National Center for Learning Disabilities, Inc. 
                                            (NCLD),
                                   New York, NY 10016-8806,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re: Nomination of Margaret Spellings, U.S. Secretary of Education

    Dear Chairman Enzi: The National Center for Learning Disabilities 
(NCLD) strongly supports the nomination of Margaret Spellings as the 
U.S. Secretary of Education. As a leading organization in support of No 
Child Left Behind (NCLB), as well as the recently signed Individuals 
with Disabilities Education Act (IDEA), we believe that millions of 
students nationwide will benefit from Ms. Spellings' forthright 
commitment to improving achievement for all students. As one of the 
Nation's leading experts in education policy, she has been a driving 
force behind Federal policy in support of scientifically-based research 
and instruction.
    NCLD has noted Ms. Spellings' dedication to improving public 
schools. We have begun to see the results of NCLB as it seeks to close 
the achievement gap for students with disabilities. Although States 
have fought the implementation of the NCLB accountability measures, Ms. 
Spellings and her staff have led the way for policy makers to preserve 
the integrity and intent of the law. NCLD supports these efforts to 
raise expectations for all students, especially those with learning 
disabilities, who are most likely to be in the general classroom for 
the majority of their day.
    As one of our close advisors told us, ``Margaret Spellings is 
absolutely committed to improving results for students, all students. 
Her integrity is backed by her intelligence, tenacity, toughness, and 
administrative skills.'' All of those qualities are needed as the 
Department, State and local education agencies, nonprofit education 
organizations like NCLD, business leaders, and parents work together to 
implement and align NCLB and IDEA.
    Thank you for the opportunity to recommend Margaret Spellings as 
U.S. Secretary of Education. We respectfully request that you give Ms. 
Spellings your full consideration.
            Sincerely,
                                          James H. Wendorf,
                                                Executive Director.
                                 ______
                                 
       National Council for Agricultural Education,
                                      Alexandria, VA 22911,
                                                   January 4, 2005.
Hon. Edward Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Kennedy: On behalf of The National Council for 
Agricultural Education, I would like to express our support for the 
nomination of Margaret Spellings to become the Nation's next Secretary 
of Education.
    Agricultural Education and the National FFA Organization have 
worked closely with the Administration and the Department of Education 
to reach out to the Career and Technical Education community in support 
of national goals for education. Further, the proven, integrated model 
of academic, personal, and career development through agricultural 
education and FFA provides a compelling strategy for increasing the 
effectiveness and accountability of the Nation's secondary school 
systems. We believe Margaret Spellings will provide effective 
leadership for extending this model, to even, more local communities.
    Having been granted a Federal charter in 1950, the National FFA 
Organization today provides \1/2\ million students with opportunities 
to develop leadership skills. It also delivers important recognition 
programs that encourage students to apply academic knowledge in 
competitive and work based experiential contexts. With studies in 
animal science, horticulture, biotechnology, and numerous other areas, 
secondary agricultural education and PTA are enabling students to 
succeed in their academic pursuits, careers, and communities. We 
believe the contributions of our program and others in Career and 
Technical Education are essential in broadly educating all of our young 
people, regardless of background or individual learning needs.
    Please know that all of us in agricultural education--our State 
leaders, university teacher educators, classroom teachers, FFA staff, 
and industry supporters--will continue to work with the Department of 
Education to achieve success for all of our students.
            Sincerely,
                                                Ed Osborne,
                                                         President.
                                 ______
                                 
                California Department of Education,
                                 Sacramento, CA 95814-5901,
                                                   January 4, 2005.
Hon. Edward M. Kennedy,
U.S. Senate,
Washington, DC 20510-5004.

    Dear Senator Kennedy: I am writing to urge you to confirm Ms. 
Margaret Spellings as the Secretary of Education. The education of our 
youth is among our most vital responsibilities, one that can only be 
fulfilled through the dedicated effort of individuals like Margaret 
Spellings. For 20 years, Ms. Spellings has demonstrated a commitment to 
excellence in developing and implementing programs and policies that 
give our children and youth the rigorous, world-class education they 
will need to be the contributing 21st Century citizens whom our great 
country deserves and needs.
    As Assistant Superintendent of Public Instruction and Director of 
Special Education for the California Department of Education, Ms 
Spellings' efforts and beliefs have enhanced the work I do to ensure 
that California's 680,000 children with disabilities are able to 
participate in and benefit from the general education curricula. Her 
advocacy for high quality educational opportunity for all children, 
including children with disabilities, has moved forward a national 
agenda with great promise!
    In my role, first as President, and currently as Past President of 
the National Association of State Directors of Special Education, I 
have seen the benefit from No Child Left Behind on systems' change 
efforts in schools, school districts and State education agencies. This 
is due in no small part to Ms. Spellings' leadership and advocacy in 
this landmark education reform effort.
    Your approval and confirmation of Ms. Spellings as Secretary of 
Education will help our Nation's schools and school systems continue 
this critical work to move beyond adequate to exemplary for each child 
in the public system and to solidify America's educational system as 
the leader in the world.
    I urge you to quickly confirm Ms. Spellings' appointment so that 
our national promise to all children will be achieved.
            Sincerely,
                                    Alice D. Parker, Ed.D.,
                    Assistant Superintendent of Public Instruction,
                                     Director of Special Education.
                                 ______
                                 
            Sergeants Benevolent Association (SBA),
                                        New York, NY 10013,
                                                 December 13, 2004.
Senator Michael Enzi,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: The New York City Sergeants Benevolent 
Association, whose 10,000 members make it the fourth largest police 
union in the country, wholeheartedly support President Bush's 
nomination of Margaret Spellings for Secretary of Education of the 
United States.
    Her long and distinguished educational career makes her well-suited 
for this position. Although she now serves as Assistant to the 
President for Domestic Policy, where she is responsible for the 
development and implementation of White House policy on education, 
health care, labor, transportation, justice, and housing, she has a 
rich and illustrious educational legacy.
    During President Bush's tenure as Governor of Texas, she was the 
Associate Executive Director of the Texas Association of School Boards. 
Besides developing the Nation's strongest school assessment and 
accountability system, she oversaw strong reading programs and 
innovative charter school law.
    On a national level, she was instrumental in the development of the 
No Child Left Behind Act, which is producing significant improvements 
in reading and math for America's children.
    As Secretary of Education, Ms. Spellings will work tirelessly to 
eliminate social promotion, while also promoting accountability among 
educational institutions, and improving the educational system at all 
levels for every student in this country.
    In the past few years the Sergeants Benevolent Association has 
implemented numerous scholarship programs for the children and 
dependents of its members. In addition, we have initiated art and 
writing contests for those children in grades K-12. Being a very 
educationally-oriented organization, we have researched Ms. Spellings' 
credentials and believe her to be the best candidate for this position.
    American schoolchildren have the right to dream the American Dream, 
and they have an even greater right to see their dreams come to 
fruition if they are willing to work hard enough to attain them. Ms. 
Spellings has already proven her commitment to this Nation's youth, and 
we at the SBA are honored to support the President's nomination of her 
to such a crucial post. We encourage you to do the same.
            Sincerely,
                                                Ed Mullins,
                                                         President.
                                 ______
                                 
                        Association for Supervision
                 and Curriculum Development (ASCD),
                                 Alexandria, VA 22311-1714,
                                                   January 3, 2005.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: On behalf of the 165,000 members of the 
Association for Supervision and Curriculum Development (ASCD), I write 
to support the nomination of Margaret Spellings for U.S. Secretary of 
Education. We have been impressed with her ability, candor, and 
willingness to work with the educational community in her current post 
as Domestic Policy Advisor to the President. Ms. Spellings will bring a 
wealth of experience and knowledge to the Department. We are also 
confident she will help build stronger relationships with the 
professional education community for the benefit of our Nation's 
students.
    ASCD is an international, nonprofit education association with 
affiliates in all 50 States. Our focus is on learning and teaching and 
the necessary professional development to support best practices and 
innovation. We provide fair, balanced, and research-based information 
to our members, professional educators, and policy makers across the 
United States and worldwide.
    Again, on behalf of the dedicated members of ASCD and the young 
people we serve, I appreciate the opportunity to offer our support for 
Margaret Spellings as the next Secretary of Education. If you need any 
additional information, please contact me. Best wishes for a successful 
hearing and confirmation.
            With warmest personal regards,
                                            Gene R. Carter,
                                        Executive Director and CEO.
                                 ______
                                 
                           Best Friends Foundation,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Edward Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Re: Letter of Commendation for Margaret Spellings

    Dear Senator Enzi and Senator Kennedy: I am writing to lend my 
unequivocal support to Margaret Spellings' candidacy for the critical 
position of President Bush's Secretary of Education. As one of the 
principal authors of President Bush's ``No Child Left Behind'' 
initiative, Margaret Spellings has shown admirable wisdom and 
determination in seeing the legislation through to nationwide 
implementation, and even more importantly has demonstrated a commitment 
to ongoing rigorous research and support of methods that work to 
improve student learning and achievement. In my work which takes me to 
over 150 public schools in Washington, DC and across the Nation, I have 
seen the benefits of the ``No Child Left Behind'' initiative. Even in 
the inner city schools there has been improvement in standardized test 
scores.
    My area of expertise is in adolescent development in primary and 
secondary school students. As the founder of one of the longest running 
abstinence education programs in the United States, Best Friends, I 
have seen first-hand how important high standards, both behavioral and 
academic, are to school achievement. Our extensive work which spans 
almost 20 years with at-risk youth in Washington, DC, Milwaukee, 
Newark, Charlotte and many other cities has clearly demonstrated the 
link between behavioral standards, reduction of risk behavior and 
increased academic achievement. Best Friends is an in school, long-term 
program which helps students reject premarital sex, drugs, alcohol and 
violence and encourages achievement and positive peer activities.
    Mrs. Spellings has taken the time to request our research and 
review our curriculum. She is especially interested in education 
programs for urban youth and the effectiveness of their models. She has 
impressed me with her intelligent questions and thorough understanding 
of the important issues. Mrs. Spellings believes that abstinence is 
best taught in a developmental framework which promotes cognitive 
development and reasoning skills. We share her philosophy and her 
adherence to consistent and rigorous evaluation of intervention 
programs. Margaret Spellings knows that risk behavior is often 
clustered and that drugs and alcohol are consistently linked with 
sexual activity. She has reviewed our research data (see the following) 
which supports her belief that school-based risk prevention programs 
are wise to treat multiple risk behaviors.

        The 2003-04 Best Friends students' behavior as compared to 
        their peers evaluated by the YRBS (Youth Risk Behavior Survey) 
        survey from the Center for Disease Control demonstrates that in 
        DC public schools:

        <bullet> Alcohol use is 24 percent among Best Friends, as 
        compared to 55 percent among their peers.
        <bullet> Drug use is 3 percent among Best Friends, as compared 
        to 36 percent among their peers.
        <bullet> Sexual activity is 6 percent among Best Friends, as 
        compared to 30 percent among their peers.

    Similar differences in risk behavior have been demonstrated in the 
Best Men program. Especially noteworthy is the increase in academic 
achievement and higher standardized test scores. We are gratified that 
our research is an additional validation of the accuracy of her 
position.
    In my conversations with her, I have seen that Margaret Spellings 
is an astute judge of worthwhile educational programs. I am confident 
that under Margaret Spellings' energetic leadership, the Department's 
dedication to reform and the interest in research and the use of 
accountability standards will flourish. As a researcher and program 
implementer. I wholeheartedly endorse her candidacy, and I look forward 
to working with her, for the future of our children and our country's 
public schools. We would indeed be fortunate to have Margaret Spellings 
as the U.S. Secretary of Education.
            Most sincerely,
                                            Elayne Bennett,
                                             President and Founder,
                                           Best Friends Foundation.
                                 ______
                                 
            Council for American Private Education,
                                      Germantown, MD 20874,
                                                 December 21, 2004.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: We at the Council for American Private Education 
(CAPE) are very much looking forward to working with Margaret Spellings 
as the next U.S. Secretary of Education. Her distinguished service as 
the President's domestic policy adviser gives every indication that she 
will have an outstanding tenure as secretary.
    In her remarks upon being nominated, Ms. Spellings committed 
herself ``to make our schools the finest in the world.'' In pursuit of 
that goal, she pledged ``to work alongside America's educators.'' CAPE 
is equally eager to work with her and to bring the private school point 
of view to discussions about school reform. The 17 member organizations 
of CAPE and our extensive State CAPE network collectively represent 
about 80 percent of the Nation's private school community. One in four 
of the Nation's schools is a private school; 11 percent of all students 
attend them. That translates into 29,000 schools and 6.2 million 
students. One of CAPE's purposes is to foster communication and 
cooperation with policymakers to improve the quality of education for 
all the Nation's children. In pursuit of that purpose, we anticipate an 
effective and enduring alliance with Secretary Spellings.
    Ms. Spellings' comments have demonstrated strong support for 
pluralism and choice in education. That is especially reassuring now 
that she will be the chief spokesperson and advocate for the entirety 
of American education. Our Nation is blessed by a rich diversity of 
schools--some rooted in religious tradition, some that provide 
intensive academic experiences, and some that are specialized for 
specific populations. Whether public or private, these diverse schools 
constitute the American educational experience and share a worthy goal: 
the education of our country's children. Together, public and private 
schools work to ensure an educated citizenry; together they strive to 
help students reach their potential and contribute to the common good. 
It is essential that the country's top educator be a solid advocate for 
educational pluralism, and we believe Ms. Spellings is one.
    CAPE's relationships with past secretaries of education have been 
excellent. We expect to continue that pattern with Secretary Spellings. 
CAPE is committed to working with the new secretary to shape the future 
of education in America, and we are eager to share with her a 
perspective shaped by the private school experience.
            Sincerely,
                                               Joe McTighe,
                                                Executive Director.
                                 ______
                                 
                       Center for Education Reform,
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: I am writing to express my support for the 
nomination of Margaret L. Spellings to serve as U.S. Secretary of 
Education.
    Ms. Spellings possesses a wealth of knowledge and offers years of 
experience in handling delicate public policy issues concerning 
education. These attributes are the most critical part of being able to 
manage well the affairs of the Federal education programs that are such 
an important part of our Nation's commitment to children.
    The Center for Education Reform is a nonprofit organization that 
combines education policy with grassroots advocacy to work deep within 
the Nation's communities to foster positive and bold education reforms.
    We represent thousands of supporters who bring more choices to 
children and higher standards to all of our Nation's schools.
    We look forward to the possibility of working with Ms. Spellings in 
the capacity of education secretary.
            Best Regards,
                                              Jeanne Allen,
                                                         President.
                                 ______
                                 
                    Hispanic Council for Reform and
               Educational Options (Hispanic CREO),
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: On the behalf of the Hispanic Council for Reform 
and Educational Options (Hispanic CREO), I write to acknowledge and 
support the recent presidential nomination of Mrs. Margaret Spellings 
for the Secretary of Education position. Hispanic CREO recognizes her 
consistent dedication to improving the educational outcomes of our 
Nation's children. As, the organization's President and CEO, I look 
forward to working with Mrs. Spellings as we move forward, particularly 
among the Nation's Hispanic communities in addressing the educational 
crisis among Latinos. It will be with our united efforts, as community 
based organizations, national leaders in education reform, the 
Department of Education, and legislators that we will successfully 
improve the educational outcomes of our children.
    As the Nation's only Latino organization focused on improving 
educational outcomes for Hispanic children specifically by empowering 
families through parental choice in education, we recognize that to 
decrease the educational gaps among Latinos, it takes a united effort. 
We look forward to moving forward in collaboration to empower parents 
to know their educational options, to increase parental participation, 
and to the creation of greater access to all educational options that 
exist.
    During the past year, Hispanic CREO effectively established parent, 
community, and school resource operations with the goal of building 
public awareness, knowledge, and understanding of the options available 
under the No Child Left Behind Act. With the support of the Office of 
Innovation and Improvement, Project CREO works in collaboration with 
the public schools, and community organizations, to strengthen their 
ability to service students and Hispanic families. Currently, this 
project has touched over 21 million families through media and is 
directly working with over 20,000 parent leaders. The project has 
developed Spanish-language communication tools and disseminates the 
information locally.
    I am confident that our combined efforts will directly impact our 
communities, especially the Latino community which is in dire need of 
access to high quality education options. I thank you for your 
dedication to education reform and commitment to working together.
            Sincerely,
                                     Rebeca Nieves Huffman,
                                                 President and CEO.
                                 ______
                                 
           The Medical Institute for Sexual Health,
                                     Austin, TX 78716-2306,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: It's my privilege to recommend Margaret 
Spellings for the position of Secretary of Education of the United 
States. I have known Margaret since 1996 when she was in the Texas 
Governor's office in charge of then Governor Bush's education 
initiatives. I worked with her during that time and observed her 
involvement and leadership in extremely creative and necessary 
initiatives to benefit the children of Texas. It became obvious to me 
that she was a woman of great energy, effectiveness, and intelligence.
    I have also had the pleasure of working closely with Margaret on a 
number of occasions since she has been in Washington, DC with President 
Bush as Domestic Policy Advisor. I further recognized her enormous 
capacity for comprehending and working through delicate and difficult 
issues.
    One of the qualities I must appreciate about Margaret is that she 
is totally committed to President Bush, his philosophy and his goals. I 
have observed her furthering his agenda in a most competent and 
effective manner.
    I am totally confident that Margaret Spellings is the ideal person 
for the position for which she has been nominated. Her years of 
experience, interest and understanding concerning educational issues, 
and her intense desire to see young Americans well-educated to enable 
them to achieve their potential, well qualify her for this position.
    I highly recommend Margaret Spellings for the position of Secretary 
of Education for the United States.
            Sincerely,
                               Joe S. McIlhaney, Jr., M.D.,
                                             President and Founder.
                                 ______
                                 
                            National Association of
                Charter School Authorizers (NACSA),
                                 Alexandria, VA 22314-3513,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Enzi: The National Association of Charter School 
Authorizers (NACSA) is pleased to support the nomination of Margaret 
Spellings for U.S. Secretary of Education.
    NACSA is a nonprofit, nonpartisan membership organization composed 
of chartering entities from across the country. Our mission is to 
promote the establishment and operation of quality charter schools 
through responsible oversight in the public interest. Established in 
2000 by a diverse group of charter school authorizers nationwide, NACSA 
is dedicated to supporting and strengthening the capacities of 
authorizers to charter quality schools. We believe that charter schools 
can improve public education by increasing educational opportunities 
for students and educators and increasing educational accountability 
for all public schools.
    Ms. Spellings is a proven education reformer and she has been a 
valuable adviser to President George Bush and the U.S. Congress, 
especially during the passage of the No Child Left Behind Act. Based on 
her past accomplishments with the Texas Association of School Boards, 
as a senior advisor for 6 years to, then, Governor Bush and as a White 
House Assistant to the President for Domestic Policy since 2001, we are 
confident Ms. Spellings will serve the Nation well if you confirm her 
cabinet appointment to lead the U.S. Department of Education.
    Under the bipartisan No Child Left Behind Act, this Nation has 
embarked on a revitalization of the public education system by 
insisting on strong measures of accountability, embracing parental 
choice, improving and targeting resources to those students most at 
risk and making high student achievement the hallmark of public 
education. We need a caring and committed advocate for youth to work 
with the Administration, the Congress, States, districts and the 
education community to carry on this important effort and address other 
needed reforms, and Ms. Spelling is well-equipped to lead in this 
fashion.
    We hope our comments have been helpful to your committee's 
deliberations. Please feel free to contact us should you have any 
questions.
            Sincerely,
                                             Greg Richmond,
                                                         President.
                                               Mark Cannon,
                                                Executive Director.
                                 ______
                                 
               National Center for Family Literacy,
                                 Louisville, KY 40202-4237,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: On behalf of the National Center for Family 
Literacy (NCFL), I support President George W. Bush's nomination of 
Margaret Spellings as the next U.S. Secretary of Education. I have 
known Ms. Spellings for many years, originally when she worked to 
improve education for children in Texas. She is passionate, energetic 
and knowledgeable about working to, improve America's schools. I 
support the nomination of Margaret Spellings in the strongest manner 
possible and without reservation.
    Ms. Spellings is a dynamic leader that is both dedicated and 
principled as she brings about change in our education system. Her goal 
to ensure that every child can learn and every school can be successful 
is one that she pursues with great tenacity. We have made great 
progress in the last 4 years, but much remains to be accomplished. I 
believe that Margaret Spellings is the person to help us continue 
climbing the ladder to success.
    The National Center for Family Literacy (NCFL) fully supports Ms. 
Spellings' confirmation in the Senate. Moreover, we look forward to 
working with her to achieve our mutual goal of a literate Nation, 
accomplished by pursuing success for parents as well as their children.
    As a proponent of family literacy, I look forward to working with 
Ms. Spellings. Together, we can move family literacy forward by 
investing in research and the application of proven techniques for 
achieving results in multiple generations, as family literacy has 
proven.
    Please let me know if you would like additional information on our 
support of Ms. Spellings' nomination or the work of NCFL.
            Sincerely,
                                            Sharon Darling,
                                               President & Founder.
                                 ______
                                 
                National Council of La Raza (NCLR),
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Edward Kennedy,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Gentlemen: I write on behalf of the National Council of La Raza 
(NCLR), the largest national constituency-based Hispanic organization 
in the U.S., on the nomination of Margaret Spellings for Secretary of 
Education. NCLR views the post of Secretary of Education as vitally 
important to the Latino community, and believes that Ms. Spellings has 
the opportunity to be an extraordinarily effective Secretary at a 
critical time in our Nation's history. Thus, we welcome her nomination.
    In the future America's schoolhouses will largely comprise Hispanic 
children. The number of Latino children attending the U.S. public 
schools has grown significantly over the last 30 years. In 1975, only 3 
million Latinos were attending public schools, accounting for 6.7 
percent of the K-12 student population. By 2000, more than 7.6 million 
Latinos were enrolled in public schools, representing 16.6 percent of 
K-12 students.
    Hispanic students are a growing presence in public schools in every 
region of the U.S. The proportion of Hispanic K-12 public school 
students in the West grew from 14.8 percent in 1975 to 31.6 percent in 
2000. During that same period, the Hispanic student population also 
increased in the South (6.6 percent to 16.0 percent), the Northeast 
(6.1 percent to 11.4 percent), and the Midwest (1.6 percent to 5.5 
percent).
    A large number of these children are English language learner (ELL) 
students. During the 2000-2001 school year, there were a reported 4.7 
million ELL students enrolled in public schools, representing 9.8 
percent of the total K-12 public school enrollment. This represents a 
95 percent growth since the 1991-92 academic year.
    NCLR believes that a nominee for Secretary of Education should 
understand and be responsive to the needs of Latino children, and 
should be prepared and committed to ensuring their academic success. 
NCLR has studied the path toward education reform in Texas, and we are 
aware of the critical role Ms. Spellings played as a key advisor to 
then-Governor George W. Bush in designing reforms in that State. Thus, 
NCLR is encouraged by Ms. Spellings' nomination and hopes to work with 
her, President Bush, and Congress to pursue an agenda that will provide 
Latino students with the opportunity to meet the academic standards set 
by the No Child Left Behind Act (NCLB), complete high school at higher 
rates, and pursue postsecondary education. We believe NCLR and the 
Department of Education can share a common agenda for Latino children 
and that we can work effectively with Ms. Spellings, as Secretary, in 
the areas outlined below:

    <bullet> No Child Left Behind Act Implementation. NCLR supports the 
principles of NCLB because it requires schools to help ELL students 
make strides in acquiring English and improving their reading and math 
skills, and it supports greater parental involvement. Over the past 
several fiscal years, however, Federal funding for ELL programs and 
parental involvement has been inadequate. Furthermore, we believe that 
the Department has not been as effective as it could have been in 
assisting States and districts in developing authentic assessment and 
accountability systems to maximize performance of ELL children under 
NCLB. Based on her record in overseeing education reform in Texas, we 
expect Ms. Spellings to work with us toward promoting more authentic 
accountability systems, and to pursue increased funding for ELL and 
parental involvement programs under NCLB.
    <bullet> Immigrant Students. Every year, our Nation's high schools 
graduate thousands of talented immigrant students, many of whom have 
grown up in the U.S., attended the same elementary and secondary 
schools as native-born students, and excelled at the same academic 
requirements as their classmates. Unfortunately, many of these students 
are blocked from the opportunity to pursue postsecondary education and 
legally enter our Nation's workforce simply due to their immigration 
status. In response, Senators Orrin Hatch (R-UT) and Richard Durbin (D-
IL), and Representatives Chris Cannon (R-UT), Howard Berman (D-CA), and 
Lucille Roybal-Allard (D-CA) introduced bipartisan bills. These bills, 
the ``DREAM Act'' and the ``Student Adjustment Act,'' seek to 
facilitate college access for certain immigrant students and put them 
on the path to U.S. citizenship. We expect to work with Ms. Spellings 
to vigorously support passage of these bills in the next Congress.
    <bullet> Charter School Development. Charter schools have become a 
significant part of the education landscape. This is especially true 
for Latino students. There are currently more than 90 charter schools 
in NCLR's network of affiliates, providing quality services to children 
from various backgrounds. However, some charter schools continue to 
face challenges in obtaining quality facilities, meeting NCLB 
benchmarks, and recruiting and retaining qualified teachers. We pledge 
to work with Ms. Spellings, who has a long history of supporting the 
charter school movement, to provide charter schools the support they 
need to provide their students with quality education services.
    <bullet> High School Reform. NCLB has the potential to ensure that 
low-income, minority, and ELL students graduate in greater numbers with 
a diploma that prepares them for postsecondary education or meaningful 
employment. However, some high schools face the challenge under NCLB to 
help ELL and recently-arrived immigrant high school students acquire 
English, meet academic benchmarks, and graduate; all this must occur in 
a very short time frame. As the Department develops its emerging high 
school reform proposals, we expect to work closely with Ms. Spellings 
to develop high school reform proposals that address the myriad 
challenges that recently-arrived immigrant students face in pursuing 
high school diplomas that prepare them for college and the workforce.

    It is clear that ensuring a well-prepared Hispanic workforce is in 
the best interest of the Nation as a whole, and that carrying out these 
proposals will achieve that. We have every expectation that, if 
confirmed, Ms. Spellings will work closely with the Hispanic community 
to make it happen. If you have any questions, please feel free to 
contact me or Raul Gonzalez of my staff at (202) 776-1760.
            Sincerely,
                                             Janet Murguia,
                                                 President and CEO.
                                 ______
                                 
      National Indian Education Association (NIEA),
                                      Alexandria, VA 22314,
                                                  January 12, 2005.
Hon. Mike Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Ted Kennedy,
Ranking Minority Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Chairman Enzi and Senator Kennedy: I am writing to express the 
support of the National Indian Education Association for the 
confirmation of Margaret Spellings as Secretary of Education.
    At her confirmation hearing, Ms. Spellings noted, ``In our diverse 
country we have the belief that education is the great equalizer. It is 
the key to success for individual Americans and the key to the success 
of our Nation. . . . In our country we believe that a great education 
must be available to each and every American.'' NIEA welcomes her 
words, and even more her extraordinary commitment over the years, 
whether as a government official at the State or Federal level, or as 
an advocate on behalf of Texas school boards, to expanding educational 
opportunity for all citizens. Education truly is the key to success for 
Native students and, indeed, the key to survival for Native cultures. 
And yet, Native students for a variety of reasons that have still not 
adequately been addressed, continue to struggle in the mainstream 
education system.
    The great Lakota leader Sitting Bull said, ``Let us put our minds 
together and see what life we can make for our children.'' In that 
spirit, we look forward to working closely with Ms. Spellings on 
implementation of the No Child Left Behind Act and on Education 
Department budget issues. The NCLB Act generally expanded the Federal 
Governments role in education. Of course, for Indian tribes, who have a 
government-to-government relationship with the United States and to 
whom the United States has a trust obligation, Federal involvement in 
education is an old, and all too often tragic, story. However, NIEA 
supports the NCLB Act and lauds President Bush for responding to tribal 
concerns that the implementation of the act needed to be tailored to 
the unique needs of Native peoples by signing an executive order whose 
purpose is to assist American Indian and Alaska Native students to meet 
the challenging academic standards of the No Child Left Behind Act in a 
manner consistent with tribal traditions, languages and cultures (BO 
13336). We look forward to working with Ms. Spellings on the 
implementation of this executive order.
    We also look forward to working with Ms. Spellings on the 
Department of Education budget. In recent years, the Department of 
Education, as a whole, has received budget increases on the order of 3 
percent; however, inexplicably, the Native programs within the 
Department during this same period have received no increases despite 
the extraordinary educational needs in Indian Country.
    Native communities understand that it is essential that we improve 
the educational opportunities for our youth. I thank the committee for 
its consideration of these comments and look forward to working with 
the committee this year on the important educational issues that will 
come before you.
            Sincerely,
                                     David Beaulieu, Ph.D.,
                                                         President.
                                 ______
                                 
                        The Latino Coalition (TLC),
                                      Washington, DC 20003,
                                                 December 20, 2004.

 The Latino Coalition Supports the Nomination of Margaret Spellings as 
                    the next Secretary of Education

    Washington, DC--The Board of Directors of The Latino Coalition 
(TLC) today announced their support for the nomination of Margaret 
Spellings as the next U.S. Secretary of Education, and urged the 
members of the U.S. Senate to quickly move on confirming this 
outstanding nominee.
    ``Margaret Spellings is one of President Bush's closest and most 
trusted advisors,'' said TLC Vice Chairman Susan Alvarado. ``She has 
been an instrumental part of the President's efforts to reform 
education since his days as Governor of Texas and then as President. We 
can think of no better person to expand on the historic and successful 
reforms of No Child Left Behind. Her nomination clearly indicates that 
President Bush wants to make improving education one of his top 
priorities in his second term.''
    Aside from her experience and her successful record reforming 
education in both Texas and as the Advisor to the President for 
Domestic Policy, the Board of Directors considers her closeness to 
President Bush will bring new energy and access to the U.S. Department 
of Education. ``Everyone knows that Margaret Spellings is one of 
President Bush's most trusted advisors,'' said TLC President Robert 
Deposada. ``She will have the opportunity to bring to the Education 
Department more access to the White House than any of her predecessors. 
She also brings a strong commitment to implement and expand the reforms 
which are close to the heart of President Bush. We know of no one who 
better understands President Bush's views and passions on education 
reform as much as Margaret Spellings. She has been there with the 
President at every step of the way, and will make sure that one of 
President Bush's legacies is improving the education of all our 
children.''
    The Latino Coalition is a nonprofit, nonpartisan organization based 
in Washington, DC. TLC was established to address policy issues that 
directly affect the well-being of Hispanics in the United States. TLC's 
agenda is to develop and promote policies that will foster economic 
equivalency and enhance overall business, economic, and social 
development of Hispanics. For more information please visit our Web 
site at www.TheLatinoCoalition.com.
                                 ______
                                 
                          The Washington Center for
                 Internships and Academic Seminars,
                                 Washington, DC 20037-1427,
                                                 December 20, 2004.
Hon. Mike Enzi, 
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: On behalf of The Washington Center for 
Internships and Academic Seminars, I would like to extend 
congratulations on the nomination of Margaret Spellings for Secretary 
of Education.
    For the past 30 years, The Washington Center has brought over 
33,000 students to intern and study in our Nation's capital. Our 
success can be attributed to developing educational and strategic 
partnership with such Federal agencies as the Department of Education. 
We look forward to working with Ms. Spellings in ensuring our country's 
future educated workforce.
    We look forward to working with the future Secretary of Education.
            Sincerely,
                                        Arleen Borysiewicz,
                               Vice President for External Affairs.
                                 ______
                                 
                     Women Impacting Public Policy,
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: Women Impacting Public Policy (WIPP), on behalf 
of the 505,000 women business owners its represents, would like to 
express its support of Margaret Spellings for Secretary of Education.
    There has been no greater champion in the White House for women 
business owners than Margaret Spellings. As the Domestic Policy Advisor 
to the President, she has not only listened to the concerns of women in 
business, she has also been proactive in finding solutions to those 
concerns.
    Margaret is to be commended for her leadership in the flextime 
initiative because of its importance on small businesses and the 
challenges all women face with regard to balancing their work and their 
families.
    As Secretary of Education, we feel confident that she will take the 
same proactive approach to the challenges facing the educational system 
in this country. As women business owners, we know firsthand the 
importance a good education plays in the quality of our workforce. We 
view education as a vital component of this Nation's ability to compete 
in the global marketplace.
    We believe Margaret Spellings will continue to be a strong leader 
and wholeheartedly endorse her nomination.
            Sincerely,
                                               Terry Neese,
                                          President and Co-Founder.
                                            Barbara Kasoff,
                                                COO and Co-Founder.
                                 ______
                                 
                    Women Presidents' Organization,
                                         New York, NY 1022,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: I am writing to you to endorse the appointment 
of Margaret Spelling as Secretary of Education.
    I have had the pleasure of working with her in the past year and am 
aware of how instrumental she has been in helping to improve our 
Nation's elementary and secondary schools.
    As the president of a women's business organization with 50 
chapters in the United States and Canada, one of the ongoing issues for 
our members is hiring and retaining competent employees. Our members 
average $11M in annual revenue, 199 employees and have been in business 
an average of 16 years. In order to accelerate their company's growth, 
it is my belief that we must first face the lack of education among 
today's youth. Without a proper education from the very beginning, 
young people face challenges of not being able to find economically 
sound employment. In order to build confidence and succeed on a 
personal and professional level, they need to be better equipped to 
face the demands the adult world can bring.
    I am positive that Margaret Spellings as the Secretary of Education 
will not only address today's ongoing issues with education, but also 
can change the direction of education and help today's limited youth 
become tomorrow's educated adult.
    Again, it is my pleasure to endorse the appointment of Margaret 
Spellings as Secretary of Education.
            Sincerely,
                                   Marsha Firestone, Ph.D.,
                                    Women Presidents' Organization.
                                 ______
                                 
Association of Educational Service Agencies (AESA),
                                       Arlington, VA 22203,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510-6300.

    Dear Senator Enzi: The Association of Educational Service Agencies 
(AESA) is proud to submit a letter in support of the nomination of 
Margaret Spellings as U.S. Secretary of Education.
    Ms. Spellings is a product of public schools and has spent her 
entire professional life dedicated to improving the quality of schools 
in Texas and throughout the United States. The Texas Education Service 
Centers have worked with Ms. Spellings throughout her distinguished 
career in Texas. Our Texas members have worked with her in a variety of 
programs and activities: when she was working in the Texas Legislature 
as clerk of the House Public Education Committee under a Democratic 
chair, as lobbyist for the Texas Association of School Boards, and as 
political and education advisor to the then Texas Governor George W. 
Bush. She gained trust and respect with our AESA members for her 
interpersonal, analytical and political skills.
    Margaret Spellings is a practical, no nonsense manager who supports 
high standards and accountability. While in Texas she was involved in a 
campaign to end social promotion, a campaign that we support. Ms. 
Spellings has always supported flexibility and funding for public 
education, which she lobbied for when at the Texas Association of 
School Boards. While in the Governor's Office, she listened to 
stakeholders' concerns and addressed them.
    While working at the White House, she worked with Congress in 
drafting and helping pass the No Child Left Behind Act. We believe Ms. 
Spellings will work hard to maintain the fundamental principals of NCLB 
while tweaking rules and regulations for greater implementation success 
in our schools. She also is well versed in the important issues of 
early childhood, high school reform and higher education.
    We also believe that because of her communication skills and 
practical approach to solving problems that Ms. Spellings appointment 
will insure that the U.S. Department of Education continues to be 
responsive to the educational needs of educational service agencies and 
the districts they serve.
    It is our belief that with her knowledge of White House operations 
and the inner workings of Congress, Margaret Spellings is the right 
nominee for U.S. Secretary of Education. We urge the Senate to confirm 
Margaret Spellings as our next Secretary of Education.
            Sincerely,
                                    Brian L. Talbott Ph.D.,
                                                Executive Director.
                                 ______
                                 
                   American Federation of Teachers,
                                      Washington, DC 20001,
                                                   January 5, 2005.
Hon. Judd Gregg,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Gregg: The American Federation of Teachers represents 
more than 1.3 million members, including K-12 teachers, 
paraprofessionals and higher education faculty and staff. Our members 
care deeply about their students; AFT members also care about the 
myriad issues they face in their role as education professionals, 
including how to give their students the best possible education. Much 
of what our members and their students deal with on a day to day basis 
is directly affected by decisions made by the U.S. Department of 
Education. This is one of the reasons why the decision as to who will 
head the Department is so important.
    Margaret Spellings, the nominee for this position, has been 
accessible, open and willing to listen to AFT positions and concerns in 
the past. We are sure that the good working relationship we have 
established with Ms. Spellings will continue, and our union is ready to 
work with her and others in the Administration who share our goal of 
ensuring that all students have access to the high-quality education 
they deserve.
    Certainly, one challenge in meeting our shared goal will be 
correcting the structural problems of the No Child Left Behind Act, 
including adequate funding. But the Nation faces a host of other 
challenges that are outside the scope of NCLB; these include better 
working conditions and compensation to attract and keep good teachers; 
better preparation for those entering the profession; and greater 
access to affordable, high-quality early childhood education.
    We look forward to working with Ms. Spellings on these and other 
issues upon her confirmation.
            Sincerely,
                                         Edward J. McElroy,
                                                         President.
                                 ______
                                 
                          California Association of
                         School Business Officials,
                                      Sacramento, CA 95814,
                                                 November 23, 2004.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Enzi: I am writing to voice our strong and 
enthusiastic support for the President's nomination of Margaret 
Spellings as the U.S. Secretary of Education. There is no better test 
for the credibility of education policy makers in Washington DC than 
the reputation they possess at the local level in States, towns and 
local school agencies across the Nation. In California, Margaret 
Spellings is known well by school officials because she has always 
taken the time to listen and understand the issues we face.
    We worked collaboratively with Margaret for many years during her 
tenure with the Texas School Boards Association and while she has 
served at the White House on critical education issues including the 
President's No Child Left Behind Act and special education 
reauthorization. Margaret's solid grasp of complex issues in education 
is the result of years of direct involvement in the development of 
thoughtful policies and recommendations on behalf of local schools. 
Representing the interests of local schools, she has fought in the 
trenches for better education funding, accountability and higher 
achievement.
    Margaret is a wonderful collaborator and knows how to get things 
done. Her personal style is always friendly and open and she also 
possesses a wonderful sense of humor. She always exhibits the utmost 
professionalism and above all, has a passion for education and the well 
being of children. It is not surprising that she enjoys strong 
bipartisan support including the endorsement of Representative George 
Miller (D) California. We are very excited about this nomination and 
hope you will quickly grant Margaret Spellings the confirmation she 
deserves.
            Sincerely,
                                           Kevin R. Gordon,
                                                Executive Director.
                                 ______
                                 
    Council of Chief State School Officers (CCSSO),
                                 Washington, DC 20001-1431,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: As Executive Director of the Council of Chief 
State School Officers (CCSSO), I am writing in my official capacity 
regarding the nomination of Margaret Spellings as Secretary of 
Education. It is with great excitement that CCSSO heartily endorses Ms. 
Spellings' nomination--we are very pleased with this nomination and 
believe it holds great promise for the future of education in our 
Nation.
    Ms. Spellings is viewed by our members as hard working, 
knowledgeable, honest and forthright--traits we believe are essential 
to building and maintaining the confidence of the public and the 
education community as No Child Left Behind (NCLB) continues to be 
implemented. From her days working for the Texas School Boards 
Association to her role in the White House, Ms. Spellings has 
consistently exhibited the traits mentioned previously. In short, with 
Ms. Spellings we know that while we might not always like her answers, 
she will always ``tell it to you straight,'' and we believe this is 
critical to successful implementation of NCLB, IDEA and the other 
education programs under the purview of the Secretary of Education.
    Clearly Ms. Spellings has a firm grasp and understanding of the 
vision of No Child Left Behind. In addition she understands that 
implementation and ideology sometimes need to blend to make a new 
vision successful. Yet at the same time, Ms. Spellings has the backbone 
to stand strong in the face of opposition and to exhibit a sense of 
calm confidence in getting the job done. She is both a policy person 
and an implementation person--two traits we believe are essential to 
the success of education improvement in the United States.
    We at the Council of Chief State School Officers lend our 
unqualified support for the nomination of Margaret Spellings as the 
next Secretary of Education. We are thrilled with this nomination, look 
forward to working with Ms. Spellings, and believe her role as 
Secretary of Education will advance educational improvement across the 
Nation.
    Thank you for the opportunity to share our thoughts on this 
important decision by the Senate. If we can be of further assistance, 
please do not hesitate to call or write. Best wishes for a positive and 
productive new Congressional session.
            Sincerely yours,
                                        G. Thomas Houlihan,
                                                Executive Director.
                                 ______
                                 
                 Council of the Great City Schools,
                                      Washington, DC 20004,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510-6300.

    Dear Mr. Chairman: I am writing on behalf of the Council of the 
Great City Schools, the Nation's primary coalition of large urban 
public school systems, to express our enthusiastic support for Margaret 
Spellings' nomination as Secretary of Education.
    Our organization has worked closely with Ms. Spellings over the 
last 4 years and has always found her to be knowledgeable, responsive, 
and committed to the Nation's schoolchildren. She is a person of 
enormous capacity and integrity, and is sure to bring a practical and 
forward-looking perspective to her job as Secretary just as the 
Nation's schools are struggling with some of the most challenging parts 
of No Child Left Behind.
    The Administration and the Congress will face a number of important 
education issues in the next few years, including the reauthorization 
and possible expansion of NCLB, the renewal of the Vocational Education 
Act, the Higher Education Act, and other critical pieces of 
legislation.
    The Council of the Great City Schools is confident that Ms. 
Spellings will make an excellent Secretary and will provide the 
leadership necessary to move the Nation's schools forward. We support 
her confirmation as the next Secretary of Education and would welcome 
any questions you might have. Thank you.
            Sincerely,
                                          Michael Casserly,
                                                Executive Director.
                                 ______
                                 
                                   Luce & Williams,
                                       Dallas, Texas 75225,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator: It is with great pleasure that I write to urge the 
nomination of Ms. Margaret Spellings as Secretary of Education. I have 
worked on education issues with her for the past 21 years and have 
always found her to be smart, absolutely dedicated to the improvement 
of education for all our children and possessing great leadership 
skills. She is a person of great integrity.
    If I can supply any additional information regarding her career, 
please do not hesitate to contact me.
    Thank you for holding a prompt hearing.
            Cordially,
                                                  Tom Luce.
                                 ______
                                 
                National Association of Elementary,
                         School Principles (NAESP),
                                 Alexandria, VA 22314-3483,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: On behalf of the National Association of 
Elementary School Principals, representing 30,000 elementary and middle 
level principals in the United States and abroad, I write to encourage 
the HELP Committee's confirmation of Margaret Spellings as U.S. 
Secretary of Education.
    NAESP appreciates Ms. Spellings' longstanding commitment to 
education and her strong interest in literacy, early childhood 
education, and other issues that are important to principals. We look 
forward to working with Secretary-designee Spellings and her colleagues 
at the U.S. Department of Education on these matters.
    As principals and other educators strive to implement No Child Left 
Behind, the Individuals With Disabilities Education Act, and other 
Federal education laws, NAESP will continue to offer suggestions 
designed to improve these laws while continuing to support their 
laudable goals. We are optimistic that Ms. Spellings will lead by 
example in promoting positive and productive communication between the 
Bush Administration and interested stakeholders.
    Thank you for your consideration of these comments, and best wishes 
for your work with your colleagues on the HELP Committee in the 109th 
Congress.
            Sincerely,
                                     Vincent L. Ferrandino,
                                                Executive Director.
                                 ______
                                 
 National Association of State Boards of Education 
                                           (NASBE),
                                       Arlington, VA 22314,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Chairman Enzi: On behalf of the National Association of State 
Boards of Education (NASBE), representing the Nation's State and 
territorial boards of education, I would like to express our support 
for the nomination and confirmation of Margaret Spellings as United 
States Secretary of Education.
    Margaret Spellings has been instrumental in shaping and promoting 
President Bush's education reform initiatives. The result of these 
efforts was the passage of the landmark No Child Left Behind Act that 
includes high State academic standards, the use of state assessments to 
measure school progress in meeting such standards, and rigorous 
accountability measures for schools that fail to make adequate yearly 
progress in improving student proficiency in reading and math.
    As you know, the No Child Left Behind Act was enacted with 
overwhelming bipartisan support and embodies a new Federal education 
vision of concentrating attention on the academic performance of all 
children, increasing resources for schools, empowering parents, and 
emphasizing literacy skills. The success of these policies is due in no 
small part to the work of Margaret Spellings.
    In addition to her accomplishments during President Bush's first 
term, Margaret Spellings has strived for more than 2 decades to improve 
education at both the local and State levels. As such, she brings a 
far-ranging perspective and invaluable expertise about the advantages 
and challenges of education reform at all three levels of government.
    Again, we commend the selection of Margaret Spellings as Secretary 
of Education and urge her quick and unanimous confirmation.
            Sincerely,
                                 Brenda Lilienthal Welburn,
                                                Executive Director.
                                 ______
                                 
          National Association of Secondary School 
                                        Principals,
                                     Reston, VA 20191-1537,
                                                   January 4, 2005.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: On behalf of the National Association of 
Secondary School Principals (NASSP)--the preeminent school leadership 
organization representing the Nation's middle level and high school 
principals, assistant principals, and aspiring principals--I write to 
encourage confirmation of Margaret Spellings as U.S. Secretary of 
Education.
    Today's schools are vast different from the institutions of the 
past. Middle level and high school leaders are meeting new challenges 
in order to transform schools into high quality educational 
institutions for all students, and will look to the Nation's new 
education secretary for the support that is necessary in order to turn 
visionary goals into reality.
    NASSP admires Secretary-designate Spellings' passion for school 
improvement, and we look forward to working closely with her to help 
develop Federal education policies that are fair, effective, and 
beneficial to all students.
            Sincerely,
                                     Gerald Tirozzi, Ph.D.,
                                                Executive Director.
                                 ______
                                 
              National Education Association (NEA),
                                 Washington, DC 20036-3290,
                                                   January 4, 2005.
Hon. Mike Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20515.

    Dear Chairman Enzi: On behalf of the National Education 
Association's (NEA) 2.7 million members, we would like to express our 
support for the nomination of Margaret Spellings as United States 
Secretary of Education. We believe Ms. Spellings has the experience and 
perspective necessary to serve effectively in this capacity.
    Ms. Spellings has a long history in the education arena. Her 
experience as Associate Executive Director of the Texas Association of 
School Boards allowed her to understand first-hand the concerns of 
those working every day in America's public schools. Public education 
advocates who have worked closely with her, including the Texas State 
Teachers Association, have admired her professionalism, knowledge, and 
passion for issues.
    We look forward to working with Ms. Spellings to ensure great 
public schools for every child. We hope the committee will move quickly 
to confirm her nomination.
            Sincerely,
                                                Reg Weaver,
                                                         President.
                                 ______
                                 
                                               PBS,
                                  Arlington, VA 22314-1698,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510-6300.

    Dear Senator Enzi: It is with great pleasure that I write in 
support of Margaret Spellings' nomination to be the U.S. Secretary of 
Education. We believe her leadership of the Department of Education 
would serve the parents, teachers and children of America very well.
    The U.S. Department of Education is a critical partner for PBS and 
PBS stations as the administrator of the ``Ready To Learn'' cooperative 
agreement, a national effort to improve the school readiness of young 
children through the reach of public broadcasting. Thanks to the 
generosity of the department, PBS reaches 97 million households with 
high-quality educational children's programs, and has impacted over 1 
million children and 8 million parents and teachers through workshops 
and outreach activities promoting literacy and school readiness. 
Additionally, for the past 5 years, PBS has administered TeacherLine 
through the ``Ready To Teach'' program that provides more than 100 
online professional development courses to improve teacher quality.
    Mrs. Spellings has been a tireless advocate for children and 
quality education throughout her career. She has served at both the 
State and national levels of policy development, and shares PBS' 
commitment to seeing that each and every child has the skills and 
qualities necessary to begin school ready to learn.
    PBS would like to urge the committee to approve Ms. Spellings' 
nomination with all due consideration.
            Most sincerely,
                                              Pat Mitchell,
                             President and Chief Executive Officer.
                                 ______
                                 
                Texas Association of School Boards,
                                  Austin, Texas 78767-0400,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510-6300.

    Dear Senator Enzi: It is with great pleasure and pride that I write 
to support the nomination of Margaret Spellings to the position of 
Secretary of the U.S. Department of Education. Ms. Spellings will be an 
outstanding Secretary and a passionate advocate for our Nation's 
schools.
    I have known Ms. Spellings for more than 20 years, dating back to 
her service as a staff member in the Texas Legislature. Subsequently, 
we were colleagues at the Texas Association of School Boards and we 
worked closely on education issues during her tenure on then-Governor 
George W. Bush's staff. Throughout this period, she maintained a focus 
on improving education through high standards and strong 
accountability.
    ``No child left behind'' is more than a landmark piece of 
legislation to Ms. Spellings. Based on many conversations with her 
through the years, it is clear to me that she holds a passionate 
conviction that every child can learn if given the opportunity to be 
educated in an environment with academic rigor and a focus on results. 
I have no doubt that Ms. Spellings will work tirelessly to ensure that 
every school in America creates this type of environment.
    To characterize Ms. Spellings in a few words is difficult, but two 
traits stand out when I think of her career and accomplishments. First, 
Ms. Spellings is a true leader. Her leadership skills result from her 
intelligence, her listening skills, and her sense of humor. She is 
keenly intelligent and is a quick-study on issues about which she is 
unfamiliar. In dealing with others, she listens to all points-of-view 
and perspectives, even when different from her own. Her sense of humor 
is legendary and she uses it effectively to make others feel at ease 
and connected to the cause. The other characteristic that Ms. Spellings 
possesses is the ability to get things done. She has a strong work 
ethic, outstanding organizational skills, and the tenacity to see any 
goal or project through to completion. The combination of these two 
qualities will serve her well in the capacity to which she has been 
nominated.
    Without reservation, I commend Margaret Spellings to you and 
encourage you to confirm her to the position of Secretary of Education.
            Sincerely,
                                             James B. Crow,
                                                Executive Director.
                                 ______
                                 
                    Texas Elementary Principals and
                   Supervisors Association (TEPSA),
                                     Austin, TX 78701-2697,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: This letter is in support of Margaret Spellings 
for Secretary of the U.S. Department of Education. As Executive 
Director of the Texas Elementary Principals and Supervisors Association 
(TEPSA), I wish to commend Margaret to you and your esteemed colleagues 
in the Senate. Margaret has earned the admiration of the education 
community. With extraordinary professionalism, integrity and 
willingness to do dialectical thinking on important issues, Margaret 
has mobilized action and resources on behalf of children.
    Since 1987, I have had the privilege of working with Margaret in 
various capacities. Throughout this time, mutual respect has 
undergirded our efforts as we collaborated to craft the Texas Reading 
and Student Success Initiatives. During President Bush's gubernatorial 
leadership, these successful programs included Accelerated Reading 
Instruction time for children, Reading Academies for K-3 teachers and 
Reading Leaders. As a result, Texas elementary schools significantly 
closed the gap between diverse student groups, even as 60 percent of 
the new children entering Texas schools were English language learners 
from poverty or had special learning needs.
    TEPSA represents 5,500 Texas elementary principals and supervisors. 
These administrators supervise 153,000 teachers who direct the 
activities of 2.3 million school children.
    Margaret Spellings' leadership exemplifies Pierre Teilhard de 
Chardin's words: ``The future belongs to those who give the next 
generation reason to hope.''
            Respectfully,
                                              Sandi Borden,
                                                Executive Director.
                                 ______
                                 
                                 Teach for America,
                                        New York, NY 10018,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
Washington, DC 20510-6300.

    Dear Chairman Enzi: I am writing to express my strong support for 
Margaret Spellings' nomination for Secretary of Education. In all of 
our interactions with Ms. Spellings, we have admired her commitment to 
doing what's right for children in low-income communities, as well as 
her pragmatism and work ethic in pursuit of dramatically expanding 
their educational opportunities.
    Ms. Spellings is a leader in the effort to close the achievement 
gap that exists between students who grow up in low-income and high-
income communities. Furthermore, her support for innovative education 
programs with proven results demonstrates her commitment to creative 
solutions that address the needs of low-income children.
    Teach For America's commitment to these same objectives has led us 
to strongly believe that the focus on student achievement and academic 
outcomes championed by Ms. Spellings as part of No Child Left Behind is 
critical. Through our work running a highly selective national teacher 
corps, we have seen first-hand that students in low-income communities 
can achieve at the same levels on an absolute scale as their wealthier 
peers. We remain fueled by the potential of these students and 
motivated by the reality that despite this potential, there remains a 
large achievement gap in low-income areas.
    Margaret Spellings has been a key ally for those of us working on 
the ground to help fulfill the promise of public education in America. 
She shares the same belief that children of all backgrounds can achieve 
great things when given the proper resources and tools. It is a great 
pleasure to support Ms. Margaret Spellings' nomination for Secretary of 
Education.
            Best Regards,
                                                Wendy Kopp,
                                               President & Founder.
                                 ______
                                 
 American Association of Community Colleges (AACC),
                                      Washington, DC 20036,
  Association of Community College Trustees (ACCT),
                                      Washington, DC 20035,
                                                   January 4, 2005.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.
Hon. Edward M. Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.
    Dear Chairman Enzi and Senator Kennedy: On behalf of America's 
community college leadership, we respectfully urge speedy confirmation 
for the President's nominee for Secretary of Education, Margaret 
Spellings.
    We believe that Ms. Spellings is more than qualified to be the next 
Secretary of Education and America's community college leadership looks 
forward to working with her and the committee on the reauthorization of 
the Higher Education Act and Carl D. Perkins Act during the next 
Congress.
    We appreciate your leadership on behalf of education and for the 
continuing support of the Nation's community colleges.
            Most respectfully,
                                           George R. Boggs,
                                            AACC President and CEO.
                                                Ray Taylor,
                                            ACCT President and CEO.
                                 ______
                                 
                 Association of American Educators,
                               Laguna Hills, CA 92653-4627,
                                                   January 4, 2005.
Hon. Michael Enzi, 
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: The Association of American Educators is pleased 
to support the nomination of Ms. Margaret Spellings for U.S. Secretary 
of Education. We feel that her extensive policy experience in public 
education will serve America's teachers well. In particular, her 
detailed understanding of the No Child Left Behind Act--including both 
the needed requirements that it places on States and the areas in which 
flexibility and decision-making are left to State policy-makers--should 
help to move the public discussion forward to more positive and 
productive ground.
    This positive dialogue is essential if educators and policy-makers 
are to work together to evaluate and improve the implementation of 
NCLB. This professional approach is in the best interest of all 
involved, but especially that of America's children and their teachers.
    Ms. Spellings' experience as a former Associate Executive Director 
of the Texas Association of School Boards is also a significant asset 
and gives her a ``hands-on'' perspective that school board members 
across the country should recognize and respect.
    But perhaps her most unique qualification is the leadership role 
that she has taken in shaping education policy, both in Texas in the 
1990's and in the White House over the last 4 years. These experiences 
give her unmatched insight into the President's education policies.
    This familiarity and experience in shaping current education policy 
should also help her articulate clearly to the public and to the 
Nation's teachers the reasons that the Administration supports certain 
policy details. We know that teachers are best served when they receive 
accurate, candid, and direct information on the policies that affect 
them--and Ms. Spellings has a reputation for being both direct and 
extremely knowledgeable on education policy.
    The members of our association are professionals who have chosen to 
belong to a nonunion organization--and they will certainly appreciate 
this candor. Our members may agree with Ms. Spellings on many issues, 
and may have legitimate concerns and disagreements on others, but we 
will always approach the issues from a perspective of mutual 
professional respect and the foremost concern for what is best for our 
Nation's students.
    Our organization, the Association of American Educators (AAE), is a 
nonprofit, nonpartisan professional association for America's teachers. 
We are a national organization and are part of a coalition of over 
250,000 teachers nationwide who have chosen to belong to a professional 
association rather than to a teachers' labor union. AAE is not a labor 
union and does not engage in collective bargaining, but is focused on 
professional development and support for our teachers.
    We look forward to working with Ms. Spellings on behalf of 
America's teachers and students.
            Sincerely,
                                                Executive Director.
                                 ______
                                 
    Association of State Colleges and Universities 
                                           (AASCU),
                                 Washington, DC 20005-4701,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Edward Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senators Enzi and Kennedy: The American Association of State 
Colleges and Universities (AASCU), an organization representing more 
than 430 public colleges and universities and more than 3.5 million 
students, is pleased to support the nomination of Margaret Spellings to 
be Secretary of Education. President Bush makes an excellent choice for 
this important position, and we urge the members of the Senate Health, 
Education, Labor, and Pensions Committee to recommend confirmation by 
the full Senate.
    While serving as the chief education advisor for the State of 
Texas, Secretary-Designate Spellings demonstrated a facile knowledge of 
education policies and their implementation. Her tenure as Assistant to 
the President for Domestic Policy has given her the experience needed 
to work within the Federal Government and has sharpened her passionate 
advocacy for education. She has likewise demonstrated a genuine 
interest in working with the higher education community.
    There are many challenges facing the new secretary, particularly 
the reauthorization of the Higher Education Act. We are confident Ms. 
Spellings will serve as an excellent steward for the Department of 
Education and work tirelessly to ensure this process produces the best 
possible outcome.
    Thank you for your continued good work on behalf of the higher 
education community and particularly for public colleges and 
universities.
            With kind regards,
                                     Constantine W. Curris,
                                                         President.
                                 ______
                                 
                     American Council on Education,
                                                   January 3, 2005.
Hon. Michael B. Enzi, 
U.S. Senate,
Washington, DC 20515.
    Dear Senator Enzi: I write on behalf of the American Council on 
Education and the higher education associations listed below--
representing the Nation's 2- and 4-year, public and private colleges--
regarding the nomination of Margaret Spellings to be Secretary of 
Education.
    Secretary-designate Spellings has been involved in education policy 
at the Federal and State levels for many years. As the President's 
primary advisor on domestic policy, Ms. Spellings has worked directly 
with Members of Congress and their staffs on a wide array of issues and 
is deeply respected for her knowledge and commitment to expanding 
educational opportunities for all Americans. She has overseen the 
Department of Education and is familiar with the agency's management of 
the student aid programs. Our member institutions in Texas, where she 
has spent much of her career, uniformly report that she is a willing 
listener who seeks to find common ground and build consensus.
    The next Secretary of Education will confront a host of complex and 
multifaceted public policy issues involving higher education, including 
the pending reauthorization of the Higher Education Act. Successfully 
addressing these issues will ensure that higher education remains a 
platform for economic growth and social progress. I believe that her 
extensive experience will be a great asset as we move to address these 
matters in the years ahead.
    We are pleased that President Bush has chosen to nominate Ms. 
Spellings to fill this important position and we ask the members of the 
Senate Health, Education, Labor, and Pensions Committee to approve her 
nomination as soon as possible.
            Sincerely,
                                                David Ward,
                                                         President.
On behalf of: American Association of Community Colleges; American 
Association of State Colleges and Universities; American Council on 
Education; Association of American Universities; National Association 
of Independent Colleges and Universities; and the National Association 
of State Universities and Land-Grant Colleges.
                                 ______
                                 
     Black Alliance for Educational Options (BAEO),
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington DC 20510.

    Dear Chairman Enzi: The Black Alliance for Educational Options 
(BAEO) is pleased to support the nomination of Margaret Spellings for 
the 8th U.S. Secretary of Education.
    The Black Alliance for Educational Options is a national, 
nonprofit, nonpartisan membership organization whose mission is to 
actively support parental choice to empower families and increase 
quality educational options for Black children. Our organization was 
founded December of 1999. BAEO is focused on making sure that low 
income and working class black families have the expanded educational 
options that are available to more affluent families in our society.
    Ms. Spellings is the type of committed individual that the country 
needs to continue on the path of education reform established by her 
predecessor, Rod Paige. We believe her experience with the Texas 
Association of School Boards and her experience as a White House 
Assistant to the President for Domestic Policy has prepared her well to 
assume this important position. It is clear that Ms. Spellings is a 
trusted advisor to the President and that bodes well for her ability to 
be an effective advocate with him on the issues facing the Department 
and the Nation's schools and more importantly the Nation's children.
    There is much work to be done in this country to meet the oft-
stated goal of ``leaving no child behind.'' We believe the bi-partisan 
No Child Left Behind Act (NCLB) has set the tone for progress by 
establishing standards for accountability, making the case for making 
sure all of our children have highly qualified teachers, and most 
importantly giving parents the ability to either opt out of schools 
that are not making adequate yearly progress or giving them the 
capacity to involve their children in supplementary educational 
services. We believe that if given the opportunity Ms. Spelling will 
continue to work on these and other crucial issues involved in the 
implementation of NCLB, as well as other critical areas that come under 
the scope of authority of the Department.
    We sincerely believe that Ms. Spelling is the type of caring and 
focused individual needed to keep the Department moving forward to help 
all of the Nation's children but particularly the children who are 
being most ill-served by our traditional systems of education. We are 
certain that if confirmed, Ms. Spelling will be an effective U.S. 
Secretary of Education.
    If we can be of any further assistance to the committee during your 
deliberations, please do not hesitate to contact us.
            Sincerely,
                                   Howard L. Fuller, Ph.D.,
                                                Chair of the Board.
                                   Lawrence C. Patrick III,
                                                   President & CEO.
                                 ______
                                 
                  Career College Association (CCA),
                                 Washington, DC 20002-4213,
                                                   January 3, 2005.
Hon. Mike Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Enzi: On behalf of the 1270 member institutions in the 
Career College Association, I write in support of President Bush's 
nomination of Margaret Spellings as Secretary of Education.
    The Career College Association (CCA) is a voluntary membership 
organization of postsecondary schools, institutes, colleges and 
universities that comprise the for-profit sector of higher education. 
In addition, our sector represents 46 percent of postsecondary 
education and educates, prepares and supports 1 million students each 
year in more than 200 occupational fields.
    CCA was the first postsecondary association to support the 
President's No Child Left Behind initiative. I found that Ms. Spellings 
has a deep commitment and passion for reform of our education system by 
setting high standards and providing the necessary resources to meet 
those standards. Ms. Spellings' commitment to access and accountability 
has been a bright spot in the reauthorization of the Higher Education 
Act. CCA believes that with the President's nomination of Margaret 
Spellings at this critical time during the reauthorization of the HEA, 
she will provide the leadership needed to work with Congress and 
stakeholders to provide the very best policies not only for students 
attending career colleges but all higher education students.
    Again, we applaud President Bush on his nomination of Ms. Spellings 
as Secretary of Education and I ask that you and your colleagues on the 
HELP Committee support and confirm her nomination. We believe that she 
is the best person for the students of America. If you desire 
additional comments, I may be reached at 202-336-6756 or via email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b59494e585e577b585a495e5e491554495c15">[email&#160;protected]</a>
            Sincerely,
                                         Bruce D. Leftwich,
                                                    Vice President,
                                              Government Relations.
                                 ______
                                 
                       Congress of Racial Equality,
                                        New York, NY 10003,
                                                   January 4, 2005.
Hon. William H. Frist, M.D.,
U.S. Senate,
Washington DC 20510.

    Dear Senator Frist: On behalf of the Board of Directors of the 
Congress of Racial Equality, it is with great honor that we support 
President George W. Bush's nomination of Ms. Margaret Spellings as 
Secretary of Education. As a close confidant to the President, Ms. 
Spellings' experience and sincere concern for quality education are 
significant traits that are of vital importance for today's youth.
    We at CORE congratulate Ms. Spellings in this endeavor.
            Sincerely,
                                                 Roy Innis,
                                                 National Chairman.
                                               Niger Innis,
                                                National Spokesman.
                                 ______
                                 
                         Education Finance Council,
                                      Washington, DC 20036,
                                                   January 3, 2005.
Hon. Michael B. Enzi,
U.S. Senate,
Washington, DC. 20510.

    Dear Senator Enzi: The Education Finance Council (EFC), requests 
your endorsement of the appointment of Margaret Spellings as the next 
Secretary of Education. Ms. Spellings's extensive background in 
education policy-making on both the State and Federal level makes her a 
natural fit to guide our Nation's education policy. As you know, 
Spellings's service as the Assistant to the President for Domestic 
Policy earned her the respect of Department of Education staff, as well 
as the broader education community and Members of Congress. EFC fully 
supports her appointment and we welcome the opportunity to work with 
Ms. Spellings in the coming year as the reauthorization of the Higher 
Education Act progresses.
    Education Finance Council is a national trade association 
representing not-for-profit, and state-based education loan secondary 
markets from all around the country. Each year, EFC member 
organizations finance the issuance of billions of dollars of student 
loans to millions of postsecondary students. EFC members operate in 
every State helping families finance postsecondary education by 
ensuring the availability of private funding for education loans. As 
public-purpose organizations, EFC members are dedicated to ensuring 
that every qualified student can access the resources and financial 
support necessary to attend college.
    We thank you for your consideration of this request and your 
continued support of our mission.
    Sincerely,
                                         Steven McCullough,
                                                             Chair.
                                 ______
                                 
    Institute for Research and Reform In Education,
                                    Philadelphia, PA 19102,
                                                   January 4, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
Hon. Edward Kennedy,
Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Messrs. Enzi and Kennedy: I am writing in support of Mrs. Margaret 
Spellings' nomination for Secretary of Education. As founder and 
president of the Institute for Research and Reform in Education (IRRE), 
I have had the opportunity to work with the Department of Education 
over the past 6 years in its effort to improve secondary education in 
America with a particular focus on improving high schools serving 
economically disadvantaged communities.
    My colleagues and I at IRRE support wholeheartedly the continuation 
and strengthening of these efforts. We hope the appointment of Mrs. 
Spelling signals the President's and his Administration's continued 
commitment to strengthen this critical and culminating phase of our 
young people's transition from childhood to young adulthood.
    The work on high schools has begun, but there is much more to do. 
The Department and its leadership have created urgency at the State and 
local level--to look hard and do something meaningful about how our 
high schools are organized and how teaching and learning occur. These 
investments in research and program development must continue, in my 
view, if these initial efforts are going to pay off--and particularly 
for those millions of students who depend deeply on public education to 
launch them toward successful adult lives.
    Mrs. Spellings' experience working at the State and Federal level 
on education and other central components of the President's agenda, 
brings a broad perspective to the Department that will serve it and the 
American education system well. I strongly support her nomination and 
urge you and your colleagues to do so as well.
            Sincerely,
                                   James P. Connell, Ph.D.,
                                                         President.
                                 ______
                                 
                         KnowledgeWorks Foundation,
                                 Cincinnati, OH 45202-3611,
                                                 December 22, 2004.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: KnowledgeWorks Foundation fully supports the 
appointment of Margaret Spellings as Secretary of Education. We have 
confidence that her past experience in the education arena and 
commitment to public schools will enable her to continue the positive 
reform efforts the Department of Education has engineered over the past 
4 years.
    The Foundation partnered with the Department of Education on the 
largest statewide high school transformation initiative in the country. 
The initiative aims to bring rigor, relevance and relationships back to 
the forefront of the high school experience. The Department's generous 
financial support, constant championing of our efforts, and guidance on 
the technical assistance provided to each school and district involved 
has led to the conversion of 17 large urban high schools into over 70 
new, autonomous small schools.
    The President's commitment to making high schools a key part of the 
Administration's agenda is directly aligned with our efforts. We 
believe Ms. Spellings will effectively implement the President's 
interests and help to maintain and improve upon the progress that has 
already been made on the renewal of the American high school and the 
public education system as a whole.
            Sincerely,
                                              Chad P. Wick,
                                                 President and CEO.
                                 ______
                                 
                         National Council of Higher
                     Education Loan Programs, Inc.,
                                      Washington, DC 20036,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Chairman Enzi: On behalf of the National Council of Higher 
Education Loan Programs (NCHELP), I would like to express support for 
the nomination of Margaret Spellings as Secretary of Education.
    With her commitment to a strong and accountable public education 
system, we believe Ms. Spellings is an excellent candidate to lead the 
Department of Education. In her role as the Senior Domestic Policy 
Adviser to the President, Ms. Spellings has had a unique opportunity to 
see the role education plays in a broader, national context. As the 
higher education community prepares to reauthorize the Higher Education 
Act, we need a leader with a keen understanding of the policies and 
procedures involved. Ms. Spellings' contributions to the No Child Left 
Behind Act provide a foundation for ensuring the success of this 
important legislation.
    NCHELP members are committed to improving college access and 
affordability for America's students. We commend the efforts of 
President Bush to ensure that Federal funds are available to students 
and their families in pursuing postsecondary goals and believe that his 
choice in Ms. Spellings to carry on this important work at the 
Department of Education will be rewarded.
            Sincerely,
                                             Brett E. Lief,
                                                         President.
                                 ______
                                 
                National School Boards Association,
                                 Alexandria, VA 22314-3493,
                                                   January 5, 2005.
Hon. Michael B. Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re: Senate Confirmation Hearing on Ms. Margaret Spellings as United 
        States Secretary of Education

    Dear Chairman Enzi: The National School Boards Association, 
representing 95,000 school board members and our State school boards 
associations across the Nation, is pleased to support the nomination of 
Ms. Margaret Spellings as the next Secretary of the U.S. Department of 
Education.
    Ms. Spellings has had a distinguished career as a strong advocate 
and policymaker in the field of public education. From her earlier 
experience with the Texas Association of School Boards, followed by her 
experience as a key official on the staff of the Governor of Texas, to 
her most recent experience as Domestic Policy Advisor to the President 
of The United States, Ms. Spellings has demonstrated her strong 
commitment to quality public education.
    Perhaps of utmost importance in her career has been her intense 
leadership in ensuring that public schools and school districts across 
the country are held to a higher level of accountability for the 
academic performance of all students regardless of socio-economic 
conditions, race, ethnicity, or disability. Such increased emphasis has 
sparked renewed energy and innovation in securing major reforms in 
delivering quality education to all students.
    We believe that Ms. Spellings brings the credentials, commitment, 
and experience to this position to ensure that the goals of the No 
Child Left Behind (NCLB) Act and other Federal programs will be 
achieved. Additionally, she will bring strong leadership to cause 
continuous improvements in the design of Federal education programs and 
in the manner in which these programs are administered by the 
Department of Education,
    We look forward to working closely with Ms. Spellings on major 
issues affecting our public schools and urge you to move expeditiously 
in confirming Ms. Spellings.
            Sincerely,
                                            Anne L. Bryant,
                                                Executive Director.
                                          George H. McShan,
                                                         President.
                                 ______
                                 
                                  Project GRAD USA,
                                         Houston, TX 77002,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.
    Dear Senator Enzi: I am writing to express my unqualified support 
for the nomination of Margaret Spellings to be the next Secretary of 
Education. I have been deeply involved in improving public education 
for many years, first as the CEO and Chairman of Tenneco, a Texas-based 
Fortune 500 company, and later as the founder and Chairman of Project 
GRAD USA, a school reform organization which began in Texas and now 
serves low-income schools across the country. As someone who has had 
the opportunity to work directly with Ms. Spellings and observe her 
work for more than a decade, I strongly believe that the President 
could not have made a better choice.
    The No Child Left Behind Act is one of the most significant pieces 
of Federal public school legislation ever passed. I know from our work 
at Project GRAD with more than a dozen of the Nation's most challenged 
public school districts that a strong accountability framework must be 
in place before real improvements can be made. It's a lesson that I 
learned in my days running Tenneco--without a strong focus on results, 
you don't get results.
    As a Nation, we find ourselves at a crossroad. Any change on the 
scale of what the No Child Left Behind Act demands often meets with 
resistance. Some people of good will who share a commitment to provide 
a sound education to all of our children want to make commonsense 
improvements to the law. Others, I'm afraid, want to scuttle it. If we 
falter, and turn back, we will have squandered an historic opportunity.
    Above all, we need someone who can lead us through what promises to 
be a trying period to consolidate the gains we have made and extend 
them to high school and other areas. Ms. Spellings is the ideal choice 
to be that leader. Our Secretary of Education must be grounded by a 
deeply felt commitment to improving educational opportunities for all 
of our children. No one who has worked with Ms. Spellings doubts the 
depth of her commitment.
    But what uniquely qualifies Ms. Spellings to be Secretary is that 
she brings the strengths and skills to translate that commitment into 
reality. Her strong principles give her the freedom to be pragmatic and 
the ability to judge when flexibility is needed to get the job done. 
She has a thorough understanding of the policymaking process, which 
will be crucial in an arena in which Federal, State, and local 
officials all play significant roles. She is well-liked and has earned 
the respect both of those at the highest levels of government and of 
educators across the political spectrum and throughout the country.
    For the sake of our Nation's children, I urge you to give your 
consent to the nomination of Margaret Spellings as Secretary of 
Education.
            Sincerely,
                                         James L. Ketelsen,
                                              Founder and Chairman.
                                 ______
                                 
                                         SallieMae,
                                          Reston, VA 20190,
                                                   January 5, 2005.
Hon. Michael Enzi,
Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Enzi: I am to writing to express my support for 
President Bush's nomination of Margaret Spellings to be Secretary of 
Education.
    As a major employer in Texas, Sallie Mae became acquainted with Ms. 
Spellings when she served as a top education advisor to Governor Bush 
in 1997. We were impressed with her knowledge of higher education and 
her willingness to openly consider issues facing higher education.
    In her role as a chief domestic policy advisor to the President, 
Ms. Spellings has exhibited an exceptional understanding of problems 
facing education in our Nation. Margaret served as one of the chief 
architects of a plan that President Bush introduced in his first week 
in office to reform our Nation's elementary and secondary schools to 
ensure that all children are proficient in reading and math by the 
2013-14 school year. Passed by Congress with overwhelming bipartisan 
majorities and signed into law by President Bush, the No Child Left 
Behind Act represents the most important Federal education reform in a 
generation. The testing, accountability and high standards contained in 
this law, together with record new funding, will help ensure the 
opportunity for educational excellence for every child in the country. 
From all accounts, we are already seeing progress.
    From my perspective, the more children that successfully complete 
high school and move into post secondary education, the stronger our 
economy and our Nation will be. Ms. Spellings' commitment to improving 
education and her proven record of success make her an excellent 
candidate to be our Nation's next Secretary of Education.
    I respectfully urge the committee to move quickly to approve her 
nomination.
            Sincerely,
                                            Albert L. Lord,
                                             Vice Chairman and CEO.
                                 ______
                                 
                                         SkillsUSA,
                                   Leesburg, VA 20177-0300,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Sir: SkiIIsUSA looks forward to the swift confirmation of 
Margaret Spellings as the next U.S. Secretary of Education so the 
Administration and Congress may return to the important work of 
reauthorizing career and technical education and the Higher Education 
Act. We have read news stories and public statements quoting leaders in 
Congress, as well as representatives of organizations such as the 
National Educational Association, the American Federation of Teachers 
and the National School Boards Association, commending Ms. Spellings on 
her accessibility, willingness to listen, her strong belief in 
assessments and accountability and her dedication to excellence in 
student achievement.
    SkiIIsUSA will be happy to work with a secretary of education 
exhibiting these qualities. They are, after all, the kind of 
employability and leadership skills we teach and attitudes we work to 
develop in our students. We also appreciate the fact that Ms. Spellings 
will have the direct and personal confidence of the President.
    SkilIsUSA continues to welcome opportunities to work with the 
Office of Vocational and Adult Education to explore the important role 
of career and technical education in No Child Left Behind and in high 
school renewal. We look forward to being a partner in transforming 
American education--through high quality career and technical education 
in high schools, colleges and apprenticeship programs--to meet the 
education and training needs of students and employers.
    Thank you for your consideration and thank you for your continuing 
work on behalf of public career and technical education.
            Sincerely,
                                       Timothy W. Lawrence,
                                                Executive Director.
                                 ______
                                 
                 Southern Regional Education Board,
                                    Atlanta, GA 30318-5790,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Senator Enzi: You will be considering the nomination of 
Margaret Spellings as Secretary of Education. While many persons in 
Washington know Margaret Spellings as a policy advisor to the President 
and for her role as part of an impressive coalition that drafted the No 
Child Left Behind Act, I think Margaret Spellings' experiences in Texas 
are more important to her preparation to be Secretary of Education. In 
Texas, in her role with the legislature and with Governor George W. 
Bush, Margaret Spellings was working with educators who were skeptical 
about proposed education reforms from the new Governor and with a 
legislature that was controlled by members of the Democratic party. It 
was in this environment that the Texas version of the No Child Left 
Behind Act was developed and its early implementation begun.
    The skills and experiences that characterized Margaret Spellings' 
work with the legislature in Texas and later with the Governor of Texas 
on statewide education issues could be important and instructive for 
the approach and actions that will be needed in the further 
implementation of the No Child Left Behind Act. Education reform and 
educational improvement in Texas, or at the national level, will not 
occur unless we know clearly the direction in which we want to move. 
Even then it takes a spearheaded effort to move an enterprise of 
millions of children and millions of persons who want to do the right 
thing for children, but for which there are many different opinions and 
for which there is the powerful natural inertia of a large enterprise.
    What Margaret Spellings showed in Texas was that while she was 
certain, as was the Governor, about the direction that needed to be 
taken she was also willing to listen to the views of education and 
political leaders and to recognize that while one may be certain about 
the initial direction to be taken there are changes and adjustments 
that are needed on the journey.
    I think Margaret Spellings is a realist and a pragmatist. While she 
believes very strongly in fundamental principles, she also recognizes 
that sometimes it is necessary to change speeds and to alter directions 
to achieve the goals. In my opinion, the task facing the Secretary of 
Education is to adhere to the fundamental goals of the No Child Left 
Behind Act and to discern from all that she hears from around the 
country the pragmatic course and the actions that are necessary to help 
States and our Nation reach the fundamental goals.
    My years of experience working with Margaret Spellings were 
primarily when she was in Austin, Texas but I have been in touch with 
her several times in her role as policy advisor to the President. I 
know of no personal or professional reason that the Senate should not 
confirm her appointment.
            Sincerely,
                                               Mark Musick,
                                                         President.
                                 ______
                                 
          Thurgood Marshall Scholarship Fund, Inc.,
                                        New York, NY 10038,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Dear Honorable Enzi: The Thurgood Marshall Scholarship Fund (TMSF) 
enthusiastically supports the nomination of Margaret Spellings to 
become the next Secretary to the U.S. Department of Education. We 
respectfully urge the Senate to move quickly toward her confirmation.
    As you may know, founded in 1987 and headquartered in New York, the 
Thurgood Marshall Scholarship Fund is the only organization chosen by 
Thurgood Marshall, Associate Justice of the U.S. U.S. Supreme Court, to 
bear his name, and is the only national organization that provides 
merit scholarships, programmatic, and capacity building support to the 
47 Public HBCUs and the five historically Black law schools. TMSF's 
mission is to prepare a new generation of leaders by bridging the 
technological, financial, and programmatic gap between public and 
private Historically Black Colleges and Universities, making the dream 
of a college education a reality. Nearly 80 percent of all HBCU 
students attend one of our member institutions.
    Through the development of the No Child Left Behind Act, Margaret 
Spellings exemplifies initiative, leadership and devotion to education 
reform. These traits provide a strong indication of her ability for 
tremendous success as Secretary of Education. TMSF is also confident 
that Ms. Spellings will continue the Bush Administration's strong 
support for Historically Black Colleges and Universities (HBCUs), by 
creating strong partnerships with HBCUs and their national 
organizations.
    Thank you for your consideration of our request. If you should have 
any questions or need any additional support, please contact our 
Director of Government Affairs, Charles L. Mason, Jr. at (202) 715-3070 
or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f4c424e5c40416f5b425c4901405d4801">[email&#160;protected]</a>
            Sincerely,
                                             Dwayne Ashley,
                                                 President and CEO.
                                 ______
                                 
                         Hispanic Scholarship Fund,
                                                   January 4, 2005.
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510-6300.

    Senator Enzi: It is with great enthusiasm that I write you to 
recommend the rapid confirmation of Margaret Spellings as U.S. 
Secretary of Education.
    You have stated that one of your priorities is to develop ``a 
comprehensive approach to education and training that promotes a 
lifetime of learning for the American workforce and (that) ensures our 
long-term competitiveness in the global market.'' The best foundation 
for this is to ensure that America's students graduate from high school 
college-ready. Margaret has played an instrumental role in developing 
legislation that holds our public school systems accountable for 
accomplishing this.
    I have had the opportunity to view Margaret's work through two 
lenses--one as president and CEO of the Hispanic Scholarship Fund 
(HSF), the Nation's largest organization supporting the higher 
education of Hispanic Americans, and the other as a board member of the 
National Center for Education Accountability, a collaborative effort to 
improve learning through the effective use of school and student data 
and the identification of best practices.
    Margaret is a strong leader. She is bright, innovative, 
collaborative and stimulating--encouraging better thinking from those 
who work with her. But I'd like to focus on two additional attributes 
that I think make her uniquely qualified to lead the U.S. Department of 
Education at this time.
    One is her curiosity. I first met Margaret in 1998 when she was 
senior advisor to then Texas Governor George W. Bush. I had written a 
letter to Governor Bush, commending him for legislation that would 
improve access to higher education for Texas' Hispanic students. She 
took the initiative to ask for a briefing on HSF's work. Since then, I 
have seen Margaret, on numerous occasions, look to connect the work of 
outside organizations with the policy and legislative work she is 
creating.
    The second is her passion for improving public education. Her 
achievements in this area have been publicly documented. The quantity 
and quality of these accomplishments stem, in large part, from her 
fundamental desire to ensure that all children get the education they 
deserve and from her willingness to tackle--many times head-on--any 
obstacle to public education reform.
    The continued successful implementation of No Child Left Behind 
will require both of these attributes, as the hurdles to school success 
are identified and solutions created.
    You also have described your priority for ensuring that ``college 
is accessible, affordable, and within reach of any student who wants to 
attend, and that students leave college ready for the workforce.'' For 
Hispanic students, that is the core of HSF's work. We know that our 
success will be enhanced with an Education Secretary who is curious 
enough to identify all the partners required and passionate enough to 
see that these partnerships yield results.
    In short, I think Margaret Spellings will make an excellent 
Secretary of Education, and I look forward to working with her to 
ensure that your committee's priorities are met.
    Thank you for your consideration.
            Sincerely,
                                      Sara Martinez Tucker,
                                                 President and CEO,
                                         Hispanic Scholarship Fund.
                                 ______
                                 

    The Chairman. I do have a couple of questions. You touched 
on it briefly, but I would like a little more of an explanation 
about the President's rationale in looking to expand No Child 
Left Behind to high schools; what are the Administration's 
plans to ensure that more students graduate from high school, 
and how does the Perkins Act reauthorization that we need to do 
fit into these high school initiatives?
    Ms. Spellings. Senator, the President and, I think, NCLB, 
is showing us that what gets measured gets done. And the 
assessment and data information systems that we have put in 
place in No Child Left Behind, the opportunity for every 
teacher to know how every child is doing in grades 3 through 8, 
for parents to know how their kids are doing, is really working 
to improve education. And he believes that that same theory 
ought to hold true for the high school level as well. Certainly 
it could be a little more complicated because of different 
types of offerings and the way a high school is organized, but 
I do think that that same philosophy can apply that 
measurement, sound data, more information both for educators, 
students, and parents is useful to improvement in the system.
    With respect to high school completion, as I said, we have 
too few kids--only about 62 kids of every 100 entering 9th 
grade really get out of high school. And part of our big 
problem obviously in college completion is that we do not get 
enough of them in college in the first place. So we really have 
to stick to our knitting, I think, as far as preparation in 
many ways.
    The President has called for intervention programs with 9th 
graders, literally that we make a contract with students and 
families to see how we are going to get each and every child 
out of high school. One of the things we have learned as we 
have implemented the reading initiative is that far too many 
kids have gotten through junior high and into high school 
without the requisite reading skills to be able to perform 
successfully there. So reading is certainly an area of focus.
    With respect to career and technology programs and the 
programs that are embedded in the Perkins Act, the President 
believes that those programs as well--and I am a product of 
vocational education; I spent my senior year in high school 
working in a work-study program--must have academic rigor. We 
are cheating kids if we do not require them to have the skills 
necessary to be effective in the workplace, and some day, in 
postsecondary education if they elect to.
    The Chairman. Thank you.
    I also want to go into continuing education and adult 
learning because there is a growing consensus that education at 
all levels in this country needs to do a better job preparing 
students for the workforce. Under your leadership, how will the 
Department of Education ensure that education programs are 
helping to support a lifetime of learning that will prepare 
students of all ages for success in the workplace, and how will 
you coordinate those efforts with similar initiatives 
administered by the Department of Labor?
    Ms. Spellings. Senator, let me take the last part of your 
question first. In April of last year, the President proposed a 
Workforce Investment Act proposal which merged about four of 
the largest programs together and attempted to coordinate some 
of these funding streams more broadly.
    I think the President's philosophy, just as it is in No 
Child Left Behind, is that we ought to be clear with the States 
and with employers and with individuals about what we expect 
from these programs, and we ought to allow State leaders, 
Governors, mayors, higher education leaders and the like, to 
effectively tailor programs to meet the needs of those local 
populations. So, I think, more authority, clearer results.
    On the second part, with respect to lifetime of learning, 
as I said in my testimony, many, many, many of our students 
these days are what we call nontraditional students. The 
President has called for a year-around Pell grant. Currently, 
you can only get Pell aid for two semesters. If kids or adults 
are willing to go year-around, they ought to be able to get 
financial aid year-around. He has called for a State Scholars 
Program that says if you are college-ready as evidenced by a 
rigorous course of study, you ought to be rewarded to the tune 
of an additional $1,000 a year for the first 2 years of college 
to make college more accessible and more affordable.
    We must use technology and eliminate barriers to 
technology-based course work. I was just reading an article 
yesterday that many, many kids, particularly community college 
kids--or adults--are taking technology-based course work that 
is helping them enhance their careers and doing it on their 
time.
    So I think we need to break down some of these barriers 
that we have had in higher ed financing that are around the 9-
month school year and geared more to people who are going 
straight from high school into college, more favoring some of 
these lifelong learners, as you called them.
    The Chairman. Thank you.
    I am trying to set a precedent here that we take five 
minutes in a round, and I have one second left. [Laughter.] I 
will abide by that.
    We do have the opening of the electoral college ballots 
today at 12:30, so we do have some time constraint, but not a 
great one, so at this point, I will recognize Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman.
    When you said ``one second left,'' I remember doing an 
interview once on television, and the reporter said, ``I have 
30 seconds left,'' and the Middle East was the question. 
[Laughter.]
    First of all, congratulations, Mr. Chairman, and welcome to 
our new members, Senator Burr, Senator Isakson, and Senator 
Hatch coming back to the committee.
    And Judd Gregg, we thank you for your leadership of the 
committee over the past and previous Congress. It was a 
pleasure to work with you, and I look forward, Mike, to working 
with you as well on a number of issues that are of interest to 
all of us.
    And Ms. Spellings, congratulations on your nomination.
    Ms. Spellings. Thank you, Senator.
    Senator Dodd. People who are willing to do these jobs and 
take on these responsibilities regardless of the outcome of 
votes have earned my enduring appreciation for your willingness 
to serve our country, and I appreciate very much your 
willingness to do that.
    This morning--and I am not going to indicate any particular 
bias, but any candidate who has a daughter named ``Grace,'' I 
am particularly well-disposed toward as the father of a Grace. 
So, I welcome Grace to the committee and your family as well 
for being here.
    Ms. Spellings. Thank you.
    Senator Dodd. This morning, as you know, Ms. Spellings, 
some 55 million children went off to school, and 50 million of 
them went to a public school; about 5 million go to private or 
parochial schools across the country. And we know--Senator 
Kennedy has talked about it, you have addressed it, the 
chairman and others have--the tremendous pressures today on so 
many of these children to guarantee what your predecessor 
talked about, and that is, of course, an equal access to 
education and a determination to see to it the quality and the 
excellence of education for these children, particularly a 
commitment, obviously, to those in public schools as our 
primary responsibility. The idea that we are going to 
accommodate any significant percentage of the 50 million who go 
to public elementary and secondary schools in a private or 
parochial school setting is rather unrealistic. Certainly some 
of that can happen, but to a large extent, we have to make a 
commitment to see to it that children who have no other choice 
but a public education get that quality of education.
    Thomas Jefferson said more than 200 years ago that ``Any 
Nation that expects to be ignorant and free expects what never 
was and never possibly can be.'' As we enter this information 
high-technology age, probably the best indicator of a person's 
success is going to be whether or not they have the quality of 
education to meet the challenges of a 21st century world in 
which we are already 5 years into.
    I know there are other jobs at the Cabinet table which are 
often considered more important--Secretary of State, Secretary 
of Defense. I do not exaggerate when I suggest to you here that 
in my view, your job is the most important one, because if we 
fail to do this well, we leave every other challenge that we 
will face as a nation in the coming years completely to chance 
and probably less likely success.
    So education is the critical piece. It has been fundamental 
to this country since its founding days. So I commend you for 
being willing to take on the responsibility. I am assuming you 
are going to be confirmed. I intend to support you and hope we 
can work together.
    Just a couple of things if I can in the limited time we 
have in our rounds, and I have an obligation as well that I am 
going to have to step out--I am going to try to get back a 
little later--but let me get right to No Child Left Behind.
    I commend you in your statement for saying--and I am 
paraphrasing here--but that you want to listen very carefully 
to those who are closest to the children--that is, the 
principals, the educators, the teachers themselves, the parents 
and others. I know that you have heard this, and we hear it, 
all of us at this table--No Child Left Behind is a Federal 
mandate. It is a Federal mandate. And we have heard over the 
years the concerns of people at the local level about Federal 
mandates that do not receive adequate funding--the Federal 
Government telling you to do something and then not being 
willing to help, at least in a major way, to contribute to the 
cost of that.
    There are many who will argue that we are some $9.8 billion 
behind in the funding levels of No Child Left Behind. Two 
thousand five and 2006 are going to require different 
requirements be met in that time frame that are going to 
trigger in, and the shortfalls have already indicated in many 
States, talking to us already about their concerns given their 
own budget constraints, their ability to be able to meet and to 
finance properly the obligations that the No Child Left Behind 
Act will require.
    Can you share with us briefly this morning how we intend to 
overcome this gap that we hear about every, single day. When 
every one of us goes back to our States, I do not care where it 
is in the country, we get this--from our teachers, from our 
principals, from our superintendents--this growing gap and 
their inability, without cutting dramatically into existing 
programs.
    For instance, only 8 percent of elementary schools today 
have any kind of formal gym programs. We heard a lot about 
obesity and what needs to be done, and I know you care about 
that as well, but eliminating program after program in order to 
have the resources necessary to meet the requirements that we 
have required under this law--how are we going to close that 
gap? Can we offer more assistance to these States and 
localities?
    Ms. Spellings. Senator, obviously, the President will be 
presenting his 2006 budget here in early February, and it will 
speak for itself. Public education has been a priority for 
funding for him over the course of his Administration. Title I 
funding is up 45 percent in the course of that time period. 
Total No Child Left Behind funding is up about 40 percent. And 
as you all know and do this yourselves, it is always a 
balancing act to figure out how best to allocate resources.
    Further, you know obviously that the Federal Government is 
essentially a minority investor in public education, with about 
8 or 9 percent of the funding coming from the Federal 
Government and the vast majority of it coming from States and 
localities.
    To the extent that some of the provisions are considered to 
be mandates, particularly the assessment one, we have upward of 
$400 million appropriated in this Act to meet the requirements 
of assessments, and they have been deemed by various studies to 
be fully funded, those assessment provisions.
    Further--and I know some States have debated this, and of 
course, this has gone on in previous Administrations about 
whether No Child Left Behind is for them, and should they leave 
money on the table and walk away from the requirements of the 
Act. And happily, in my opinion, no State has elected to do 
that, because I do think that educators, particularly over the 
past 4 years or 3 years since this law has been in place, are 
now buying into the philosophy of this. Yes, I hear a lot about 
resources, but I also hear a lot of support for the tenets of 
No Child Left Behind and what it is doing and that they are 
worth paying for by State and local officials as well.
    Senator Dodd. My time is up, I presume, Mr. Chairman. I 
will try to come back a little later.
    Thank you very much.
    Ms. Spellings. Thank you, Senator.
    The Chairman. I now turn over the microphone to the former 
chairman, my mentor, and the new chairman of the Budget 
Committee, Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    It is a great honor and privilege to be here today with you 
chairing the committee. You have been an incredibly effective 
and strong member of this committee and to see you move into 
the chairmanship is something that is going to be very positive 
for the Congress and for the areas of jurisdiction of this 
committee, so I congratulate you and look forward to working 
with you.
    It is also a great pleasure to be here with Secretary-
designate Spellings, who has played such a huge role in 
fundamentally changing in a very positive way education in 
America. No Child Left Behind has had a dramatic impact, and it 
has caused a massive reevaluation of how we approach education 
in this Nation. We have gone from an input system to an output 
system where we are actually finding out what kids are learning 
and making sure they are learning the right things and 
hopefully making progress. We're making sure that kids know how 
to read and know how to do math at the proper level for their 
grade.
    I congratulate you for what you have already done; it has 
been impressive.
    Ms. Spellings. Thank you, Senator.
    Senator Gregg. There is still a lot to do, as we all know, 
so maybe you could give us your thoughts on three particular 
areas that I am interested in.
    First, if you could spell out your position on how we are 
going to deal with the Pell issue. We know that we are facing a 
situation where outlays exceed appropriations and where we 
could run out of money.
    Second is the issue of supplemental services, which I view 
as one of the key elements of No Child Left Behind. How do we 
make the whole concept of supplemental services have larger 
visibility and have more people take advantage of it?
    And third, we have talked about high school, but let's talk 
about preschool. The Administration put forward a proposal, an 
extremely strong, substantive, effective proposal in the area 
of Head Start, and we have attempted to address that in this 
committee. I would be interested in your thoughts as to how we 
should adjust Head Start to reflect the efforts that you made 
initially in No Child Left Behind in putting education on the 
agenda in the preschool period.
    Ms. Spellings. Thank you, Senator.
    With respect to Pell, yes, we are very much committed to 
that, and in fact the President has called for increases as 
long ago as the 2000 campaign, and we have raised the award 
from $3,750 to $4,050, as you know, once since he has been in 
office.
    The shortfall is a critical issue and I think has impeded 
our ability to raise the award for college students, and 
affordability is something that obviously will be at issue with 
the reauthorization of the Higher Ed Act. And we are thrilled 
on this committee--I will speak for all of us--with you in the 
post that you are going to be in, that you have a great 
understanding of how all of that works, so we might be doing a 
little lobbying of our own.
    Also, as you know, on the tax tables, this Congress has 
required that the tax tables upon which the Pell formula is 
calculated be updated by the Department, and the Department has 
just done so. And unfortunately, that has caused some students 
to lose some level of financial aid, and I think it is 
certainly an area of concern for all of us, and we need to work 
on it this next Congress. The President will be presenting his 
2006 budget, and I am hopeful there will be some pathways 
through this issue in that document.
    On supplemental services, I absolutely agree with you on 
the hope and promise that is provided there. And I think that 
while in some places, it got off to a slow start, it is 
starting to take hold. I think we can do a much better job of 
notifying parents in a timely way about what their options are. 
I think we are seeing providers crop up around the country that 
are high quality. States have put in place rigorous approval 
processes so that they can create the authorized service 
provider list. I think we need to work that more and regularly 
together, both you as elected office holders and those of us in 
the Administration, to make parents aware of those options.
    I also think it is an integral part of the accountability 
system that it serves as an incentive for those schools that 
want to keep kids performing in public schools. So I think 
there is a real genius to the supplemental service provision in 
No Child Left Behind, and we need to continue to work it and 
enhance it, and I pledge to do that.
    Last, on preschool and Head Start, as you said, we did put 
forth a proposal called ``Good Start, Grow Smart,'' about a 
year and a half ago, and it had several elements including more 
offerings and more information for parents as the child's first 
teacher to be able to ingrain reading skills or language skills 
with young children. It also had a provision that would have 
allowed Governors to do more coordination of funding within 
their local preschool systems.
    In Texas, we had offered preschool programs that were in 
the schools for 3- and 4-year-olds as far back as the mid-
eighties and had contributed very significant resources. No 
Child Left Behind says Governors are accountable for having 
those kinds on grade level and reading by the end of 3rd grade, 
and for us to say hands off everything related to Head Start 
does not really make sense. I think we can and should trust 
Governors, those Governors who have been early investors in 
early childhood education, those Governors who are committed to 
offering at least the levels of service provided in Head Start, 
comprehensive services like immunization and nutrition. I think 
those Governors ought to be trusted to take a look at what we 
could do in a more coordinated way to offer more access and 
higher-quality preschool so that we will have kids on track to 
enter school ready to be successful.
    Senator Gregg. Thank you, Mr. Chairman.
    [The prepared statement of Senator Gregg follows:]

                       Statement of Senator Gregg

    As the 109th Congress begins, we face many important issues 
in the area of education. While we as a nation have made 
progress in improving our schools, we have much vital work yet 
to do. It is critical that we have at the helm of the U.S. 
Department of Education someone dedicated to raising standards 
and expanding options for all students to prepare them for 
success in whatever endeavors they choose.
    In nominating Margaret Spellings of Texas to be the 
Secretary of Education, President Bush has underscored his 
commitment to our Nation's children. Mrs. Spellings is 
eminently qualified to serve as Secretary, bringing with her a 
wealth of experience and a great devotion to improving our 
schools. She currently serves as an Assistant to the President 
for Domestic Policy, and served as then-Governor Bush's senior 
advisor on education, helping to build in Texas what is widely 
regarded as one of the strongest State systems of standards 
accountability in the country.
    In recognition of her special passion for education, the 
President has noted that there is no individual he trusts more 
on the issue than Mrs. Spellings. However, Mrs. Spellings' 
dedication and expertise has earned her admiration across the 
political spectrum. My good friend and colleague, Senator 
Kennedy, has called her a ``capable, principled leader.'' This 
bipartisan respect will certainly enhance Mrs. Spellings' 
efficacy as an advocate for children within the Department and 
assist her in working with Congress to advance reform.
    As a key architect of the policy sea change and landmark 
education reform known as the No Child Left Behind Act, Mrs. 
Spellings has helped improve education nationwide. I am proud 
to have worked with her on this law, which has changed the way 
we think about education and is already spurring improvement in 
student achievement among children of every background. This 
progress is due in no small measure to Mrs. Spellings' vision 
and commitment to reform. She knows that every child can learn 
and every school can succeed, and as Secretary of Education she 
will dedicate herself to ensuring that this happens. She also 
believes in expanding educational options for children. She 
helped develop and has consistently supported the supplemental 
services and public school choice provisions in No Child Left 
Behind, and was also instrumental in the passage and 
implementation of the DC School Choice Incentive Act last year.
    This committee will soon be engaged in the reauthorizations 
of a number of key laws, including the Higher Education Act, 
the Carl D. Perkins Vocational and Technical Education Act, and 
in time, the No Child Left Behind Act. I look forward to 
working with her on these upcoming reauthorizations.
    Mrs. Spellings will bring knowledge, experience, energy and 
integrity to her position at the Department of Education, and 
will carry on Secretary Paige's fine work on behalf of our 
Nation's schoolchildren. I anticipate her swift confirmation.
    The Chairman. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman, and let me commend 
you and congratulate you on your first hearing.
    Let me also welcome Senator Burr and Senator Isakson and 
state the obvious to Margaret Spellings. You are an eminently 
worthy appointee. I commend the President for his nomination. 
My prediction is that you will get confirmed--and that is the 
safest bet I have had in a long time--so we can get down to 
some of the more difficult questions that we will face over the 
next several years.
    Just picking up on the issue of the Pell Grant, I realize 
that the Department was required legislatively to reevaluate 
the formula based on tax burden of States, but the stark 
reality is that about 100,000 students lost all access to Pell 
Grants, and more than a million had their Pell Grants reduced. 
And we all sincerely recognize that higher education is 
becoming more and more difficult to afford for working 
families, and the impact of this particular change was 
particularly pronounced among families earning $50,000 or 
less--all the people that we say quite sincerely we want to 
help.
    What are we going to do? I mean, people now are without 
access to Pell Grants, and I know the President is talking 
about year-around programs, etc, but what do we do?
    Ms. Spellings. Well, as you know, unfortunately, that 
provision was not discretionary with the Department of 
Education. They were required by this Congress to update those 
tax tables to reflect most accurately the income levels of 
families and the State tax burden that they bear.
    My understanding on the burden is that, yes, it was about 
90,000 or 80,000 families affected, but that the average level 
of the grant was about $400. So it was not the full $4,000 that 
we often think about.
    And I do think that the Higher Ed reauthorization, the 
budget, the opportunities before us do give us a chance to 
address these affordability issues. I think we must do that, 
and we need to find ways to--obviously, you all worked to close 
the 9.5 percent loan loophole that was then used to provide 
loan forgiveness for teachers teaching in critical need areas. 
But I think that those are the things that we need to address 
in enhancing affordability, and I pledge to work with you on 
that.
    Senator Reed. Let me raise another issue on the President's 
budget, and that is the LEAP program, which is an incentive 
program to encourage the States to participate in supporting 
low-income students in terms of higher education. Several years 
ago, Senator Collins and I sort of saved that from extinction. 
It is a bipartisan-supported program.
    I would hope also that you would support us in that regard, 
too, in terms of the President's budget and making sure that 
there are real resources there.
    Ms. Spellings. The President's philosophy about higher ed 
funding sources, or K-12 funding for that matter, is to have 
larger funding streams as opposed to singled-out different 
programs, and I think that that is what was at issue in the 
LEAP program, but we will certainly look at that. I will look 
forward to working with you on it. I am not advised as to what 
the 2006 budget will provide in that regard, but I look forward 
to working with you, Senator.
    Senator Reed. Good. Let me turn in the last few moments to 
another topic, and that is professional development of 
teachers. We have provisions in the No Child Left Behind Act, 
the IDEA, the Higher Education Act, the Perkins Act, and I 
would ask how you are going to try to coordinate these efforts 
and put more emphasis, because frankly--and this is without any 
analytical basis, more sort of feeling--my sense is that that 
is probably one of the most effective levers of improving 
performance, of having teachers better-prepared, more competent 
in their subjects. How are you going to do that?
    Ms. Spellings. I could not agree more with you. I think 
that professional development is critical to reading success, 
to science and math success, to graduation rates, and on and on 
and on. So I think the Department does have a role to play 
there.
    I think that technology can offer some promise and some 
efficiencies so that we do not have States and local 
jurisdictions having to reinvent over and over key practices. 
The reading initiative, the Reading First Initiative, I think 
is a good example. It is about a $1.3 billion program. We have 
quadrupled funding for reading here with the commitment of you 
all and the President, and much of that money goes to train 
teachers in effective reading skills based on the newest brain 
research. And I am confident that the reason we are getting 
some of these key results is because teachers have the best 
information and tools possible, and that is getting results for 
kids.
    So I absolutely agree with you, and I think it ought to be 
a key part of any initiative.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Next is the subcommittee chairman for Education and Early 
Childhood Development, Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    I look forward to working with you and with the other 
members of the committee and with Margaret Spellings.
    Mr. Chairman, I once held the same job that President Bush 
hopes Margaret Spellings will hold, and at my first Cabinet 
meeting, I learned that not everyone in Washington thinks it is 
the most important job in Washington. My seat was at the end of 
the table, and when they gave us the security briefing, I 
discovered that the Secretary of Education, at least at that 
time, was the last to be evacuated. [Laughter.]
    But I believe, as Senator Dodd said, that there is no more 
important job, no more important seat to hold for our country's 
future. As I look at our future, I see three great challenges. 
One is terrorism, one is preserving our common culture, and one 
is keeping our jobs. And in my experience, better schools, 
colleges, and universities means better jobs. The jobs are 
going to the countries with the trained workforce, and we have 
a real challenge ahead of us.
    I believe you will be an excellent Secretary. You 
understand that your job is really not to be the great 
Education Secretary but to help the President be the great 
education President, which I believe he fully can be during 
this 8-year period.
    I have two questions. I want to go back to No Child Left 
Behind, but I won't do that until the second round of 
questions. I do not want this ``tin cup'' image to be left 
hanging there, because we are being a little hard on ourselves 
as a Congress and hard on the President. Especially if we 
suggest that a Congress that over 4 years increased K through 
12 spending by 40 percent at a time when most States are 
increasing spending by only 10 or 12 or 15 percent. The tin cup 
may be in Nashville or in Boston, but it has not been here.
    But these are my questions. I would like to ask for your 
help in looking at the early education and then, as Senator 
Enzi said, later education. On early education, we talk about 
Head Start, but that is only $6 or $7 billion. There are 69 
programs that spend all or part of their funding for children 
under the age of 5, not including Medicaid or any of the 
entitlement programs. We spend $18 or $21 billion on those 
programs, $34 billion in our Department. And I think that 
working together, we could over the next year or two make sure 
that at least we are spending that money well.
    We have an oversight function, you have a management 
function, and I would like to ask if you would be willing to 
work together on that. That is my first question.
    My second question is at the other end of the spectrum. I 
am afraid that we are going to wake up in 10 years and have 
diminished our secret weapon for job growth, which I believe is 
higher education. India and China are creating better colleges 
and universities. Visa problems are keeping many of our 
talented foreign students from coming in here. States are 
reducing their spending for colleges and universities. When I 
left the Governor's office in Tennessee, we were spending 50 
cents of every State dollar on education. Today it is 40 cents, 
because of the pressure of health care costs. Funding for the 
physical sciences by the Federal Government is flat.
    I would like for us to work together over the next few 
years to try to get on a trajectory that will refocus this 
country on the importance of our system of colleges and 
universities. No other country has the great research 
universities that we have. No other country has the National 
Laboratories that we have. We have figured out how to do this, 
and I do not want us to lose it by attrition.
    So would you work with us in helping to take a broader look 
at the higher education functions that are spread throughout 
the Government? When I left the Secretary of Education post, I 
regretted that I had not asked the first President Bush if I 
could have been the point person for higher education so that 
it would not get, as the chairman often says, lost in different 
silos around the Administration. We needed to have a major 
focus on higher education.
    Ms. Spellings. Absolutely. I call early childhood and 
higher education the bookends of our K-12 system, and I think 
we have work to do in both of those areas, clearly. You 
mentioned the number of programs that the Department of 
Education manages in early childhood development. I think we 
have not been clear with either parents or with community-based 
providers or educators about what the expectations are. I think 
we have lacked offering them research-based materials and 
programs and guidance to make sure those programs are 
effective. And absolutely I pledge to work with you on that, 
because coming from a State where we were early adapters and 
early investors in early childhood, it is one of the things 
that gets the biggest payoffs, and if we are going to educate 
every child and have them reading on grade level by the end of 
3rd grade, we have got to get about the business of effective 
pre-K programs, no doubt about it.
    On higher education, absolutely, and I do think we have a 
long way to go in this arena to make sure that we continue to 
maintain and foster and enhance the higher ed institutions that 
we have here today. You mentioned India and China. They are on 
the move, no doubt about it. And I think that parents need more 
comprehensible information about what higher ed offerings are 
available to them, at what price--how long does it take to get 
in and out of this school versus that school, and so on and so 
forth. I think we can play a role there, absolutely, and I very 
much look forward to working with you.
    I think the fact that we have all of these reauthorizations 
in these subject areas before us will provide a great 
opportunity for us to work together on all of this.
    Senator Alexander. Thank you, Mr. Chairman.
    [The prepared statement of Senator Alexander follows:]

                  Statement of Senator Lamar Alexander

    Mr. Chairman, I once held the same job that President Bush 
hopes Margaret Spellings will hold. At my first Cabinet 
meeting, I learned that the Secretary of Education sits at the 
end of the Cabinet table and is the last to be evacuated in 
case of an emergency. In other words, by some Washington 
standards, it is not a very important job.
    But I believe that there are few jobs in Washington more 
important than United States Secretary of Education. Our 
country is faced with three great issues. One is terrorism. One 
is preserving our common culture. And one is keeping our jobs 
in an increasingly competitive world marketplace. And nothing 
is more important to keeping our jobs than having a superior 
system of education at every level. Jobs will migrate wherever 
the brainpower exists. In short, better schools and colleges 
mean better jobs.
    I believe Margaret Spellings will be an excellent Secretary 
because she is uniquely suited to help President Bush be an 
Education President. The President knows and trusts her. She 
has played a critical role in education policy in Texas and in 
domestic policy in Washington, DC. She and the President know 
that Washington can exhort and encourage standard-setting and 
provide some funding, but that the quality of our schools, 
colleges and universities depends primarily upon parents, 
faculty members, communities, State and local governments and 
our private sector.
    During his 8 years, the President has a great opportunity 
to be our most important Education President. Here are my 
suggestions for how he and his Secretary might focus their time 
during this next 4 years:
    I. Establish a point person within the Administration for 
higher education. One of my great regrets as I left the office 
of Secretary of Education in 1993 was that I did not ask 
President George H.W. Bush that I be that point person. The 
National Academy of Sciences estimates that half of our new 
jobs since World War II have come from our technological 
superiority. Much of that brainpower has come from 50 or so 
research universities and 50 major Federal research 
laboratories. No other country in the world has anything like 
this. We spent $19 billion this past year on Federal dollars 
for research at these universities. The education of the 
greatest generation at more than 6,000 institutions of higher 
education has come primarily because 60 percent of those who 
attend colleges and universities have a Federal grant or loan 
that follows them to the school of their choice.
    Yet I fear we are taking our higher education system for 
granted. Other countries, such as China, are waking up. More of 
their best students are staying home instead of coming to the 
United States. Visa problems in an age of terrorism discourage 
the importing of more foreign brainpower. Federal spending for 
the physical sciences is flat. And States are reducing their 
support for higher education because of increasing health care 
costs, among other reasons.
    This Administration and this Congress should create a new 
focus on how to make sure that we don't wake up in 10 years and 
discover we have lost our secret weapon in keeping good jobs: 
our superior colleges, universities and research labs.
    II. Find ways to involve parents in the education of their 
children by giving them more choices of educational 
opportunities. The genius of Federal policy toward higher 
education is that we respect the autonomy of individual 
institutions and allow Federal dollars to follow students to 
the schools of their choice. This creates opportunity, 
competition and diversity. Since these policies have created 
the best colleges, why not use them to help create the best 
schools?
    This President, I believe, should propose that new Federal 
funding for elementary and secondary education should begin to 
follow the successful example of Federal funding for higher 
education and increasingly be given to parents who then spend 
it at the school or the educational program of their choice.
    III. Make sure we are spending Federal dollars for children 
age 0 to 5 years as well as possible. The Federal Government 
spends $18 to $21 billion each year on 69 different programs 
that dedicate part of their budgets toward early education and 
care programs that serve children under age 5. The Department 
of Education administers 34 of the 69 programs. States and 
local government spend even more. Almost everyone agrees that 
the earlier children are helped, the better they learn. But now 
is an excellent time to examine whether we are spending well 
what we already spend.
    IV. Make sure No Child Left Behind is funded, flexible and 
working before it is expanded. During the last 4 years 
President Bush and the Congress have increased Federal funding 
for K-12 education by 36 percent, while State funding in my own 
State of Tennessee has increased by 10.7 percent. Despite GAO 
and Accountability Works findings to the contrary, there are 
still complaints that the Federal requirements of No Child Left 
Behind aren't properly funded.
    My own experience has been that 70 percent or even more of 
the consternation about NCLB among local school systems came 
simply from confusion about what the Federal and State 
governments did or didn't require. This Congress and, I 
believe, the Administration have a responsibility to make sure 
that the current requirements of No Child Left Behind are 
properly funded and are as flexible as possible so that 
teachers and principals can use their own common sense and good 
judgment to reach State standards.
    We want to learn as much as we can from the testing already 
underway in grades 3-8 before authorizing an expansion of No 
Child Left Behind to the high school levels. A good place for 
the new Secretary to show good faith in this is to work quickly 
to implement the new State flexibility that Congress has 
granted States to define a ``highly qualified'' teacher for 
special education students in middle and high schools. About 
100,000 teachers are required to meet this new requirement by 
August--and the authority to set the more flexible requirements 
was only signed into law last month.
    V. Restore the civic mission of our public schools, 
especially by helping children learn American History. The late 
Al Shanker, President of the American Federation of Teachers, 
once said the rationale for the common school in America was 
``to help immigrant children learn the 3 R's and what it means 
to be an American with the hope they would go home and teach 
their parents.'' It is a national embarrassment that high 
school seniors make lower scores on United States history than 
on any other subject tested by the National Assessment for 
Educational Progress.
    Congress enacted legislation that Senator Reid and I 
sponsored last year to authorize summer academies for 
outstanding teachers and students of American history and 
civics. I strongly urge the Secretary to ensure that a few of 
these Presidential Academies for Teachers and Congressional 
Academies for Students are up and running in the summer of 
2005. Senator Kennedy and I have sponsored legislation that 
will allow 10 States to compare scores on U.S. history NAEP 
exams in the 8th and 12th grades. The Congress and the new 
Secretary can work together to coordinate a variety of Federal 
programs designed to restore the civic purpose of our public 
schools. The rudiments of our common culture are our common 
language, English, our common history, and our common ideals, 
like liberty and equal opportunity, which we are constantly 
striving to achieve. The common school exists to help make sure 
each generation knows this.
    I look forward to working with the President, his new 
Secretary and members of this committee to place the proper 
national spotlight on education. If confirmed, Mrs. Spellings 
may sit at the end of the Cabinet table and be the last to be 
evacuated in case of an emergency, but in my judgment there is 
no more important chair at the table than the one she has been 
nominated to sit in.
    The Chairman. Thank you.
    The very patient Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman, and 
congratulations. I am looking forward to working with you--and 
also with you, Ms. Spellings. I am delighted that the President 
has nominated you for this important position.
    I have several questions, and I would like to ask them in 
order, and I know we do not have the time for a lot of in-depth 
response, but perhaps we could get written responses that would 
provide some additional information.
    First, though, let me thank you for your response to an 
earlier question about the President's commitment with respect 
to nontraditional students. That is something that I have 
worked on and have legislation that I introduced with former 
Senator Bob Graham, the Nontraditional Students Success Act, 
and I am excited to work with you on this because I think it is 
an area that goes to what Senator Alexander was saying. Our 
higher education system is not only the best in the world, it 
is unique because it is filled with second chances, and the 
community colleges are such a tremendous resource for so many 
people and for our Nation as a whole.
    My first question goes to the provision in No Child Left 
Behind with respect to transfer opportunities. The 
Administration's regulation for carrying out public school 
choice says that school districts cannot use lack of capacity 
to deny students the option to transfer. Now, this has forced 
many districts to make a very difficult choice, and in New York 
City, which as you know tried very hard to comply with this, we 
have been transferring tens of thousands of students. The 
result is that we now have overcrowded schools that 
occasionally become violent. We have a lot of difficulty 
getting access to the resources that the good students need, 
because often what is required in order to comply with the 
choice provision is to overcrowd a school that was actually 
doing quite well before it became overcrowded. It is a very 
specific problem for New York City, and it may be a problem 
elsewhere, but I would particularly like to work with you to 
try to find some ways to realistically deal with this, because 
as it stands now, many of our schools are facing some very 
difficult issues and do not have the resources that they would 
want in order for the students transferring in to get an 
adequate education.
    Along with several of my colleagues on this committee, I 
have introduced legislation that would give us a start. It 
would prevent school districts from allowing transfers into 
overcrowded schools when doing so would violate health and 
safety regulations. The reason that is important is another 
provision in the No Child Left Behind Act which I authorized 
which asks the Department to conduct an investigation into 
health and learning impacts of poor environmental conditions in 
schools.
    The report has just come out--it was a survey of all 
existing literature--and it is quite shocking, because what it 
says is that there is direct impact on children's performance 
in school because of poor environmental conditions--inadequate 
ventilation, mold, dampness, all of those problems.
    So I think these two issues go hand-in-hand. We are 
creating some health and safety problems in some of the schools 
that are now being overcrowded, but we have a tremendous number 
of schools throughout our country that do not really present 
quality conditions for our children. And I would like to work 
with you to try to see ways that we can creatively address 
this. We need to continue to get more information, obviously, 
but it is something that I see as a continuing issue. 
Particularly with the rise in special education problems, there 
are health and environmental linkages to many of these 
conditions that I think we should do more to determine how to 
deal with.
    My next concern is on title IX. I would hope that as 
Secretary of Education, you would continue a commitment to keep 
the longstanding title IX policies in place. This is an issue 
that is of great concern. In fact, a recent poll showed that 7 
of 10 adults familiar with title IX think the law should 
actually be strengthened, but it certainly should be left 
alone. We had some issue about that in the first term of the 
Administration. I hope that you would commit to making sure 
that title IX stays in place and strongly enforced.
    My next issue concerns this new data system that I have 
been reading about that would create a data system that would 
put an enormous amount of information about our children into 
it, and I am quite concerned about the privacy provisions 
connected with that. On November 29, I wrote Secretary Paige 
inquiring about the feasibility study on the overhaul of what 
is called the Integrated Postsecondary Education Data System. I 
have not received a response to that letter, but I would 
appreciate one as soon as possible.
    Finally, two other quick points. One, on Perkins. The 
Perkins Program has been, like the Pell Grant Program, a 
tremendous assistance in helping a lot of students enter 
lucrative and rewarding technical careers. We marked up a bill 
out of this committee unanimously that asked that we maintain 
the current funding structure, and I would hope you would look 
at that.
    And finally, my last question, Mr. Chairman, is on the 
research issues that come out of the delays in the National 
Assessment Governing Board, its independence, and the National 
Center for Education Statistics. I think it is critical that 
they remain independent, that they have credibility in the 
information they put forth. I do not expect you to answer all 
of these questions, but I, like so many of my colleagues, 
cannot stay for a second round, and I just wanted to express 
both my strong support for you but my concern about these 
issues.
    Ms. Spellings. Thank you very much, Senator. Let me dive in 
as best I can.
    With respect to NCLB transfer opportunities, I think that 
is a fair point, and we do need to work on the capacity issues. 
But also I think, now that we are several years into this, 
supplemental service options may be more viable for some of 
those parents and families as well. So, as I said to Senator 
Gregg a bit ago, I think we obviously need to continue work on 
that.
    The other thing, I think, the whole reason for the service 
provisions obviously is to provide parents an opportunity when 
schools are not working, and in a place like New York City--and 
I know they have worked a lot on this--to make sure that the 
schools are working in the first place, to avoid the provisions 
kicking in in the first place. I think that is going on, 
particularly in the area of reading.
    With respect to the health study, I have just learned of 
it. You are right, it has just come out. I know the EPA is 
reviewing it, and I am anxious to see what the findings are. I 
do agree that those are issues for schools and for families and 
for parents, not only in our schools but elsewhere.
    With respect to title IX, as you know, Secretary Paige 
appointed a commission to look at that issue, and it was very 
bipartisan, if you will. They had hearings all over the country 
and so forth. And I think what they recommended was that we 
continue to be committed to title IX, that it is a good law, 
and that there are three prongs to the test to meeting 
compliance. One is substantial proportionality, which had been 
largely used by institutions, but also, a history of continuing 
to work on and grow programs for women as the second prong; and 
the third prong is ascertaining levels of interest. We have 
talked a lot about nontraditional students, and interest levels 
certainly come into play there. We are very committed to the 
act, to the law, but I do think there are other tools available 
to institutions besides strict proportionality. The Department 
has held some regional forums and provided information to 
provide best practices. Some schools, some institutions, have 
used the survey instruments effectively and have withstood 
litigation and the like. So we are committed to finding ways to 
more fully implement title IX.
    With respect to the data system, I will certainly look into 
that. I am not familiar with the November 29 letter that you 
wrote, but I certainly will be.
    On research, NAGBE and NCES, absolutely, we share your 
belief that they ought to be independent. I think they have 
worked well, and I think they are validating the good practices 
of No Child Left Behind and are a good, valid check on the 
system.
    As for Perkins funding, as I said, the President's budget 
will be forthcoming here shortly, and it will speak to the 
issue of Perkins funding.
    So, thank you.
    The Chairman. Thank you.
    Senator Burr?
    Senator Burr. Thank you, Mr. Chairman, and thank you for 
your very gracious welcome to the committee and the inclusion 
to Senator Kennedy for his remarks.
    Mr. Chairman, I find myself here today, the first day of 
work for myself here in the Senate, not as a member of the U.S. 
Senate per se, even though the title exists, but as a parent, 
because I think that parents have to be included in the 
decisions that are made about education of their children. They 
are certainly the ones who understand whether they have hit the 
threshold long before we even test. It is a mother or a father 
who sees the trend.
    I welcome our nominee here today. It was Thomas Jefferson 
who said, ``I am not an advocate of frequent changes in laws 
and constitutions, but laws and institutions must advance to 
keep pace with the progress of the human mind.''
    There are many people who would like tomorrow to be like 
yesterday. You said in your written statement that 67 of every 
100 9th-graders graduate from high school, and only 26 of 100 
complete their sophomore year of college. I think that that 
displays that you have a tremendous understanding of the 
challenge that we are faced with in the education system of our 
country, because given that scenario and the economic changes 
that have happened and the job changes that have happened, we 
understand how deficient a large section of the population will 
be, lacking the skills to compete in the job market.
    So I look forward to and welcome the bipartisan support 
that everyone has shown to your confirmation.
    Like many States, North Carolina has a growing immigrant 
population. Did the Bush Administration factor in that trend 
when setting the education goals for the next 4 years?
    Ms. Spellings. Yes, absolutely, Senator. You come from 
North Carolina, and North Carolina and Texas were some of the 
early pioneers in what became kind of the policy principles of 
No Child Left Behind, making sure that we disaggregate data, 
that we find out how Hispanic kids are doing, how African 
American kids are doing, how poor kids are doing.
    And as you know, in No Child Left Behind, the law requires 
that States establish proficiency standards for students--those 
are state-set--and that all children be required to meet those 
over a trajectory by the 2013-14 school year.
    So, yes, it was factored in. I do think it is important for 
us all to believe that those folks who are coming here to our 
country and doing so legally and are in our schools need to be 
able to have the skills necessary to compete in this workforce 
as well, and a high-quality education is integral to that. So 
absolutely we take that into consideration. In a State like 
Texas, that is something that we have struggled with and 
addressed. I think we know that we have curricula reforms that 
are similar in the Hispanic culture and in alphabetic language 
as we do in reading, so I think we have made some progress in 
reading with Hispanic populations around the country, and I 
think we will continue to do so.
    Senator Burr. I think most around the country see North 
Carolina's community college structure as a model of success, 
with 59 institutions strategically throughout the State, 
vitally important to worker retraining, to really being a 
staple of our State's continued economic growth. How do you see 
the future of community colleges in the mix of the educational 
changes that this country will go through?
    Ms. Spellings. I think they are our first line of providers 
for training and job retraining. I have worked at a community 
college before, providing professional development services, 
ongoing continuing education to various professional groups. 
The President has called for a very creative program where 
companies, public sector institutions like community colleges 
and private sector employers, guarantee employment and 
basically tailor a curriculum for particular individuals to go 
through and complete a course of study and then be employed. We 
are seeing a lot of that in health care around the country. We 
are seeing that in Tennessee, Senator; North Carolina obviously 
is a model for community colleges. The President has visited 
some down there, as I recall.
    But I think they are our front-line providers. I think they 
can be responsive quickly. I think they tailor curricula to 
local employers and to local students. So I believe they are 
our best bet.
    Senator Burr. Once again, a welcome to you and a thank you 
to you and to your family for the commitment to serve.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Welcome back, Senator Kennedy. We appreciate you being 
here.
    Senator Kennedy. Thank you.
    It is nice to see my old friend and colleague Senator 
Hatch. I do not usually see him at the far end of the table. 
[Laughter.]
    Senator Hatch. But you like me there, I am sure.
    Senator Kennedy. Yes. We will keep you right down on that 
end. [Laughter.]
    Thank you, and I have seen in your statement the focus and 
emphasis--Senator Jeffords, you were here during the time; I 
would be glad to yield if you want to go ahead.
    Senator Jeffords. Thank you.
    Senator Enzi, I know you are not officially the chairman 
yet, but I want to congratulate you for what you have done. We 
have worked together closely since we acme into Congress 
together.
    I also want to welcome the new members, particularly 
Senator Hatch; it is good to have him back.
    And now I would like to turn to Ms. Spellings, if I may. As 
you know, since 1965, the year the Federal Government began 
playing a key role in education, there has been a struggle to 
define that role. What is your vision of the Federal role in 
balancing Federal programs with State and local efforts?
    Ms. Spellings. Senator, thank you for that question. I 
tried to speak to some of that in my opening statement. I have 
worked on behalf of local school boards. I have worked 
obviously at a Governor's office and in a State legislature and 
now here. So I do have some appreciation for how those various 
levels fit together, and I think at the Federal level, our job 
is to set key strategic roles, particularly around our neediest 
children--special ed kids, title I kids. That has been the 
longstanding role since the mid-sixties, as you said, of our 
public Federal role. And I think we must be clear about what we 
expect from schools and States about that, and I think we ought 
to align the resources around those goals and expectations. I 
think that No Child Left Behind is a major step forward in 
doing so. I think the new IDEA reauthorization is certainly 
part of that as well. But I think it is to see about, 
irrespective of geography, disability, or economic status, an 
educational opportunity for all children around the country.
    Senator Jeffords. I would like to turn to higher education. 
In your testimony, you mentioned the reauthorizations that will 
come before the committee this year. When can we expect a 
detailed higher education proposal from the Administration? I 
have not seen much activity in that area.
    Ms. Spellings. Senator, the President has called for 
various things around higher education policy, including more 
recognition that there are many nontraditional students, that 
we need to free up the way that we manage financial aid, look 
at technology-based courses and allow financial aid to be used 
for those in a more robust way, allow for year-around financial 
aid, allow for students to be rewarded who take a rigorous 
course of study, and so on.
    Obviously, you all are working on the fine print of the 
various financing systems and loan details. Obviously, the 
President just signed the closing of the 9.5 percent loan 
loophole. But he will be offering as part of his 2006 budget 
some key parameters around a higher ed agenda, and we look 
forward to working with you on that.
    Senator Jeffords. We look forward to seeing your proposals.
    Thank you.
    Ms. Spellings. Thank you.
    The Chairman. Thank you.
    Senator Isakson?
    Senator Isakson. First of all, Mr. Chairman, I am delighted 
to be on your committee and look forward to serving with you 
and Senator Kennedy and the other members, and I am delighted 
to join the chorus--and it obviously is a chorus when you look 
at all the endorsements and hear this morning's statements--of 
Margaret Spellings as the next Secretary of Education. She has 
a distinguished record, and I am delighted to be a part of a 
committee that I am sure will confirm that appointment.
    Before I ask the question that I want to ask, I do want to 
make a couple of comments, if not for anything, for the record. 
Eight-and-a-half years ago, at a time of trouble in my State at 
least in education, I found myself appointed in a rather 
emergency situation as chairman of the State Board of 
Education. And on a Sunday night, I watched ``60 Minutes'' do a 
special on what was called the TASK, the Texas Assessment of 
Students, which was the beginning of student assessment and 
accountability and the reform that then Governor Bush and Ms. 
Spellings put in place in the State of Texas. And I remember 
the great questions and concerns about assessment and 
accountability and the predictions of doom that had made it to 
that broadcast.
    As chairman of the State Board of Education in Georgia that 
was itself having great difficulty, I followed closely and 
began working with the State Department of Education in the 
State of Texas, and I want to commend you and the President, 
because what was predicted in that projection of doom that 
night on that television show actually ended up being the 
reverse, that inner-city minority children, rural poor 
children, nonEnglish-speaking children, began testing at 
remarkable improved rates in terms of their language arts 
ability, their reading ability, and their mathematics ability, 
which became the fundamental foundation of No Child Left 
Behind.
    So we are very fortunate, Mr. Chairman, to have a 
distinguished woman who has been an advisor to a Governor and a 
President, who initiated what I believe is the best reform of 
education this country has ever done and one that the States 
are buying into at a remarkably successful and rapid rate.
    To that brings, I guess, my comment and my question. One of 
my great frustrations in 28 years of elected office is that we 
tend to seem to want to reform education every 6 years, yet it 
takes 13 years for a child to go from kindergarten through the 
12th grade.
    I think your tenure of service in the next 4 years will be 
the essential ingredient or the glue, if you will, that will 
hold us to our commitment of leaving no child behind, giving 
parents more choice, giving the assessment to the teachers and 
the parents, and understanding that we do not have social 
promotion anymore in this country, but we have a country that 
provides opportunity for all.
    So I just want you to elaborate on three words in your 
statement, ``sensible and workable,'' because those three words 
you made about the approach toward seeing no child left behind 
through, I think will be the essence in dealing with the issues 
of assessment, special education as a disaggregated component 
and the effect it has had.
    So would you just for our benefit talk about ``sensible and 
workable'' approach as a Secretary of Education toward those 
challenges?
    Ms. Spellings. I will be glad to, and thank you for asking 
me to do that.
    I think we have learned some things since this act was put 
in place. I think educators have learned some things. I think 
policymakers have learned some things, and I think we ought to 
inform the policy that we have put in place as we go forward. I 
intend to listen to educators on the ground, to look at what 
urban districts are finding, what rural districts are finding, 
and see what we can do administratively, as I said, to embed 
the principles of this act.
    No one is served, not the children and not this policy, 
with horror story type examples that undermine the credibility 
of the law and undermine service to children.
    So I am going to do a lot of listening, and I am going to 
look at ways that we can improve our interactions with States 
and local communities on a whole realm of things, and we are 
not necessarily always going to agree about the calls that come 
down, but I do think we have learned some things in 4 years, 
and we ought to work from there.
    With respect to the Texas record, thank you. I will try not 
to be a Texas braggadocio, but I do think that as this act 
becomes more mature, we are seeing educators buying into this 
and starting to see--and we certainly saw this in Texas--that 
it is working for them, that it is really in their interest to 
know how kids are doing and to figure out that it is in a 
principal's interest to see how is Curriculum A working 
compared to Curriculum B across town. And I think the 
information, the data, and this focus on each and every child 
is critical.
    We talk a lot about special education students and limited 
English students, and it is thrilling for me, let me say, to 
know that we are having these discussions around the 
technicalities of how to put this law into place. Without No 
Child Left Behind, we would not be talking about how those kids 
are doing.
    Senator Isakson. Thank you, ma'am.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kennedy?
    Senator Kennedy. Thank you. Thank you very much.
    Ms. Spellings, we have noted in particular in your opening 
statement about the importance of math and science emphasis, 
and we want to work closely with you. I think if we are going 
to try to deal, both for our national security and defense as 
well as international competition as well as our industry and 
innovativeness and creativity here, this is going to have to be 
an important priority. So we are particularly looking forward 
to working with you.
    I have looked through your comments, and I know you have 
been asked a number of questions. In the area of the funding, 
we have talked about this very extensively, and we see the 
important increases particularly in the 1st year of the 
Administration, some modest reduction, $90 million, in the 1st 
year and $2.2 billion in the second, but then Congress 
responded with some increase.
    I think the best way of finding out about the adequacy is 
going to be you traveling the country and listening and making 
your own assessment, talking to parents, to teachers, and to 
school boards as to whether we are going to make sure that all 
of the children--as you well remember, in that legislation, it 
was going to be that all children by the end of the 12 years 
were going to reach proficiency. And we want to make sure that 
we are giving that opportunity. That is always what the 
President said, and maybe there are other ways that we can do 
it, but we appreciate you recognizing, particularly in the next 
2 years--yearly progress will rise in 35 States this year; for 
the first time, schools will be required to demonstrate a 
higher number of students proficient on State standards, as you 
know. Next year, every State has to have on line tests in 
grades 3 through 8, new science standards, and in nonrural 
areas, a highly-qualified teacher in every classroom, as has 
been mentioned by some of our colleagues and by our chairman, 
the challenge and difficulties. And more schools than ever, 
over 100 in Michigan alone, will be reconstituted and demanding 
the additional resources.
    So this is the reality, and we want to try to make sure 
that we get the job done on it. We will certainly work with 
you. We are mindful of the budget pressures and the rest, but I 
think, as we hear from all of our members, the priorities in 
terms of education--with 2.2 or 3 percent, whatever, of the 
budget on education, I think most parents would feel that of 
whatever taxpayers' dollars that we are spending, education 
probably ought to have a higher priority. We will have to 
wrestle with that, but I know that you are well aware of the 
new kids of demands that we are placing on the schools and also 
the general reduction in terms of title I, to which I referred 
earlier.
    So I welcome the fact that you are going to keep an eye 
out, and we are going to have a chance--I know that with 
Senator Dodd you responded to this, so I do not want to take up 
much time going through it.
    On the areas of higher education and the area of retention 
and graduation rates in postsecondary education, I am 
interested in whether you think colleges ought to be held 
accountable for these gross disparities in retention rates, 
geographically, demographically, and just by groups. In 
particular, we have Federal funding for some of these that are 
going out in scholarships and others, and many universities, 
even some of those that have a higher concentration of sports, 
have exemplary records in terms of graduating their athletes; 
others just do not, and we have an increasing problem in this 
area.
    I do not know if you have some ideas on it, and I know that 
it is not the subject of today's hearing, but have you given 
this some thought?
    Ms. Spellings. I have, Senator, and thank you for asking 
that. K through 12 education, as we talked about, the Federal 
Government provides 8 or 9 percent of the funding, but in 
higher education, we provide nearly \1/3\, including the 
research dollars that we allocate. So we are a major investor 
in higher education in this country and rightfully so.
    I think what we have learned in alot of policy areas, 
including and especially No Child Left Behind, is that when we 
provide information to parents and to policymakers, people can 
act on it, and I think the Department of Education can do a 
better job. Currently, we require lots of data from higher ed 
institutions. It is not necessarily presented in a very usable 
format for either policymakers or for parents to figure out 
what is the best value for me and my kid. I am literally going 
through this with my own child just now, who is graduating from 
high school this year, to figure out is it a better value if my 
kid gets out of ``X'' school in 6 years, or State U in 4, and 
so on and so forth.
    I think parents are confused about it. There are some 
private commercial--U.S. News, Princeton Review, and other 
places--that put out data, but I am not fully confident that we 
really have much truth-in-advertising about what the state of 
the world is with respect to getting out of college.
    Senator Kennedy. We want to work with you on it, because I 
know this is an increasing problem.
    I know my time is up, but if I could just ask one more 
question, Mr. Chairman.
    You have referenced early education. I know that Senator 
Gregg has talked about tying Head Start into the K through 12, 
and we want to be able to achieve that. In terms of early 
education, a number of States are moving ahead in this area. 
You are familiar with Jack Shonkoff's wonderful book, ``Neurons 
to Neighborhoods,'' that brings together all of the National 
Academy of Science's research, and it is even more compelling 
now, about the development of the mind of the child at a very, 
very early time. We understand that the first teacher is the 
parent, and we certainly understand and respect that, but we 
also understand that there are some important opportunities in 
this area. I know that Mrs. Bush has been very interested in 
it. So I would be interested if you want to make a brief 
comment about whether you think we might be able to make some 
progress in this area.
    Ms. Spellings. I do, and I think we must. I do not know if 
you were in the room at the time, but I think if we are going 
to be true to holding Governors and States accountable for 
achieving results at 3rd grade, we certainly need to make sure 
that kids enter school ready to be successful there. I think 
there are multiple programs that Senator Alexander asked me 
about, housed over at the Department of Education, with 
somewhat conflicting goals, and I do think it is an area that 
we can very much improve and work together on.
    Senator Kennedy. I want to thank you. I will submit some 
other questions, but I welcomed having had the chance in the 
past to work with you and talk with you prior to the hearing. 
We have a lot of work to do in this committee and on education, 
and we look forward to it.
    I would just mention--I mentioned this earlier to you--if 
you would be good enough at different times to maybe just come 
up in groups, and we could talk informally as well. I think 
that would be very valuable. We started that with Secretary 
Paige, and in the last year or two, we got off-track on it, but 
it was enormously helpful in terms of helping us to kind of 
reflect on what we are getting back home and having you listen 
to this and help us to try to deal with some of these issues. 
We look forward to following up on that.
    I want to thank you very much, and I thank the chair.
    Ms. Spellings. Thank you, Senator.
    The Chairman. Thank you.
    At this point, you have been questioned by three former 
chairs of the education committee. Now you get a fourth.
    Senator Hatch, welcome back to the committee.
    Senator Hatch. Thank you so much, Senator Enzi, and 
congratulations to you. I expect you to be a great chairman of 
this committee. It is a very important committee.
    And commiseration to Senator Kennedy for having to put up 
with me again after all these years, but I am very appreciative 
to be on this committee because it does so much good for our 
society.
    Ms. Spellings, I welcome you to the committee. I am a 
strong supporter of yours. I know how competent you are and how 
great you are, and I just want you to know that I am sure this 
committee will put you through as quickly as possible so that 
you can get about the work of doing what you should.
    Ms. Spellings. Thank you, Senator.
    Senator Hatch. I would also like to take a moment to thank 
our outgoing Secretary Rod Paige for his service. During his 
tenure, he led the implementation of a lot of major education 
reforms. He showed great commitment in providing our children a 
quality education notwithstanding their circumstances, thereby 
honoring the pledge to leave no child behind. And while so 
doing, Secretary Paige demonstrated willingness to consider 
certain adjustments in an effort to align the implementation of 
the No Child Left Behind Act within the intent of the law. And 
we want to thank him for his service as well. I think he 
deserves our thanks and congratulations.
    I have looked forward to this hearing, and I look forward 
to supporting you not only here in the committee but on the 
floor, as you serve in this very, very important endeavor.
    I would like my full statement to be placed in the record, 
and let me just say that we are grateful to have your family 
with us today, Mary and Grace, who I understand are here today 
with your husband. We are grateful to have all of you here. We 
welcome you.
    Without a doubt, being a mother is the greatest classroom 
in the world--that is where we really need to teach. But I 
attended public schools. All of our children have attended 
public schools, and our grandchildren are attending public 
schools, and I have faith in our Nation's schools.
    During the past 28 hears, I have been an active and strong 
supporter of education, and as you know, education is the 
hallmark of domestic issues. While I believe that our current 
education system ranks among the world's greatest and finest, 
we can still make a lot of improvements. As you know, I have 
been supportive of the No Child Left Behind Act. Even those who 
do not agree with everything in the NCLB agree that they are 
now focused on making sure that every child is progressing and 
many are using innovative approaches in tracking student 
achievement and motivating them to meet the new standards. Of 
course, this does not mean the law is perfect. We need to 
continue to do what is working in the NCLB but also look to see 
what is not.
    As I travel around my own great State of Utah, there is no 
single issue of greater concern to us in Utah than education. 
We spend better than 50 percent of our budget on education in 
Utah, and of course, we have been in the forefront of the 
debate on No Child Left Behind, that particular act, because I 
believe we were the first State to make moves toward possibly 
opting out. I do not want to see us do that. That was due in 
part to concerns about retaining State control and objections 
to Federal mandates without sufficient funding.
    I would just like to ask basically one question, or maybe 
just a couple here. How do you anticipate addressing the 
concerns that have been raised with the No Child Left Behind 
Act, like in my home State of Utah, and would you be willing to 
visit our State of Utah and help address these issues so that 
we can make sure that our State benefits from that bill?
    Ms. Spellings. Absolutely, and I am committed to do that. 
Obviously, this is a theme here. You all have a lot of concern, 
as do I, about how this law is working and being implemented in 
your local communities and in your schools, and absolutely I am 
committed to listen, to obviously stay true to the principles 
that we all agree to of leaving no child behind, of proficiency 
within a period of time, disaggregation of data, regular 
assessment--but none of us wants to tip the boat over, if you 
will, with these horror story types of examples. We in the 
Administration are committed to make this law workable and 
stable, and I look forward to coming to Utah and hearing what 
your folks have to say.
    Senator Hatch. Well, thank you so much. I want you to know 
how much I support you, and I hope that I can be of great help 
to you up here on Capitol Hill.
    Ms. Spellings. Thank you, Senator.
    Senator Hatch. Nice to have you here and your family.
    Ms. Spellings. Thank you.
    [The prepared statement of Senator Hatch follows:]

                       Statement of Senator Hatch

    Thank you for being here today, Ms. Spellings. I have been 
impressed by the President's complete confidence in you and 
your ability to serve our Nation and its most valuable asset, 
our children, as our top educator.
    I would like to take a moment to note outgoing Secretary 
Roderick Paige's service. During his tenure, he led the 
implementation of major education reforms. He showed great 
commitment to providing our children a quality education, 
notwithstanding their circumstances, thereby honoring the 
pledge to leave no child behind. While so doing, Secretary 
Paige demonstrated willingness to consider certain adjustments 
in an effort to align the implementation of the No Child Left 
Behind Act with the intent of the law. We thank him for his 
service.
    Know that I am a strong supporter of education and have 
been pleased to play an active role in every piece of education 
reform legislation that has come before the Congress in the 
past 28 years. I attended public schools, as did my children 
and now my grandchildren, and I have faith in our Nation's 
schools.
    While your credentials and experience are very impressive, 
none is greater than your role as a mother and primary educator 
of your two daughters, Mary and Grace (who are here today with 
your husband, Robert). Without a doubt, the home is the 
greatest classroom.
    We are aware of your background of service in Texas as 
chief education advisor to then-Governor George W. Bush. I have 
been pleased to work with you during the past 4 years in your 
capacity as the Assistant to the President for Domestic Policy.
    As you know, education is the hallmark of domestic issues. 
While I believe our Nation's education system ranks among the 
finest in the world, we can still make improvements. I believe 
funding for schools is very important, and I have consistently 
supported Federal funding to assist our Nation's teachers, 
schools, and students. I will continue to support programs to 
enrich and improve our school system.
    I have been supportive of the No Child Left Behind Act 
(NCLB), signed into law by President Bush on January 8, 2002. 
Even those who don't agree with everything in NCLB agree that 
they are now focused on making sure every child is progressing, 
and they are using innovative approaches to tracking student 
achievement and motivating them to meet the new standards.
    Take Granite School District in Salt Lake City, Utah, for 
example. This is an inner-city school district with a large 
majority of students in low-income, nonEnglish-speaking 
families. Granite used funds from NCLB to purchase a student 
tracking database that shows how each child is doing in each 
subject with every teacher. They know who needs the extra help 
and in what areas. They are enlisting the support of parents, 
teachers, and the community to make sure that these kids get 
the help they need. And they are having great results. Test 
scores are up. Honor roll is up. Parents are more satisfied. 
Students are taking pride in their education. And, that's what 
NCLB is all about.
    But this does not mean the law is perfect. We need to fund 
it better, and too many schools do not make Annual Yearly 
Progress or AYP because they just do not understand what is 
required, or misinterpreted the law. I think it is going to 
take some time to adjust. We need to continue to do what is 
working in NCLB and look at what is not.
    Make no mistake, I am a strong advocate for local control 
of education and want to make sure that there is sufficient 
flexibility for our States. I trust that the Department of 
Education will keep open lines of communication with the States 
and localities as we work together to ensure that truly no 
child is left behind.
    The Chairman. Senator Harkin?
    Senator Harkin. Thank you very much, Mr. Chairman, and 
first of all, let me congratulate you on assuming the 
chairmanship of this great committee. I look forward to working 
with you.
    I welcome our new members and also want to pay my respects 
again to Senator Hatch and our former chairman, Senator Gregg, 
and our ranking member, Senator Kennedy, who has been 
unerringly supportive of all of the matters that come before 
this committee.
    I want to again congratulate you, Ms. Spellings, on your 
selection to be Secretary of Education, and I look forward to 
working with you in that capacity.
    I would just say that for as long as you are going to know 
me in terms of our association in this committee, you will 
think that I am a broken record, because I will continue to say 
over and over and over again: Please do not talk to me about No 
Child Left Behind unless you also talk to me about kids with 
disabilities.
    The one reason I supported No Child Left Behind--I worked 
with you and President Bush and others on this committee at 
that time--was because of my long history working on issues 
pertaining to disability rights in this country.
    We know the long, sad history of what has happened to kids 
with disabilities in our educational system--the segregation, 
the denial of any kind of support, the shunning off into State 
schools for this and for that, the lack of any real involvement 
with kids with disabilities in education.
    Well, we have come a long way, we truly have, in a 
bipartisan--not one party or the other--but we have come a long 
way. The one thing that appealed to me about No Child Left 
Behind was that if we really mean it, this was our opportunity 
to put the force and power of our entire country behind finally 
making sure that kids with disabilities get their rightful 
place in our public education in this country.
    So you mentioned--I was not here for your opening 
statement, and I apologize; we all have other committees that 
we are paying attention to this morning--but I read your 
statement, and you mentioned disability in your statement, 
about not discriminating and about making sure that they are 
part of No Child Left Behind. But if we are going to do that--
and believe me, I have followed this now--you mentioned about 3 
years coming up now--I have followed this, and there is a great 
deal of apprehension on the part of parents of kids with 
disabilities in our communities that what is happening is that 
kids with disabilities are not getting the same kind of 
residual support so that they fit into the rubric or under the 
umbrella of No Child Left Behind as nondisabled kids.
    Now, here is what I mean by that. In order for a kid with a 
disability to have a quality education and to not be left 
behind, certain things have to pertain to that child. There 
have to be better assessments. We have to assess these kids.
    Ms. Spellings. Absolutely.
    Senator Harkin. I do not think we are doing a good enough 
job of that right now, and that means that a kid with a 
disability gets put in one direction that that kid should not 
be in because they did not get a good up-front assessment and 
periodic reassessments.
    The second thing is accommodations and making sure that 
kids with disabilities have the kinds of accommodations that 
they need in the classroom and in the school so that they too 
can progress; supplemental services that kids with disabilities 
need. If we are going to have remedial programs for schools and 
kids that are not meeting the AYP, what about the kids with 
disabilities? They are going to need supplemental services, 
too, whether it is tutoring or after school programs or 
whatever it is. But that is not really thought about. It may be 
thought about, but I am not sure it is being pushed very hard, 
and I think there is probably one reason for it.
    A lot of us say that money is not all the answer in 
education, and we know that. But when it comes to kids with 
disabilities, it is a big part of the answer. It costs money. 
You know as well as I do that an up-front investment in early 
childhood, first of all, in intervention services when a child 
is born with a disability, early childhood intervention 
services, early educational help for a child with a disability 
will save us billions later on. We know that--aside from the 
quality of life that that individual will have when he or she 
grows to adulthood.
    The IEP teams that are mandated in IDEA for kids with 
disabilities--how do we get them educated on assessments and 
supplemental services and accommodations so that they know how 
to fashion an IEP for a kid? To me, that is missing when we 
talk about No Child Left Behind.
    So again I mention these because there is a big universe 
out there in education. We talk about higher education, and we 
talk about other things, and we are all involved and all that. 
But I have one laser beam, and that is what I am going to focus 
on, so I will be a broken record on it time and time again. 
Whether you come here or whomever you send up or when we are 
talking about the legislation, if we are going to continue with 
No Child Left Behind--and I supported it because of this--we 
had better make sure that IDEA fits in and meshes with No Child 
Left Behind, that all the things we talk about for a kid 
without a disability, we had better be talking about it with 
kids with disabilities. And bottom line--how do we pay for it? 
Our school boards out there in Iowa--and I am sure in other 
States that I visited--are ready to tear their hair out, 
because if they are really going to meet this requirement, it 
is going to cost money, resources, especially for kids with 
disabilities. And I do not believe--this is just my own 
philosophy--I do not believe that we as a nation should simply 
dump upon a local school district the requirement that they 
have to come up with every penny--something, yes, but not every 
penny--to ensure that a child with a disability in that school 
district gets all of the help and support that they need to 
make No Child Left Behind work. This ought to be a national 
commitment that we have.
    So, Ms. Spellings, I look forward to your thoughts on that, 
on how we can improve the assessments. Again, a lot of these 
kids do not do well on tests. They do not have the capability, 
they do not have the knowledge. They have not been given the 
early childhood support that we know is so necessary. So that 
some kids enter school a little bit behind, but kids with 
disabilities more often than not are way behind.
    So in all those areas of accommodations, assessments, 
supplemental services, the IEP teams, meshing IDEA with No 
Child Left Behind and resources, again, your thoughts on that 
and how you view making sure that we do not leave children with 
disabilities behind.
    Ms. Spellings. Senator, thank you very much.
    I too share your concern for these kids, and I think that 
while we obviously do not want school boards pulling their hair 
out, I do think some of that hair-pulling is for the first time 
focusing on these kids. We do have a way to go with them, and 
particularly with respect to measurement systems. And you are 
right, the Federal Government ought to foster some of these 
best practices, and we should learn from them. But we are in 
the early, early stages of figuring out how best to do this 
with some of these kids, and there are some leaders--Kentucky, 
Massachusetts, Kansas are starting to pioneer some of this 
early assessment so that we can provide those opportunities for 
these kids--but I have to say that without No Child Left 
Behind, I am not 100 percent sure that that would be going on.
    So I think we are making progress. You all obviously took a 
very big step when you just reauthorized IDEA and aligned it 
very closely with the principles of No Child Left Behind. There 
is a quick deadline on the rulemaking provisions that are 
there, and I am going to work hard to meet those so that we can 
be clear with our guidance and do it in a timely way so that we 
can at least have sound and clear and consistent guidance 
across our education system.
    I do think IEP teams need to know more about what resources 
are available, what options are available, and what the State 
of the art is, if you will, with respect to curriculum and 
assessment. And I think we have a lot of work to do, and I 
pledge to work with you on that. I know this is a bipartisan 
issue, absolutely, as you said, and we are in the early stages 
on some of this stuff, but at least we are in the stages on 
some of this stuff, and without No Child Left Behind, I am not 
sure we would be.
    Senator Harkin. I appreciate that.
    Thank you very much, Ms. Spellings.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    It is an honor to serve with you on this committee, and 
congratulations on your chairmanship. There is no one in the 
Senate I admire more, who works harder, who understands the 
real role out there in the States where teachers and schools 
are operating. You have great decency and commitment to 
America, so it is a pleasure to serve with you.
    Ms. Spellings, congratulations on your nomination. I have 
talked with you at some length, and I know how excited you are 
about this challenge. You are just itching to get it, and I 
think you are going to do a great job.
    I would like to just discuss one issue or focus on one 
thought that I have. I taught 1 year. My wife taught a number 
of years in public schools. The teacher's job is more difficult 
than people realize. If children come to school who have not 
been encouraged at home, if they have stayed up all night 
watching some movie on TV and sleep through class, no matter 
how decent and determined that teacher is, it is hard to reach 
those children. So we have some difficult challenges out there 
in education, and I would first like to say let us not blame 
the teachers too much. They have a difficult challenge.
    Second, as part of that, Alabama has developed what we 
refer to as the Reading Initiative. Other States have a similar 
reading initiative in which a host of studies of reading that 
have been done that are authoritative have been analyzed, and 
the principles that came out of those studies that are 
demonstrated scientifically to improve a child's ability to 
read have been put in this program. I have traveled my State 
and talked to a lot of teachers who are using this new 
technique throughout their schools, and the first thing I would 
say is they all like it in every school that I have been in. 
They have not resisted. They are sold on it, and they are 
telling me that children learn to read better.
    Now, it is my observation that you can build new schools, 
you can at a certain point reduce classroom size, you can raise 
teacher pay, you can have more activities in the school, but I 
am not sure that learning is certain to go up. Sometimes it 
does, sometimes there is no increase in learning.
    But from what I can understand with this initiative, 
reading scores go up. It takes several weeks of training for 
the teachers, maybe some new textbooks, and that is about it as 
far as cost. As the children go through 12 years of a system 
that is based on that, we hope there will be even bigger 
numbers.
    The State is also working on a scientifically-based program 
to teach science called the Science Initiative.
    It seems to me that one thing that the Department of 
Education could do is to study these programs and make sure 
that some person who just got elected to the school board in 
Alabama or Texas or wherever has access readily to programs 
that work so they can ask their principals and superintendents 
why aren't we doing this, and the examination of these programs 
show progress or lack of it.
    I guess what I am saying is that to me, that would be the 
number one, foremost role of the Department of Education, is to 
examine programs around the country to see which ones are 
working and make sure that information is getting down to the 
schools.
    What are your thoughts on that?
    Ms. Spellings. I could not agree more with you, and that is 
why we have quadrupled funding for the Reading First 
Initiative, which was based on the work the science, the brain 
research that came out of the National Institute of Child 
Health and Development.
    When I talked about the role of the Federal Government, 
this is absolutely it. We have a strong and rich research base 
that informs these reading practices. I think there are two 
effective things in educating kids--a great curriculum that 
works and a great teacher--and I think we have frankly avoided 
some of this curriculum or left it unattended for too long. I 
think we are starting to make some good progress in reading. We 
are going to have the NAEP reading test next year, and I am 
confident that we are going to see some gains because of these 
investments, because of the teacher training, and most 
important, because of the research base that these things are 
built on.
    I think we need to do the same thing for math and science 
and some of these other areas, as you said. That is an 
appropriate role for the Department, for the National Institute 
of Education Science. So I look forward to looking into those 
things and to fostering these best practices around the 
country, because we do not need to have every teacher trying to 
reinvent it every day, when the cure for cancer, if you will, 
is available and on the shelf.
    So thank you.
    Senator Sessions. I thank you for that, and I think you 
should be relentlessly looking for techniques in teaching and 
education that help students learn better. I believe we can do 
a better job of that.
    I would just close with this. You mentioned curriculum. 
There is a small town in Alabama near the Mississippi line, 
Winfield, a wonderful community, but it has no particular 
industry or special universities or anything. Their test scores 
are at the top of the State of Alabama every year. I visited 
there and I asked the superintendent, who had been there for 
many, many years--actually, I ended up talking to one of his 
new principals, and I asked, ``Why? How are you able to do 
this?'' He said the superintendent meets every morning with his 
principals, and we discuss curriculum, what we are teaching and 
how we are teaching it.
    So I hope that you will focus on that. You and I have 
talked about it. I think you have a grasp of that important 
issue.
    Mr. Chairman, I thank you. I believe we have a nominee who 
has had great experience in education from the inside as well 
as a perspective from the outside, and mostly, a real desire 
and commitment to get about this job. I am excited for you.
    Ms. Spellings. Thank you, Senator.
    The Chairman. Thank you.
    I would now ask unanimous consent that members be allowed 
to submit statements for the record and that the record would 
stay open for questions that can be submitted and answered. Is 
there any objection?
    [No response.]
    The Chairman. Without objection.
    Senator Kennedy and I have been discussing how it would be 
possible to have a vote to get this out of committee. We have 
reserved the President's Room for 12:15 today. At 12:30, we 
begin the opening of the electoral ballots, so that would be 
the time when people would be congregating over in the chambers 
to go on over for the opening of the electoral votes. So I 
would ask everyone to go to the President's Room at 12:15--let 
us make it 12:20, just to give everybody a little more time--
and if everybody will show up at 12:20, we can have a quick 
vote on it, subject of course to the questions being answered, 
and that way, on the day of the Inauguration, we can have the 
floor vote on this nomination.
    I want to thank Ms. Spellings for her attendance here today 
and her outstanding job of answering questions. That is as much 
enthusiasm and knowledge as I have seen displayed at any 
hearing for a nominee that I have ever attended. I do look 
forward to working with you and my colleagues here to make 
education in America even stronger.
    Ms. Spellings. Thank you, Senator. I appreciate it.
    The Chairman. With that, this meeting is adjourned.
    We will be convening at 12:20.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                     Statement of Senator Mikulski

    Welcome, Ms. Spellings. You have an impressive record 
working to improve education in this country and I respect your 
reputation as a reformer and someone who believes in 
accountability. I agree that each and every child has the 
skills and qualities necessary to realize the American Dream. 
Our schools must keep their promise to all our children. It is 
our responsibility to help both those children and the schools 
to make sure they have the resources they need to succeed.
    I'm a former social worker so I strongly believe in giving 
people the tools they need to practice self-help. To do that, 
every child must have access to the opportunity ladder, and the 
most important rung on that ladder is education. We must make 
sure we have a public school system that works. That means 
focusing on achievement and accountability. But to do that, 
schools need resources from the Federal Government.
    For higher education, community colleges are the gateway to 
the future both for first time students looking for an 
affordable college education and for mid-career students 
looking to get ahead in the workplace. Their low cost, 
convenient location, and open door admissions policy have made 
them the key to the American dream for so many. As college 
tuition at 4-year colleges continues to rise, more and more 
students are turning to community colleges for the education 
they need to prepare for 21st century jobs from nurses to 
computer techies, and even lab techs for new industries, like 
biotechnology.
    Yet soon we may not be able to count on our community 
colleges being available to everyone. They're growing faster 
than 4-year colleges. Enrollment at Maryland's community 
colleges is expected to grow 30 percent in the next 10 years, 
while 4-year colleges will grow by 15 percent. The combination 
of budget cuts and increased enrollments is forcing community 
colleges to make tough choices between raising tuition and 
turning students away. Now, more than ever, it's important to 
invest not only in our public schools but in our community 
colleges so they can continue to be affordable and accessible.
    I think you are a good choice for our next Secretary of 
Education and I look forward to working with you on these 
issues and many others so that each American receives the 
education they deserve.

      Response to Questions of Senator Enzi by Margaret Spellings

    Question 1. Federal education policy has often focused on the needs 
of urban, high-poverty schools. Accordingly, rural educators are placed 
in the difficult position of having to implement Federal requirements 
that were not designed to meet their needs. How will you ensure that 
the needs of rural educators are met?
    Answer 1. I am committed to ensuring that every child, whether in 
an urban or rural school, receives a high-quality education, and I look 
forward to working with you to ensure that rural schools have the tools 
they need to ensure that this goal is met. In April 2003, the 
Department of Education (ED) established the Rural Education Task 
Force. The Task Force coordinates the efforts within the entire 
department concerning rural education's needs and issues. Examples of 
ED's efforts to respond to rural educators concerns were demonstrated 
with the additional flexibility granted to small and rural schools in 
the areas of Highly Qualified Teachers, English as a Second Language 
students, and allowing a smaller sample size.
    Furthermore, outreach to rural educators will increase with the 
recent establishment within the Office of Vocational and Adult 
Education (OVAE) of the Center on Rural Education. The Center will 
bring attention to the challenges and issues that face rural schools, 
while also examining what role community colleges can play in meeting 
the needs of high school students and working adults. Also, the 
National Research and Development Center on Rural Education was 
recently established at the University of North Carolina under a 10 
million dollar 5-year grant from ED.

    Question 2. The President's budget for the past several years has 
requested additional funding to help offset costs incurred by the 
Federal direct loan program. When the program was established it was 
expected to have significant savings over the course of several years. 
It is my understanding that these savings have never materialized. To 
date, what savings has the Federal direct loan program generated on a 
cash flow basis?
    Answer 2. A preliminary analysis of the Department's cash records 
shows that, since its inception in 1994 through 2004, the Federal 
Direct Loan Program has net cash inflows of $2.3 billion on loan 
disbursements of almost $146 billion. This net cash inflow is the sum 
of almost $70 billion in net operating cash outflows and $72 billion in 
Treasury financing inflow activity. The table below shows the cash 
flows. These cash flows are not the same as subsidy estimates under the 
Credit Reform Act. Costs and savings of Federal loan programs are 
usually calculated on a net present value basis that look at the life-
time cash flows of the loans made in any 1 year.

------------------------------------------------------------------------
                                                            Total Cash
                                                            Activity in
                                                             Millions
------------------------------------------------------------------------
Loan Disbursements to Borrowers.........................        $145,605
Borrower Interest Payments..............................        (11,462)
Borrower Principal Payments.............................        (60,394)
Borrower Origination Fees...............................         (3,262)
Net Default Collections.................................         (1,060)
Contract Collection Costs...............................             285
Payment of Origination Services.........................             180

Net Operating Cash Flows, Direct Loans..................          69,892

Loan Capital Borrowings from Treasury...................       (150,139)
Net Interest Payments to Treasury.......................          27,480
Principal Payments to Treasury..........................          50,503

Net Treasury Activity...................................        (72,156)
Net Cash Flows, Direct Loans............................         (2,264)
------------------------------------------------------------------------


    Question 3. The National Native American, Alaskan and Hawaiian 
Educational Development Center in Sheridan is one of a number of 
programs receiving funds through the Fund for the Improvement of 
Education. As you know, this program has had remarkable success in 
improving student achievement, and recently, that Center has begun an 
effort to expand its training programs to reach more communities. 
Please comment on the quality and the operation of the program and any 
changes that could be made to improve the program and its expansion 
efforts.
    Answer 3. The St. Labre Native American Professional Development 
Center in Sheridan, Wyoming, was awarded a 1-year fiscal year 2004 
earmark grant under the Fund for the Improvement of Education in the 
amount of $497,050. The Center was awarded the grant to ``expand a 
program to train teachers serving Native American students in an early 
literacy learning and math framework.'' In fiscal year 2005, the 
National Native American Professional Development Center Foundation in 
Sheridan, Wyoming, was awarded a second earmark grant for $100,000 for 
similar activities. Working in partnership with the Center to gain a 
greater understanding of the overall work of the Center, the Department 
hopes to ensure this program carries out the work of No Child Left 
Behind by providing accountability for results, research-based 
instruction, and increased flexibility for schools. I look forward to 
working with you to make projects like this deliver results and improve 
student outcomes.

    Question 4. Technology and distance learning are important tools 
for helping schools to meet the goals and requirements of No Child Left 
Behind. How do you envision the Department of Education helping schools 
to adopt effective technologies for the instruction, testing, 
accountability, supplemental services, and other areas to improve and 
facilitate student achievement?
    Answer 4. The Department of Education is helping schools by 
providing a framework for improving student achievement by focusing on 
technologies for instruction, assessment, accountability, supplemental 
services and other areas to empower a transformation in education. 
Recently, the Department's Office of Educational Technology published 
the National Educational Technology Plan 2004, titled, Toward A New 
Golden Age in American Education: How the Internet, the Law and Today's 
Students Are Revolutionizing Expectations. This national long-range 
technology plan is based on a nationwide assessment of the continuing 
and future needs of the Nation's schools in effectively using 
technology to improve student learning. The plan outlines seven key 
areas for action: (1) Strengthen leadership; (2) Consider innovative 
budgeting; (3) Improve teacher training; (4) Support e-learning and 
virtual schools; (5) Encourage broadband access; (6) Move toward 
digital content; and (7) Integrate data systems.
    The Department of Education's Office of Educational Technology is 
conducting the Nation's first annual survey tracking online learning 
trends in K-12 schools. The survey will help to identify the number of 
students enrolled in online courses, the grades and subjects in which 
online learning is being offered, what technologies are used, and what 
type of institution provides the courses. The Department is also 
working with States, districts and e-learning providers to help 
accommodate e-learning opportunities in their policies and regulations. 
We will continue to explore ways the Federal Government can assist 
schools--especially in rural areas--improve education through 
technological breakthroughs in embedded assessments, curriculum 
delivery, and data management.
    In addition, the Department has created the Teacher-to-Teacher 
Initiative to give teachers clear information about NCLB, high-quality 
professional development, and access to the latest research through e-
learning courses on the web. I will continue to support these 
initiatives.

    Question 5. Studies have shown that afterschool programs provide 
lasting, positive effects for our Nation's children and our society. 
The advancement of such programs is most effective when government 
partners with the private sector. For example, the JCPenney Afterschool 
is a longstanding example of such a public/private partnership. Please 
comment on what the Department of Education has done to promote these 
programs and what do you believe can be done by the Department to 
foster more partnerships between public and private entities like 
these?
    Answer 5. Central to the success of the 21st Century Community 
Learning Centers program is an unprecedented public/private partnership 
between the U.S. Department of Education (ED) and the Charles Stewart 
Mott Foundation (Mott Foundation). The ED-Mott Foundation partnership 
was founded on two related concerns: that unsupervised children will 
have better outcomes if provided meaningful learning experiences in the 
afternoon hours, and that communities get no value out of an empty 
school building. By creating an extended multiyear agenda addressing 
both organizations' primary concerns, the partnership has provided 
thousands of children with quality afterschool opportunities. I am 
committed to continuing this partnership.
    National organizations also have had a role in the ongoing 
operation of the partnership agreement. The National Governors' 
Association, the National Council of State Legislators, the National 
League of Cities, the Council of Chief State School Officers, and the 
National Association of Elementary School Principals are working toward 
expanding afterschool programming through the 21st Century authority 
and State and local funding streams.
      Response to Questions of Senator Hatch by Margaret Spellings

    Question 1. As I travel around the great State of Utah, there is no 
single issue area of greater concern than education. As you know, Utah 
has been in the forefront of the debate on the No Child Left Behind Act 
and was the first State to make moves toward possibly opting out, due 
in part to concerns about retaining State control and objections to 
Federal mandates without sufficient funding. Ms. Spellings, how do you 
anticipate addressing concerns States have with No Child Left Behind 
and would you be willing to visit Utah and meet with educators and 
legislators?
    Answer 1. Over the coming months I look forward to speaking with 
educators, legislators, and all other interested parties, both in Utah 
and the other 49 States, about their concerns with NCLB. I will be 
happy to work with States and local school districts to make NCLB work 
on the ground, within the parameters of the law. And as I indicated at 
the hearing last week, I look forward to a future visit to Utah to 
begin this important conversation.

    Question 2. An important principle that we must take great care to 
safeguard is that of federalism, that is, that the Federal Government 
must only legislate where there is a compelling national interest and 
allow the States to govern for themselves. That being said, what is 
your personal philosophy with regard to federalism and the funding of 
education?
    Answer 2. The education of our Nation's children is unquestionably 
a State and local responsibility. The Federal Government plays, and 
must only play, a supporting role in this endeavor, especially in 
helping disadvantaged and low-income students receive a quality 
education. However, it is appropriate for the Federal Government to 
demand high expectations and results from our Nation's schools in 
exchange for the investment of Federal dollars. In return, the Federal 
Government can and should assist States in the funding of their State 
and local systems to ensure that no child is left behind. Federal 
resources can and should be used to assist States and local schools in 
educating children who are disadvantaged, and to assist them in meeting 
their Constitutional obligations to educate children with disabilities.

    Question 3. I would like to call to your attention another matter 
involving the calculation of title I and efforts to prevent using 
recent child poverty data from being used. If the 10-year census, 
rather than the annual method is used, there will be an unfair 
distribution of title I funds, and Utah is listed as the ninth most 
affected State. For example, in fiscal year 2004, Utah would have lost 
nearly $2.5 million of title I funds. I have been a long-time advocate 
for equity, and most recently joined some of my colleagues in letters 
to the Department of Education and this committee stressing the 
importance of using the annual data to ensure that title I funding be 
distributed to school districts with the greatest number of poor 
children. Are you aware of this aspect of title I funding and what do 
you think can be done to ensure it is fairly addressed?
    Answer 3. It is critically important that title I resources go to 
schools with the highest needs in terms of educating low-income 
students. The law clearly requires the use of annually updated LEA 
poverty estimates in allocating title I funds. The Administration has 
consistently followed the law and will continue to do so. It is 
entirely appropriate for Federal dollars to follow the neediest 
students.

    Question 4. It is my understanding that of the 10 States that have 
received their highly qualified teacher (HQT) monitoring visits from 
the Department of Education, so far four of them, including Utah, have 
been informed verbally that their elementary teacher definition of 
highly qualified is not in compliance with the No Child Left Behind 
Act. That would mean that the vast majority of elementary teachers are 
being told that they are no longer highly qualified. What kind of 
technical assistance did the Department of Education provide to States 
prior to submitting their HQT plans? Now that teachers are only a year 
away from having to be highly qualified, what process do States have to 
appeal the Department's findings that their definition is not in 
compliance? What is the purpose of State licensing or credentialing or 
even putting together an HQT plan if the Department of Education is not 
going to give States flexibility in determining whether teachers are 
highly qualified?
    Answer 4. The Department has worked diligently, through 
distribution of three versions of nonregulatory guidance, tool kits for 
States and teachers explaining the highly qualified teacher 
requirements, and conversations with State officials in all 50 States 
through the Teacher Assistance Corps, to ensure that State and local 
officials and teachers understand the highly qualified teacher 
requirements of NCLB. In each communication, the Department emphasized 
that the No Child Left Behind Act (NCLB) defines a ``highly qualified 
elementary school teacher'' who is new to the profession as one who 
holds at least a bachelor's degree, full State certification or 
licensure as defined by each State, and has demonstrated subject 
knowledge and teaching skills by passing a rigorous State test. Veteran 
teachers, who are the majority of teachers within States, have the 
option to demonstrate subject matter competency through the high 
objective uniform State standard of evaluation (HOUSSE). Each State has 
the responsibility to ensure they have the procedures and systems in 
place to allow teachers to meet the requirements. States such as 
Montana have chosen not to offer their veteran teachers a HOUSSE and 
other States have chosen not to offer teachers tests of subject 
knowledge and teaching skills. The Department will continue to work 
with States to ensure this law works and that includes a highly 
qualified teacher in every classroom.

    Question 5. Ms. Spellings, we've often heard complaints about the 
lack of Special Education funding to the States. I think I've heard 
that under this Administration there have been record amounts of 
funding requested, and that in the past 4 years, Utah alone has 
received 60 percent more funding. Is that right?
    While this is commendable, special education funding falls short of 
the 40 percent Federal commitment and is still less than 20 percent. 
This issue is extremely important. Parents and teachers talk to me all 
the time about deficiencies in the level of funding, particularly when 
the law says full funding. I recognize that there are competing 
budgetary priorities, but this is important to me and to families. Do 
you anticipate that the Administration will support efforts to put 
special education on the pathway to full funding?
    Answer 5. Yes, this President has requested four record-level 
increases of $1 billion per year since 2001 for the Special Education 
Grants to States program and Congress has enacted increases that 
represent 73 percent more funding (or $41 million more) for Utah since 
the President entered office. I expect the Administration to continue 
to support increased funding for special education, while taking into 
account and appropriately addressing other important education 
priorities.

    Question 6. And on the subject of special education, there have 
been valid concerns raised that the Individuals with Disabilities in 
Education Act (IDEA) conflicts with No Child Left Behind, in principle 
and application, and States are unable to comply with both. What are 
your thoughts on separating IDEA from NCLB?
    Answer 6. NCLB and IDEA work hand in hand. The recent 
reauthorization of IDEA recognized this and took steps to align the two 
acts. Both are based on four basic principles: stronger accountability 
for results; increased flexibility and local control; expanded options 
for parents; and an emphasis on teaching methods that have been proven 
to work. The IDEA focuses on providing the necessary special education 
services and supports at the individual level, while NCLB holds schools 
and States accountable for the learning of all students at the systemic 
level.
    Rather than separating the IDEA from NCLB, Congress made the wise 
decision to align State programs for students with disabilities under 
the IDEA with the accountability requirements of NCLB. Advocates for 
children with disabilities and their families widely support alignment 
because, for the first time, schools are now thinking about children 
with disabilities as part of their overall learning programs, rather 
than separating disabled children from the regular educational 
programs. This is a strong step forward to fully integrating all 
children in their schools and communities.
    Both NCLB and the newly reauthorized IDEA emphasize the academic 
achievement of students with disabilities and ensure that special 
education teachers are highly qualified so that students with 
disabilities have the same opportunities to reach their potential as 
their nondisabled peers. This can only happen if we hold schools and 
States accountable and provide them with the resources they need.

    Question 7. Are you familiar with the Department of Education's 
eLanguage Learning System or ELLS? While it seems to me that Chinese 
students learning English is a very worthy goal, it is a market that is 
already well-served by the private sector, in particular by American 
companies. Ms. Spellings, what is your view on the Department of 
Education using taxpayer dollars to compete with our own private sector 
when Congress has made it fairly clear that it does not support the 
ELLS program?
    Answer 7. The U.S.-China E-Language Learning System Project (ELLS) 
is designed to determine the effectiveness of an Internet-based program 
of second-language instruction for middle-school students through the 
use of animation, gaming techniques and voice recognition.
    This project is a research-and-development effort that was never 
intended to compete with the private sector. Consistent with the 
sentiment expressed by the Senate, the Department of Education will not 
expend any fiscal year 2005 funds on this project.
     Response to Questions of Senator Roberts by Margaret Spellings
    Question 1. We all recognize that ensuring success in college does 
not begin in college; the earlier support and guidance are provided to 
students, the more likely students are to successfully complete 
college. Can you tell me if you view programs, such as TRIO, as 
important to providing this early academic support and guidance to 
middle school and high school students, and how these programs can be 
strengthened to serve more students?
    Answer 1. President Bush is very concerned about our Nation's high 
school students, which is why he proposed a new High School 
Intervention Initiative that will prepare our high school students for 
the future. His education proposals would help ensure that every high 
school student graduates with the skills needed to succeed in 
postsecondary education and in a globally competitive workforce. 
President Bush believes that States should have more flexibility to use 
funds to best meet the needs of their students, as long as they are 
also ensuring results.

    Question 2. How do you view the Department of Education, including 
the Office of Special Education and Rehabilitative Services (OSERS) and 
the Rehabilitation Services Administration (RSA), working with the 
Department of Labor to assure that individuals with disabilities can 
get the services and supports they need to engage in competitive 
employment?
    Answer 2. The President's New Freedom Initiative sets employment as 
one of its primary objectives and demands interagency collaboration to 
achieve those objectives. The employment of capable, qualified people 
with disabilities is aligned with business interests as well as the 
President's initiatives that the Department of Labor has responsibility 
for: High-growth Job Initiative and measures to speed economic 
recovery. The activities of the Rehabilitation Services Administration 
(RSA) can be better integrated with the Department of Labor's One-stop 
system at the local level to respond quickly to immediate and future 
employer needs. I support doing so.

    Question 3. What steps or initiatives should the Department of 
Education support to help employers overcome concerns or misconceptions 
to promote an increase in employment for persons with disabilities?
    Answer 3. We need to actively engage the private sector as critical 
partners. Under my leadership, the Department's Rehabilitation Services 
Administration (RSA) will improve its accountability and focus 
investments in proven models to address employer concerns and 
misconceptions. I plan to build the capacity of State and Federal 
vocational rehabilitation programs to network and work directly with 
employers to assist them in ways that are most helpful as identified 
through research: making accommodations, applying for tax credits, 
providing appropriate training and on-the-job support. We must also 
ensure that State and local training providers are held accountable for 
effective training of all those looking for employment--including 
people with disabilities.

    Question 4. Would you consider reviewing and revising the 
Rehabilitation Act to allow businesses, that have as their mission the 
employment of individuals with disabilities, to be eligible for 
Vocational Rehabilitation referrals if they do not carry a sub-minimum 
wage certificate, provide health and retirement benefits to their 
employees, and employ some disabled individuals in supervisory 
positions?
    Answer 4. As a Federal Agency leading employment research, training 
and job placement of people with disabilities in the country, the 
Department of Education must maintain the highest expectations for 
people with disabilities. My goal is to help people with disabilities 
attain their full employment potential in integrated settings. I am 
open to consider reviewing and revising policies to promote the full 
integration and employment of people with disabilities, particularly in 
small business environments.

     Response to Questions of Senator Kennedy by Margaret Spellings
                        k-12 education and nclb

    Question 1. What will you do to ensure the DC voucher program is 
appropriately and fairly assessed for its effectiveness? Will the 
Department of Education issue any monitoring report about the 
effectiveness of the DC voucher program? What information can the 
committee expect to receive about this pilot program?
    Answer 1. Pursuant to Congress's call for an independent evaluation 
of the program, the Institute for Education Sciences has contracted the 
evaluation of this program with WestEd and Georgetown University. The 
evaluators are required, by law, to offer Congress annual reports of 
the program's progress. The first such report is due in the next few 
weeks.
    The Department is working scrupulously to ensure that the 
evaluation of the DC School Choice Incentive Program is conducted 
rigorously and in accord with the highest standards of research design. 
The independent evaluation will rigorously examine the following 
issues, as stipulated in the statute:

    <bullet> The academic achievement of scholarship students (compared 
to that of students who remain in DC public schools, including those 
who apply for scholarships but do not receive them);
    <bullet> The retention, dropout, and college admissions rates of 
participating students (again in comparison with other DC students);
    <bullet> The success of the program in expanding educational 
options for parents;
    <bullet> The reasons why parents choose to have their children 
participate in the program;
    <bullet> The impact of the program on students and public schools 
in the District; and
    <bullet> The safety of the schools attended by scholarship 
students, compared to other schools.

    As required by the law creating the DC choice program, I will 
submit to Congress annual interim reports on the progress and 
preliminary results of the program's evaluation, as well as a final 
report on the evaluation's results. Also, I will annually submit to 
Congress a report detailing the findings of reports submitted to the 
Department by the program administrator (the Washington Scholarship 
Fund). In its reports to the Department, the program administrator is 
required by statute to describe in detail the activities carried out 
with funds under the program as well as the achievement of the program 
including the following: the academic achievement of students 
participating in the program; the graduation and college admission 
rates of students who participate in the program, where appropriate; 
and parental satisfaction with the program.

    Question 2. It has become recently evident that the unintended 
implications of No Child Left Behind have included unwanted cutbacks of 
music, history, the humanities, and other subjects. What are your views 
on this trend? Do you support the role of arts in education and its 
utility in helping close the achievement gap? As Secretary of 
Education, what do you plan to do to correct this problem of narrowing 
these critical subjects from the school curriculum?
    Answer 2. As NCLB is implemented, news reports have offered stories 
that this reform is eliminating arts, PE, social studies, and other 
enrichment activities. The Department does not advocate these responses 
and is providing technical assistance to districts and schools to keep 
well-rounded curriculum options. The critical mission of schools 
remains of ensuring that students can read and write and add and 
subtract, but this can be done in a way that does not eliminate other 
subjects from the curriculum. Many schools are continuing to integrate 
all subjects into their school day, and the Department will continue to 
highlight best practices to ensure that schools do not eliminate 
subjects.

    Question 3. Targeting extra academic help and support to children 
in low-performing schools is key to closing the achievement gap. No 
Child Left Behind requires schools that have failed adequate yearly 
progress for 3 or more years to offer supplemental education services 
to their students.
    The No Child Left Behind Act expressly requires compliance with 
civil rights laws for all supplemental service providers, thereby 
prohibiting discrimination in services. However, the Department's 
guidance of August 2003 on this issue does not require that all 
supplemental service providers serve children with disabilities or 
limited English proficient students.
    Given that students with disabilities and limited English 
proficient students are often most in need of extra attention and help, 
how do you reconcile this discrepancy in the implementation of the law? 
What will you do in your tenure to ensure that such students receive 
equitable services from supplemental service providers and are not 
discriminated against?
    Answer 3. The current guidance makes clear that all States and 
districts must ensure that eligible students with disabilities and 
students covered under section 504 are able to participate in 
supplemental services, and providers may not discriminate against such 
students. Additionally, States and districts must ensure that eligible 
students with limited English proficiency receive supplemental services 
and language assistance in the provision of such services.
    States are working hard to approve a range of high-quality 
providers who can serve special populations of students; each month, 
the number of providers approved around the country increases. However, 
in some communities, there may not be private providers that have the 
necessary skills and resources to provide a quality program to students 
with disabilities and students with limited English proficiency. In 
these instances, the school district is charged with providing services 
to these students, and the district must make every effort to ensure 
that its services are of high quality and meet the provider standards 
set by the State. This ensures that students are not discriminated 
against in the provision of supplemental services.
    The Department will continue to offer resources and encouragement 
to States to help them approve providers who can serve all populations 
of students. Additionally, we will highlight those providers who can 
serve special populations, as a model of what providers can do, and 
provide outreach to organizations that are not currently providers, but 
would be especially well suited to provide supplemental services to 
special populations.

    Question 4. At the time of No Child Left Behind's passage, there 
was broad bipartisan consensus to ensure a high level of quality among 
supplemental service providers, and to align those services to 
classroom instruction. As you are aware, the law tasks States with 
applying such criteria to their selection of eligible supplemental 
service providers.
    The Department's regulations, however, prohibit States from 
allowing a school district to provide supplemental education services, 
if such district has failed adequate yearly progress for 2 or more 
consecutive years. As you know, no such policy was established in the 
No Child Left Behind statute. Just last month, the Department pursued 
and enforced this policy in the State of Illinois, restricting yet 
again their authority to develop and establish high quality criteria 
for allowing school districts to continue to provide supplemental 
services.
    What is the Department's rationale for such a policy? Does the 
Department deem every school district in need of improvement incapable 
of providing quality supplemental services, irrespective of the 
particular subject or focus of improvement in the district? Will you 
consider future revisions to such a policy?
    Answer 4. The Department continues to support the policy that 
districts that have been identified for improvement or corrective 
action cannot serve as a supplemental service provider. The Department 
included this provision in its regulations because districts that have 
been identified for improvement or corrective action have not reached 
their State's interim adequate yearly progress goals for at least 2 
consecutive years. These districts have to bring about major 
improvements in their operations and outcomes, and should not be 
distracted from that objective by simultaneously operating supplemental 
services.
    Some districts, like some schools in need of improvement, may have 
less work to do than others in meeting their academic performance 
goals. However, the Department believes that these districts should 
still focus their attention on educating students to high standards 
during the school day, rather than divide their attention between 
providing school-day instruction and supplemental services.
    Like I stated at my hearing, I am committed to listening to States, 
school districts, and schools to make this law workable and sensible.

    Question 5. The number of schools that have not made adequate 
yearly progress under NCLB for more than 4 years is going up. A lot of 
these schools are wrongly in this category of NCLB accountability; they 
wouldn't be in this final stage of restructuring if the Department 
retroactively applied its regulatory changes of a year ago.
    Would you be willing to consider making those regulatory changes--
on special education, limited English proficiency, and test 
participation--retroactive? And for those schools that truly have not 
made AYP for 4 years or more, how can the U.S. Department of Education 
help States and districts turn around these schools?
    Answer 5. Federal statutes and regulations are only applied 
prospectively unless there is clear Congressional intent and language 
to apply such policies retroactively. Allowing for the retroactive 
application of the policies related to the assessment of, and 
accountability for, students with the most significant cognitive 
disabilities and LEP students would result in no practical difference 
than by not allowing it, but would result in great confusion in the 
field about what rules applied when and how. It is inappropriate to go 
back and recalculate each time the Department or a State readjusted its 
rules or its State accountability plan. We will continue to provide 
assistance to States so that schools will have research-based curricula 
and improvement strategies, and I will commit to listening to how this 
is playing out in States and school districts across the country and 
ensuring that this policy is workable and sensible.

    Question 6. The No Child Left Behind Act requires all teachers to 
be highly qualified by the end of the 2005-06 school year. The law also 
clearly provides several options for veteran teachers to meet these 
requirements through the high, objective, uniform State standard of 
evaluation (HOUSSE). Some States have still not provided the HOUSSE 
option to their teachers, and other States have only recently 
implemented it. That delay obviously impacts the ability of some 
teachers to meet NCLB's deadline.
    Answer 6. Most States are on-track to meet the 2005-06 deadline. 
Forty States have adopted HOUSSE procedures for their teachers, and 4 
States are requiring all teachers to pass rigorous content tests as a 
condition of certification. Some States have put their teachers at a 
disadvantage by not acting sooner; however, there is still time for 
every teacher to meet the deadline, and the Department of Education is 
providing resources through the Teacher-to-Teacher Initiative to 
support States' efforts. We will be contacting each State where our 
monitoring indicates deficiencies and work with those States to address 
these deficiencies to ensure that every student is taught by a highly 
qualified teacher.

    Question 7. What is the Department doing to address the 
implementation of the HOUSSE? Does the Department intend to require 
those States that have not yet implemented this standard to do so? What 
consequences do States, districts and teachers face if the highly 
qualified goal is not met by the 2005-06 school year? As Secretary, 
what specific actions would you support in concert with States and 
local school districts to improve teacher quality, especially in school 
districts serving high concentrations of poor students?
    Answer 7. Improving teacher quality for all students is essential 
to achieving the vision of No Child Left Behind. It is especially 
important to ensure poor and minority students are taught by effective 
teachers. I stand with President Bush in supporting the Teacher 
Incentive Fund, giving States extra resources to provide monetary 
incentives for high quality teachers to teach in the schools that need 
them the most and reward schools and teachers that are eliminating the 
achievement gap.
    NCLB gives States the option of allowing their experienced teachers 
to demonstrate subject matter competency through a high objective 
uniform State standard of evaluation or HOUSSE. While the law does not 
require States to implement HOUSSE, and the Department favors granting 
flexibility where available, the Department can not require States to 
develop HOUSSE for its teachers, but it will continue to urge them to 
do so. We applaud States which take the rigorous approach of testing 
all teachers as they move toward meeting the goal of all teachers 
meeting the highly qualified teacher requirements by the end of the 
2005-2006 school year.

    Question 8. Recently, the U.S. Department of Education has 
commenced reviews of States' compliance with the highly qualified 
teacher definition under the No Child Left Behind Act. The Department 
previously told States that it would not formally approve their highly 
qualified definitions. Now, 3 years after enactment of the law, 
Department officials are now informing some States that their teacher 
quality plans and definitions are not in compliance with No Child Left 
Behind. This has understandably lead to some confusion and frustration 
in the States such as North Dakota, which have alleged that they were 
previously told by U.S. Department of Education officials that they 
were in compliance with the law. Can you please tell us as Secretary 
what you will do to ensure a better process that does not result in 
confusion and miscommunication between your Department and State 
Departments of Education?
    Answer 8. The Department is in the process of monitoring State 
compliance with the No Child Left Behind Act, particularly in regards 
to the highly qualified teacher provisions and the use of title II 
funds for improving teacher quality. The Department has always been 
clear that the law does not require a formal review and approval 
process for State definitions of ``highly qualified,'' as it does for 
State accountability systems, yet the minimum requirements of the law 
must be met. The Department will work diligently to remind States of 
their obligation to implement all parts of the law regardless of 
whether they are required to submit plans for review and approval.

    Question 9. As Secretary, how do you plan to improve the 
Administration and implementation of the No Child Left Behind Act, to 
focus less on punitive aspects and more on supporting schools' efforts 
to increase learning among children? As Secretary, do you anticipate 
issuing any new or additional guidance and regulations in response to 
many of the implementation concerns and problems that have been 
identified across the Nation?
    Answer 9. Since the passage of NCLB, the Department has had 
extensive and unprecedented interactions with the States, districts, 
schools and teachers, and has discussed with every State its unique 
education system and needs, and continues to do so. After NCLB was 
enacted, at the Department's invitation and expense, delegations from 
47 States came to the Nation's capital to individually meet with senior 
Department leadership. Other examples of outreach include the 
following:

    <bullet> The Department recruited and trained 50 teachers, 
principals, district officials, representatives from higher education, 
and national policy experts to serve as members of the Teacher 
Assistance Corps (TAC). The TAC has rendered direct support and 
technical assistance to nearly every State in meeting the challenges of 
the highly qualified teacher provisions of the law and visited every 
State.
    <bullet> The Office of English Language Acquisition has conducted 
52 video teleconferences and 35 onsite visits with the States to 
provide in-depth technical assistance. This effort facilitated the 
development and implementation of the integrated systems of standards 
and assessments, required by Title III of NCLB.
    <bullet> The Department has created a toll-free number for local 
superintendents to call when they have questions about NCLB 
implementation in their local educational agency.
    <bullet> Organizations such as the Council of Chief State School 
Officers and the Council of the Great City Schools are working with the 
Department to provide assistance to States and districts.
    <bullet> Extensive technical assistance has been made available to 
States, districts and schools as they develop and implement their 
Reading First programs. The Department has awarded a multimillion 
dollar contract to establish the National Center for Reading First 
Technical Assistance.
    <bullet> Since January 2004, the Teacher-to-Teacher Initiative has 
conducted roundtable discussions with 300 teachers, distributed email 
updates to 19,000, conducted fall and summer workshops for 1,800, 
honored 60 American Stars in Teaching, and launched eLearning (online 
professional development) with 44,000 hits to the Web site.
    I will continue such outreach activities and commence additional 
activities in the coming months. As I stated at my hearing, if through 
such activities, meetings, and interactions, I learn of areas of 
concerns for which additional guidance and technical assistance is 
necessary, new guidance will be created or current guidance updated. I 
pledge to work with States and school districts to ensure that the law 
works well on the ground.

    Question 10. The Administration's interpretation of the graduation 
rate accountability provisions under the No Child Left Behind Act 
raises serious concerns. In the past, the Department has ruled that 
graduation rates need not be disaggregated by race, income, disability, 
and limited English proficiency to determine adequate yearly progress. 
Further, it allows States broad flexibility in defining graduation 
rates, and to be considered to be making adequate yearly progress, it 
allows States to make virtually no improvement in graduation rates. At 
the same time, a dropout crisis faces the youth of our Nation. 
According to a recent study by the Civil Rights Project at Harvard and 
the Urban Institute, only 50 percent of Black students and 53 percent 
of Latino students graduate from high school 4 years after beginning 
9th grade. A superficial enforcement of the graduation rate 
accountability provisions under the No Child Left Behind Act will do 
nothing to stem this trend. What will you do as Secretary to ensure 
strengthened accountability for graduation rates?
    Answer 10. To ensure that schools do not make AYP simply because 
students have dropped out of school, States must include the graduation 
rate in their definitions of AYP for high schools. I agree that States 
should hold high schools accountable for the number of students who 
graduate from high school and that States should use graduation rate 
calculations that are as accurate as possible. In fact, the President 
has called for ensuring that every student graduates from high school 
with the skills and knowledge needed to succeed in college or the 
workforce.
    Prior to NCLB, many States did not collect and calculate graduation 
rate data taking into account either regular diplomas or the standard 
number of years to graduate and/or did not collect graduation rate data 
for all the subgroups of students required by NCLB. Prior to having 
their State accountability plans approved by the Department, any State 
not currently able to calculate a graduation rate that meets all the 
requirements of NCLB had to demonstrate how it would alter its data 
collection systems in order to calculate the graduation rate for all 
subgroups of students in the coming 4 years.
    NCLB allows States to choose the graduation rate targets that they 
use in making AYP determinations. States can either require schools to 
show growth, or to meet an absolute target. However, in order for the 
graduation rate to be a meaningful indicator of academic achievement, 
the measure must be accurate. In December 2003, the Department awarded 
a contract to the National Institute of Statistical Sciences to convene 
a group of experts to review the methods for reporting high school 
dropouts and on-time graduates. The expert review has recently reviewed 
existing rates and the data that underlie them, examined the concerns 
that have been raised about existing measures, and has made 
recommendations for improving data collection and estimation procedures 
that the Department is now considering.
    I pledge to continue working with States to ensure graduation rates 
are accurate and meaningful.

    Question 11. The use of native-language instruction for some 
limited English proficient students is a tool that is supported by 
research to be effective in teaching children academic English. Do you 
believe that schools have the flexibility under No Child Left Behind's 
English Language Acquisition, Language Enhancement, and Academic 
Achievement Act, Reading First, and Early Reading First, to use native-
language instruction as one instructional approach? Would the 
Department require schools to use only an English immersion approach 
under your helm?
    Answer 11. States and their districts and schools have great 
flexibility in using NCLB dollars to support language proficiency 
programs that best meet the needs of their students. Nevertheless, NCLB 
does require that language instruction programs supported by Federal 
funds be based on scientifically based research and have a demonstrated 
record of effectiveness in increasing English language proficiency and 
student academic achievement in the core academic subjects. The 
Department does not and would not require schools to use only an 
English immersion approach.

    Question 12. The No Child Left Behind Act allows States to use 
native-language assessments to measure the academic progress of limited 
English proficient students. Few States, however, are using native-
language assessments, even though they would provide schools with more 
accurate information about the progress of limited English proficient 
students than would English-language assessments. Do you believe that 
English-language assessments are appropriate tools for measuring those 
students' reading, math, or science skills? What are your views on the 
No Child Left Behind Act's requirements to implement proper and 
workable accommodations for limited English proficient students? Beyond 
additional research, what would you propose the U.S. Department of 
Education do to help States develop native-language assessments that 
are aligned to their academic achievement standards?
    Answer 12. NCLB requires that LEP students be provided reasonable 
accommodations on State assessments, including to the extent 
practicable, native language assessments. States must take many factors 
into consideration when considering whether or not native-language 
assessments will improve the validity and reliability of assessments 
for LEP students. For example, native-language assessments may not be 
valid and reliable for LEP students who are not literate in their 
native language, who speak a dialect different than that in which the 
assessment is written, or who receive their daily instruction in 
English. Currently, NCLB supports the development of better 
accommodations and the development of native-language assessments 
through section 6111 funds. To date under NCLB, all 50 States have been 
provided with a total of over $1.5 billion in Federal funds for the 
development, improvement, and implementation of State assessments. I 
will continue to work with States to ensure they have developed 
appropriate assessments for their students.

                            HIGHER EDUCATION

    Question 1. One thing that our committee agrees on is the 
importance of having a good teacher in every classroom. In the No Child 
Left Behind Act, we established criteria for a highly qualified teacher 
and this Congress will take a fresh look at how the Federal Government 
can assist in the preparation, recruitment, mentoring and professional 
development of teachers. We know that we still have real challenges in 
getting--and keeping--the best teachers in schools that face the most 
challenges. What are your ideas on how we strengthen Title II in the 
Higher Education Reauthorization to support the goal of making every 
teacher a highly qualified teacher?
    Answer 1. There are several things we can do. First, we need to 
make training teachers an institutional priority--we need to involve 
university presidents in the discussion about improving the 
collaboration between schools of education and schools of arts and 
sciences and we need to encourage them to adopt models that work. 
Second, we need to have our teacher quality partnership programs follow 
their graduates into the classroom and assess their success based on 
the academic achievement of their students. Third, we should support 
faculty exchanges so that college faculty actually spend time in the 
classroom in the local school in order to understand the challenges 
facing our new teachers. Finally, we need to ensure that our colleges 
and universities train prospective teachers in research-based methods.

    Question 2. More and more colleges are raising a lot of money for 
student aid by entering into deals with the banks. The colleges lend 
bank provided money to their graduate students and then immediately 
sell their graduate student loans back to the banks at a profit (so 
called ``school-as-lender'' deals). Some colleges have put their 
``school-as-lender'' business out to bid, thereby generating even more 
revenue from the banks that can then be passed on to students. Do you 
think this type of competitive practice is something that should be 
curtailed or expanded?
    Answer 2. The school-as-lender issue is something the Department 
has been reviewing and this issue was recently the subject of a GAO 
review. From 1970 through 2004, we have had only 65 or so institutions 
out of more than 6,000 total actually make loans to their students. 
This program had not been a priority for Department oversight in the 
past. However, the Department has stepped up its oversight and has not 
discovered any fraud or mismanagement on the part of the institutions 
that choose to operate lending programs. The main concern at the 
Department is ensuring that schools properly manage their programs and 
invest their earnings in other student assistance in accordance with 
the requirements of the HEA. At this moment, with only 65 institutions 
making loans and with no troubling audit findings, I do not know if 
there is reason to curtail the program but I will certainly look into 
it, and HEA reauthorization gives us an opportunity to do this.

    Question 3. During these tough economic times, many small 
institutions--particularly minority-serving institutions and community 
colleges--really struggle to keep costs down and maintain and expand 
academic programs in math, science and engineering. What efforts can be 
made to help these schools graduate more students who are prepared to 
compete in these challenging fields?
    Answer 3. This Administration already has started to help address 
this situation through programs at the Department of Labor. The 
President's High Growth Job Training Initiative is a strategic effort 
to prepare workers for new and increasing job opportunities in high 
growth/high demand and economically vital industries and sectors of the 
American economy. The initiative provides national leadership for a 
demand driven workforce system. Funds are provided to strategic 
partnerships between public workforce systems, business and industry 
representatives, and education and training providers, such as 
community colleges. In addition, under Title III of the Higher 
Education Act, minority serving institutions and community colleges are 
eligible for grant funds to be used for expanding academic programs.
    To ensure that America's graduates have the training they need to 
compete for the best jobs of the 21st century, President Bush will also 
propose establishing a new public-private partnership to provide $100 
million in grants to Pell-eligible, low-income students who study math 
or science in college. Under this plan, approximately 20,000 low-income 
students would receive up to $5,000 each to study math or science.

    Question 4. According to Secretary Paige's November 18th response 
to my initial August 2004 inquiry on the 9.5 percent loan issue, the 
Department of Education has not passed judgment on the propriety of 
past, increased 9.5 percent lender payments, some of which may never 
have been legally claimed in the first place. There is about $3 billion 
at stake. Will you make resolving this legal question one of your first 
management priorities? Irrespective of the loans already made, can we 
agree that no lender should be guaranteed a minimum 9.5 percent rate of 
return on any student loan newly issued from now on, unless of course 
if interest rates spike to double today's level?
    Answer 4. The Taxpayer-Teacher Protection Act of 2004, which was 
supported by Congress and the Administration, addressed the 9.5 percent 
loan loophole for 1 year. With the reauthorization of the Higher 
Education Act this year, we now have an opportunity to fully address 
this issue, and Iook forward to working with you on it.
    I understand that the program review staff at FSA ensures the 
appropriateness of 799 Interest and Special Allowance Billings (799 
Billing) and payments in two ways. First, FSA verifies the billing 
codes included on the 799 Billing and then FSA calculates the proper 
special allowance to be paid. If this first review identifies errors on 
the 799 Billing, the entire form is rejected and a corrected 799 
Billing is requested. Second, FSA conducts onsite program reviews of 
the loan records to verify tax-exempt status to ensure that the 
Department has been properly billed. Both of these review activities 
have been performed for this category of loans since 1996. These FSA 
review activities are performed in addition to the audits conducted by 
CPA firms, as required under 34 CFR 682.305.
    In recent program reviews of tax-exempt lenders, no illegalities 
have been found by Department staff. However, we will continue to 
monitor all special allowance billings and ensure that lenders are 
properly billing the government.
    With respect to new loans, there will continue to be new loans that 
receive the 9.5 percent minimum special allowance for sometime into the 
future under current law. These loans will be made from preexisting 
bond obligations that allowed for the 9.5 percent minimum. Over time, 
these loans will cease to exist as bond obligations are retired and the 
special tax-exempt billing issue will end.

    Question 5. With nearly 30 percent of all college students taking 
remedial classes, it's clear that we must do more to strengthen the 
high school pipeline and get kids thinking about college early, and 
provide them with needed supports once they are in college. Proven 
programs like Talent Search, Upward Bound, Gear Up, and TRIO have 
helped thousands of young people prepare for college, understand the 
application process, choose the right school for them and graduate. 
What are your plans for these programs?
    Answer 5. President Bush is very concerned about our Nation's high 
school students, which is why he proposed a new High School 
Intervention Initiative that will prepare our high school students for 
the future. His education proposals would help ensure that every high 
school student graduates with the skills needed to succeed in 
postsecondary education and in a globally competitive workforce. 
President Bush believes that States should have more flexibility to use 
funds to best meet the needs of their students, as long as they are 
also ensuring results.

    Question 6. The reauthorization of the Higher Education Act 
provides a critical opportunity to make this important legislation an 
engine for workforce training and productivity. In order to do this, 
emphasis must be placed on helping students shoulder the economic 
burden of college attendance costs. In addition, the picture of a 
``typical'' college student is in much need of revision. In fact, the 
``traditional'' college student is now in the minority. In the 1999-
2000 school year, 73 percent of undergraduates were considered in some 
way ``nontraditional,'' meaning they were not among those who received 
a high school diploma and then immediately enrolled in college full 
time, relied on their parents for financial support, and did not work 
during the school year.\1\ Generally, how do you think HEA 
reauthorization should be approached to address the unique challenges 
of increasing access for a nontraditional student population? More 
specifically, how might you improve Pell Grants to address this issue?
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics, 1999-2000.
---------------------------------------------------------------------------
    Answer 6. With regard to Pell Grants, the President will propose in 
his fiscal year 2006 budget request to eliminate the Pell Grant 
shortfall and increase the maximum award by $100 each year for the next 
5 years. In addition to increasing Pell Grant awards, the most helpful 
change for nontraditional students will be allowing for year-round 
awards. These students are more likely to attend on a year-round basis 
in order to complete their programs as expeditiously as possible so we 
need to make sure they receive sufficient student aid to cover the 
summer session.
    For many nontraditional students, one problem is actually getting 
to a college campus. For that reason, we should be doing away with 
rules that limit student's ability to take courses on-line. The single 
mother who needs to work during the day and be at home in the evening 
should be able to take courses after the children are in bed and she 
can do that if the Federal Government stops restricting her access to 
these programs.

                                  IDEA

    Question 1a. There are many significant changes in the new IDEA 
legislation that President Bush signed on December 3 that affect 
parents and teachers. Some of the new requirements--such as the 
``highly qualified special education teacher'' definition--go into 
effect immediately. How will you communicate these new requirements to 
parents, teachers and school districts in a timely way that is 
understandable to them?
    Answer 1a. There are several levels of communication currently in 
place that allow for this knowledge dissemination. The Department works 
closely with Chief State School Officers, State Directors of Education 
and State Directors of Special Education in all Department initiatives 
and when new legislation is passed. The Department has plans for senior 
officials to present at major conferences of interest to both special 
education professionals and professionals whose main area of interest 
is in the general education domain. The Department also invests in 
Technical Assistance and Dissemination centers whose work scope 
specifically addresses knowledge dissemination and training on the 
specific requirements of IDEA. The Department will be providing 
technical assistance materials on the Office of Special Education and 
Rehabilitative Services (OSERS) Web site that are targeted to meet the 
specific needs of all stakeholder groups, such as parents and teachers, 
and reflect specific changes in the new IDEA legislation, such as the 
``highly qualified teacher'' definition. The Department has long-
standing relationships with professional organizations that provide 
information and continuing education to teachers and related services 
providers. And finally, IDEA continues to require the funding of Parent 
Training and Information Centers across the country, which have been 
instrumental in providing information on the requirements of IDEA and 
evidence-based practices to parents of children with disabilities.

    Question 1b. Given that most States currently face critical 
shortages of qualified special education teachers, how will the 
Department develop partnerships with universities and States to ensure 
that the ``highly qualified'' standard does not exacerbate these 
shortages?
    Answer 1b. The Department has strong relationships with States as 
well as with public and private colleges and universities. The 
Department is committed to facilitating conversations between colleges 
and universities and States to develop collaborative partnerships and 
strategies for recruiting and retaining special education teachers. 
States need to let their institutions of higher education know what 
their teaching personnel needs are and the higher education 
institutions need to be responsive to their needs. The Department will 
continue to support investments in grants to training programs designed 
to train special education teachers for both high incidence and low 
incidence populations that are responsive to the needs of children with 
disabilities.

    Question 1c. Since States now have the option of allowing 
individuals to become highly qualified special education teachers via 
an examination, how will the Department work with States to ensure such 
tests result in ``high quality'' special education teachers capable of 
delivering a free appropriate public education to every student with a 
disability?
    Answer 1c. The Department will encourage partnerships in public and 
private colleges and universities to work with State education 
officials in determining what special education teachers need to know 
and be able to do to support students to meet high standards. Most 
States have adopted content-specific examinations for general education 
teachers. The Department will continue to provide technical assistance 
to States in developing alternate routes to certification. The 
Department has many investments in leadership development for special 
educators, focusing on developing professionals who can provide 
evidence-based instruction.

    Question 2. Historically, the needs of students with significant 
intellectual disabilities have not been met by IDEA. In the last few 
years we have seen that teachers and school systems are not prepared to 
administer the alternate assessments required by IDEA in 1997 and again 
by the No Child Left Behind Act.
    The new IDEA legislation requires the Secretary to undertake a 
study to determine how States are implementing the alternate assessment 
requirements, the status of their validity and reliability and their 
alignment to alternative achievement standards. How would you envision 
designing this study and ensuring that the results get in the hands of 
those who need them?
    Answer 2. We are making progress in designing assessments for 
students with the most significant cognitive disabilities, but we still 
have a long way to go to ensure that these students are assessed in 
ways that demonstrate what they know and can do. Nothing is more 
critical to ensuring children with disabilities are not left behind. I 
support the investment in this study, which will provide valuable 
information that can be used to develop valid and reliable alternate 
assessments. I look forward to working with the Department's experts in 
the Institute for Education Sciences and the Office of Special 
Education and Rehabilitative Services to design a scientifically-based 
study. The Department's outreach and technical assistance centers will 
play a key role in ensuring that the results of this study are 
available and accessible to all interested parties.

    Question 3. For too many years the Department of Education has not 
had the tools to enforce IDEA. This reauthorization gave the Department 
more tools and a mandate to develop benchmarks for compliance with each 
State. How will the Department work with States to develop indicators 
by which to particularly measure the delivery of FAPE and the delivery 
of transition services from school to postsecondary life?
    Answer 3. The Department currently monitors States on key 
performance indicators. This new requirement builds on the monitoring, 
assessment, and data collection systems that are already in place in 
States. This requirement is consistent with the Department's focus on 
results and not just paperwork compliance. Over the past 4 years, the 
Department has reduced significantly the focus on process compliance 
monitoring and now asks States and schools to show results of how well 
children perform in school. I will work with the Department's technical 
assistance network to ensure that quality technical assistance is 
provided to States to develop valid and measurable indicators that will 
help them better serve children with disabilities and their families.

                          VOCATIONAL EDUCATION

    Question. At the recent high school summit sponsored by the 
Department of Education, many of the speakers talked about the valuable 
role that career technical education plays in high school reform. In 
light of these discussions on high school reform, how would you 
preserve and promote the unique role that career and technical 
education plays in providing a relevant educational experience that 
also leads to increased academic achievement and improved employment 
outcomes for youth and adults?
    Answer. On January 12, President Bush announced a new $1.5 billion 
High School Intervention and Assessment initiative. Of this amount, 
$1.2 billion will be used to help States and districts provide 
effective interventions for those students who are not learning at 
grade level. In return for a commitment to improve academic achievement 
and graduation rates for secondary school students, States will receive 
the flexibility to choose which programs will be most effective in 
serving the needs of their high school students. As high schools pursue 
innovative approaches to helping students achieve high academic 
standards, many are discovering that well-crafted career and technical 
education programs can have a positive impact on student achievement.
    Nevertheless, we are concerned that funding that is too segmented 
at the school level leads to free-standing interventions that are not 
well integrated, do not always address the most pressing needs in the 
school, and result in opportunities for true innovation being missed. 
To make the taxpayer dollar work smarter, the President is proposing 
that programs with a narrow focus and programs that have not proven 
effective in improving our secondary students' academic achievement be 
consolidated.

                           EDUCATION RESEARCH

    Question 1. Every bill that we've written in the last 4 years has 
called for the use of scientifically based research. Application of 
scientifically based programs is the foundation of the President's 
education reforms, yet Federal support for education research, 
development, and dissemination remains inadequate for meeting the 
requirements for research based programs. What plans do you have to 
dramatically expand the Federal education research program in keeping 
with research demands created by NCLB? How can we do a better job of 
aligning research with practice and disseminating research to 
superintendents, principals and teachers?
    Answer 1. Our plans for expanding the Federal education research 
program depend on the appropriation of funds by Congress. Each year 
since enactment of No Child Left Behind, Congress has appropriated from 
10 percent to 20 percent less for research than the Administration 
requested. Nonetheless, the Institute of Education Sciences has 
expanded both the quantity and quality of research being supported by 
the Department of Education, paying particular attention to the demands 
created by No Child Left Behind and the needs of superintendents, 
principals, and teachers for strategies and solutions to the education 
problems they face. The Institute has done an excellent job of aligning 
its research programs with practice. For example, its research programs 
in reading, math and science, teacher quality, and preschool 
curriculum, and its evaluation of Reading First, are models of good 
research. The Institute has also moved aggressively to improve 
dissemination of research results. The What Works Clearinghouse was 
established and is providing practitioners, policymakers, and the 
public with information about the effectiveness of particular education 
programs and strategies, by focusing on the quality of the scientific 
evidence supporting those programs. This is the kind of information 
that will help practitioners and policymakers make the decisions they 
face on a regular basis. We must continue this work and aggressively 
pursue research in effective strategies to teach math and science.

    Question 2. There has been a discernable delay in release of NCES 
publications following the reauthorization of the research and 
statistics programs assigning some review responsibilities to the 
Director of the Institute of Education Sciences rather than NCES. Many 
feel that the second level of review in the Director's office is 
responsible for the delay in release of data. For example, NCES's study 
of early childhood education (Children Born in 2001: First Results from 
the Base Year of the Early Childhood Longitudinal Study, Birth Cohort 
(ECLS-B)), has been released in only tabular form (2004) while the 
report itself remains in the Director's office under review. What plans 
do you have to address the situation and to get statistical reports to 
the public in a more timely fashion?
    Answer 2. No report on the ECLS-B has been received by the 
Director's office for review. The average period of time for the review 
of reports that have been sent to the office of the Director of the 
Institute of Education Sciences is 12 days from receipt to disposition. 
This review period has improved since the passage of the Education 
Sciences Reform Act, as has the technical quality of the reports. 
Further improvements in the timeliness of releasing reports are 
desirable and being pursued by reducing inefficiencies and enhancing 
tracking procedures with respect to that portion of technical review 
and revision that occurs within NCES.

                              CIVIL RIGHTS

    Question. The Department of Education's Office of Civil Rights 
receives thousands of discrimination complaints every year, but it's 
impossible for Members of Congress or the public to readily track the 
issues raised in those complaints or even the laws on which they're 
based. In fiscal year 2002, OCR initiated only 11 compliance reviews 
under any of the statutes it enforces--the lowest number it had 
undertaken since 1989.
    I'm concerned that the law is not being enforced consistently or 
proactively. Only the Federal Government--not private individuals--can 
enforce title VI regulations prohibiting discrimination based on race 
or national origin, and it's a serious problem if OCR is not vigorous 
in its enforcement.
    If you're confirmed what will you do to ensure adequate enforcement 
of the anti-discrimination laws? Will you commit to putting clear 
information on the Department's enforcement of anti-discrimination laws 
in the Department's publications and on-line resources so that Congress 
and the public can keep track of these important matters?
    Answer. The Department vigorously enforces civil rights laws and 
regulations under its jurisdiction, and will continue to do so if I am 
confirmed. The Department currently makes available to the public 
information about OCR's enforcement of the laws in its annual reports 
to Congress.

      Response to Questions of Senator Dodd by Margaret Spellings
                             k-12 education

NCLB Funding

    Question 1. Based on new State funding data released last month by 
the Department, \1/3\ of States will receive less funding for NCLB 
programs this year than last. In light of the fact that the 2005-06 
school year includes major deadlines and expansion of requirements--
including the deadline for all paraprofessional and teachers to be 
highly qualified--what are your views on the need to provide States 
additional resources so that they can successfully meet the many NCLB 
requirements? Do you believe that the funding levels in NCLB are 
adequate to achieve full compliance with the law?
    Answer 1. President Bush has a proven record of providing 
significant funding increases for elementary and secondary education. 
Federal spending on education is at the highest levels in history, and 
every State has received an increase in title I funding since the 
enactment of NCLB. Under the recently passed 2005 appropriations 
legislation, NCLB spending will have increased by 40 percent since the 
President took office. In addition, unlike previous reauthorizations of 
the Elementary and Secondary Education Act, the testing required under 
the law is fully paid for with Federal funds. A report published in the 
Spring 2004 edition of the policy journal Education Next by two 
Massachusetts officials (State board of education chairman James Peyser 
and chief economist Robert Costrell) concluded the increased Federal 
aid States are receiving as a result of NCLB covers the costs of the 
additional reforms required. Additional studies from Accountability 
Works in 2002 and GAO in 2003 make clear that any other additional 
costs from the act are more than outweighed by increased appropriations 
since that time. As Secretary, I will continue to fight for more 
funding for public education and continue President Bush's record in 
this area.

NCLB Implementation

    Question 2. The most recent projections show that almost 20,000 
schools have not made ``adequate yearly progress'' this school year, 
with 11,000 already designated as in need of improvement. Several 
States, such as my home State of Connecticut, have done projections 
that indicate that virtually all schools over time will fail to make 
AYP. Do you believe there are aspects of NCLB's AYP definition that 
could be modified to ensure a more accurate reflection of school 
success or schools in trouble? Do you believe that test scores alone 
are a fair measure of a school's success?
    Answer 2. Schools and educators across the country are rising to 
the challenge and ensuring that all students are held to and achieving 
high standards, and I am confident that they will continue to do so.
    Prior to the passage of NCLB, critics predicted that almost 
immediately vast numbers of schools would not make AYP. This has not 
been the case. On the contrary, based on achievement data from the 
2003-04 school year, 31 of 39 States, for which data are available, 
showed an increase in the number of schools making AYP over the 
previous year.
    Further, a report released in March 2004 concludes urban schools 
are making considerable progress in elevating student achievement, and 
NCLB is helping to drive those scores. The report, released by the 
Council of Great City Schools shows students in the Nation's major 
urban schools have posted substantial gains in statewide math and 
reading assessments since NCLB was enacted. Additionally, an October 
2004 report by the Education Trust showed that States are narrowing 
achievement gaps and raising achievement for all students. Of the 24 
States with at least 3 years' worth of comparable State assessment 
data, math achievement has improved in 23 States since 2002. Of the 23 
States that had at least 3 years of reading data, achievement increased 
in 15. The Education Trust also found the African American-White gap to 
have narrowed in 16 States in reading and 17 States in math. The 
Latino-White gap narrowed in 14 States in reading and 16 in math. I 
expect these efforts to continue and am confident that the hard-working 
educators around the country will continue to improve student learning.
    AYP is not solely a test-score-based measurement system. In 
addition to achieving the state-determined target for reading arts and 
math proficiency, to make AY a school must also meet the State's 
criteria for an additional academic indicator. States have great 
flexibility in the choosing of these additional academic indicators as 
evidenced by the variety of the States. Examples of additional academic 
indicators include attendance rate, enrollment in advanced course-work, 
and retention rates.

    Question 3. Two years ago, a bipartisan commitment to quality 
afterschool programs was included in the passage of the No Child Left 
Behind Act. If funded at the level promised, 2.8 million children would 
be served by afterschool. Due to consistent underfunding of the 
program, we have served, at most, only 1.4 million children each year 
since the law was passed. Studies tell us that students who regularly 
attend quality afterschool programs have better grades and conduct in 
school, better peer relations and emotional adjustment, and lower 
incidences of drug-use, violence and pregnancy. Clearly, afterschool 
programs can be a vital link in a child's overall development. How 
would you characterize your support for the 21st Century Community 
Learning Centers program? Are you committed to fully funding 
afterschool as authorized under No Child Left Behind?
    Answer 3. I am committed to providing high-quality afterschool 
opportunities to students. However, evaluations of the 21st Century 
Program by the Institute of Education Sciences have shown that the 
large Federal investment in after-school programs has had little 
positive effect on students' academic achievement, feelings of safety, 
and behavior. Much of the work of the Department of Education in this 
area has been focused on improving the quality of afterschool programs 
by developing model after-school programs in reading and math based on 
scientifically based research and rigorous testing of their 
effectiveness, improving the availability of research-based practices, 
and expanding technical assistance at the State and local levels that 
focuses on improving student academic achievement. I look forward to 
continuing and expanding this important work.

    Question 4. I am concerned that the Administration has paid too 
little attention to assessment quality. Low quality assessments are 
less valid and reliable measures of what students know and can do. If 
accountability is to be accurate and fair, improving the quality of 
measurement is critical.
    Further, low quality assessments make it more likely that teachers 
will focus on test preparation and coaching rather than on substantive 
learning, thus undermining the goals of NCLB. Will you make ensuring 
test quality a high priority in your Administration? How will you 
assist States in putting quality assessments in place? What 
specifically will you do to ensure that assessments currently used meet 
quality guidelines included in the act?
    Answer 4. While the Federal Government has provided the funding for 
new assessments, it is each State's responsibility for the development 
of their own standards and assessments, and this Administration is 
strongly committed to maintaining the States' roles in developing and 
administering their own assessment systems. However, the Department 
will continue to place an emphasis on assessment quality. In April 
2004, the Department released Standards and Assessments Peer Review 
Guidance: Information and Examples for Meeting Requirements of the No 
Child Left Behind Act. The Department has conducted training for 
States, assessment developers, and other interested parties on the 
elements by which State assessment systems under NCLB will be evaluated 
and judged. Among many of the elements detailed in this guidance, 
particular attention is given to ensuring that State assessments are 
aligned to content and achievement standards and to ensuring that the 
assessments of are of high technical quality (validity and 
reliability). In February 2005, the Department will begin its peer 
reviews of State assessment systems. The Department has and will 
continue to encourage States to bring forward their assessment systems 
for review as early as possible prior to the 2005-06 deadline for NCLB 
assessments so that States can receive feedback from peers on areas for 
improvement. Finally, through the NCLB State assessment grants 
(sections 6111 and 6112), States have to date received over $1.5 
billion for the development, improvement, and Administration of their 
State assessment systems. I intend to especially focus efforts on 
helping States improve assessments for students with disabilities. 
Ensuring these students meet higher standards requires improved 
measurements in this area.

IDEA

    Question 5. What priority do you place on fully funding IDEA? What 
steps will you take to attain the 40 percent funding goal?
    Answer 5. President Bush has proposed record-level increases for 
special education--a $1 billion increase each year for 4 years. Funding 
would have increased $4.7 billion or 75 percent since 2001 if the 
President's request for 2005 had been approved. As you know, Congress 
did not appropriate the amount authorized for the 1st year of the path 
authorized in the IDEA reauthorization legislation. Under the revised 
IDEA bill, the President will continue to consider all education needs 
and priorities in formulating his request for the IDEA Grants to States 
program. For fiscal year 2006 and beyond, we will continue to work with 
Congress on this critical funding.

    Question 6. As you know, the President signed into law the IDEA 
reauthorization bill at the end of the last Congress. The regulations 
and issuance of guidance will be critical to its success. Given this, 
what will your first areas of communication to States be over the 
coming months? How will you work to ensure IDEA regulations and 
guidance are issued in a timely manner? How will you ensure full 
consideration of submitted comments?
    Answer 6. The Department plans to develop limited regulations that 
help explain the law and that are clear and easy for parents and 
schools to understand. Under this Administration, regulations will be 
tools to help children and schools, and will not spur confusion or 
duplication. Public input will be sought from parents, schools, and 
advocates across the Nation. The Department plans to hold public 
meetings in several cities in the coming months. The target to complete 
the regulations is December 3, 2005, and I pledge that the Department 
will make every effort to meet this target.

                            HIGHER EDUCATION

General Questions

    Question 7. In the first 4 years of the Bush Administration, the 
education priorities seemed to be entirely focused on elementary and 
secondary education. Do you believe that the Bush Administration will 
devote equal time to higher education policies over the next year in 
light of the impending reauthorization? What will your higher education 
priorities be?
    Answer 7. It is a high priority for President Bush and this 
Administration to work with Congress to get the HEA reauthorized in 
2005. The fiscal year 2006 budget will likely include proposals made by 
the Administration last year as well as the other initiatives announced 
by the President over the last year.
    The reauthorization should address key issues, including:

    <bullet> Improving academic preparation in high school;
    <bullet> Developing more accurate and complete consumer information 
for students and families;
    <bullet> Directing aid to the neediest students;
    <bullet> Eliminating rules that limit distance learning;
    <bullet> Increasing loan limits, particularly for 1st-year students 
who need the additional funds;
    <bullet> Providing more flexible repayment options for student loan 
borrowers;
    <bullet> Increasing accountability on the part of institutions 
receiving Federal funds;
    <bullet> Eliminating the Pell Grant shortfall and increasing the 
maximum award to $4,550 over 5 years; and
    <bullet> Modernizing the student loan program.

College Costs and Student Aid

    Question 8. College Cost has been a huge issue, not only in the 
media, but within Congress. Representative Buck McKeon, Chairman of the 
House Subcommittee on 21st Century Competitiveness, introduced a bill 
last Congress on college cost which was perceived as a price control 
bill. Do you believe it is the role of the Federal Government to 
control the price of college tuitions? If so, why would you impose 
price controls on one industry and not others?
    Answer 8. I do not believe the Federal Government should control 
the price of college tuition. I believe consumers need more and better 
information about the cost and quality of higher education to guide and 
inform their decision-making, and I am committed to making the data 
that the Federal Government collects more user-friendly. I might add 
that Representative McKeon's bill was not a price control bill but 
rather an effort to reward institutions that keep increases in check. 
We must do more to encourage colleges and universities to keep their 
tuition increases more reasonable and understandable and we should be 
interested in why tuition rises at rates greater than the rate of 
inflation.

    Question 9. In light of the increasing number of nontraditional and 
parenting students--the majority of whom are women--would you support 
policies that help these students enter and complete postsecondary 
education? Policies that include increased funding for campus-based 
child care, and changes in aid formulas to more accurately reflect a 
family's true resources and expenditures?
    Answer 9. There are several things we can do to help nontraditional 
students complete a postsecondary education. For many nontraditional 
students, the biggest problem is actually getting to a college campus. 
For that reason, we should be doing away with rules that limit a 
student's ability to take courses on-line. The single mother who needs 
to work during the day and be at home in the evening should be able to 
take courses after the children are in bed and she can do that if the 
Federal Government stops restricting her access to these programs.
    In addition to increasing Pell Grant awards, the most helpful 
change for nontraditional students will be allowing for year-round 
awards. These students are more likely to attend on a year-round basis 
in order to complete their programs as expeditiously as possible so we 
need to make sure they receive sufficient student aid to cover the 
summer session.
    We also need to ensure that student loan programs are available for 
students needing short-term training that leads to an industry-
recognized certificate. Too often today students are paying for this 
training through credit cards charging high interest. I am committed to 
increasing access for nontraditional students, and I look forward to 
working with Congress on this issue.

    Question 10. When the Higher Education Act was passed in 1965, the 
hope was that any student wishing to obtain a college education would 
have the right to do so, regardless of their socioeconomic status. As 
you know, Pell grants were intended to serve as the foundation for all 
student aid, and when they were first instituted they paid for 84 
percent of the cost of attendance at a public 4-year college. Today the 
maximum Pell award only covers about 34 percent of that cost. College 
tuition rates are soaring, and are expected to keep increasing at rates 
higher than inflation. By holding the maximum grant award at $5,800 
until 2011, Congress decreases the grants' purchasing power over time 
and guarantees that incoming classes of students will have to rely more 
heavily on student loans, placing them even further into debt. Based on 
all of this, do you support increasing Pell grant funding? If so, how 
do you plan to increase the Pell grant maximum award, which has been 
frozen for 3 years?
    Answer 10. The President does support increasing funding for Pell 
Grants and has provided more than $5 billion to the Pell Grant Program 
since taking office. In addition, the current Pell Grant award more 
than covers that cost of attending community college, which provide a 
strong foundation in job training and work with local employers to 
train students for high-growth jobs. Increasing the maximum award has 
been a problem due to the large funding shortfall which we have carried 
for several years. This year the President is proposing to retire the 
shortfall and increase the maximum award by $100 a year for the next 5 
years as part of a comprehensive reform proposal for the student aid 
programs. We believe this new initiative will get the program on firm 
financial footing while addressing the needs of our low-income 
students, and it is a major priority for the President in his 2006 
budget.

    Question 11. If at any time OMB proposed cutting the Pell grant 
maximum award in any budget year, would you oppose that cut and 
actively work with President Bush to assure that student's grant aid 
would not be cut?
    Answer 11. OMB, the President and I will all be working together to 
strengthen and improve all our student aid programs.

    Question 12. Are you committed to keeping the student aid programs, 
such as Pell grants, Federal Work Study, Perkins Loans, TRIO and 
GEARUP, healthy and whole? Or do you foresee alterations to any of 
these programs?
    Answer 12. I am committed to ensuring that student aid programs 
address the needs of students in the 21st century, and look forward to 
working with Congress on this issue during the reauthorization of the 
Higher Education Act. In addition, President Bush is very concerned 
about our Nation's high school students which is why he proposed a new 
High School Intervention Initiative that will prepare our high school 
students for the future. His education proposals would help ensure that 
every high school student graduates with the skills needed to succeed 
in postsecondary education and in a globally competitive workforce.
      Response to Question of Senator Harkin by Margaret Spellings

Wellness

    Question. The problem of childhood obesity has become a public 
health crisis of the first order. Over the past 3 decades, obesity 
rates have doubled in preschool aged children and teenagers and tripled 
in children aged 6 to 11 years old. Numerous experts are saying that if 
current trends continue, the generation of kids growing up today will 
live a shorter lifespan than their parents. Promoting healthier 
lifestyles to children is critical if we hope to make any progress in 
ending obesity and the dangerous risk factors associated.
    In addition to improving students' academic performance, I believe 
that schools also have a critical role to play in promoting children's 
health. In the Childhood Nutrition bill last year we took steps to 
improve the nutritional options at school and required that schools set 
up wellness policies. Clearly, much more needs to be done. I hear from 
many constituents that there is not enough time in the school day for 
health, physical education class and recess. Some schools no longer 
build playgrounds. I have visited schools where kids don't have enough 
time to finish their lunch and many more where kids are lucky if they 
get PE once a week. Kids are not learning lifestyle lessons necessary 
to grow up and take care of their own health. As secretary, what are 
your plans to make certain that our children's health is not left 
behind when we are focusing on their education?
    Answer. The President has recognized the rise in childhood obesity 
as a crisis and has put forward his Healthier U.S. initiative to 
coordinate the resources of the Federal Government in educating 
children and families about steps they can take within their own lives 
to greatly improve their health and fitness. This initiative increases 
individual awareness of the benefits of increased physical activity, 
proper nutrition, getting preventive screenings, and avoiding risky 
behavior. If confirmed, I will continue this initiative within the work 
of the Department of Education, and I look forward to working with you 
on this issue.
    At the Federal level, The Department of Education will also 
continue our collaboration with the Departments of Agriculture and HHS 
through our Memorandum of Understanding, Healthier Children and Youth, 
signed by President Bush in June 2002, which was created to strengthen 
and promote the education and health of the Nation's youth. The MOU 
task force has collaborated to promote several government programs, as 
well as initiate a public/private partnership with Action for Healthy 
Kids, an alliance of State teams working to improve the health of 
children in schools.
    The Department is also working with USDA and HHS on the 
implementation of a new requirement for school districts, passed as 
part of the Child Nutrition and WIC Reauthorization Act of 2004. This 
section of the law will require all local educational agencies 
participating in a program authorized by the National School Lunch Act 
or the Child Nutrition Act of 1966 to establish a local wellness policy 
by the beginning of 2006-07 school year. These local wellness policies 
will need to address nutrition education, physical activity, and other 
school-based activities to promote student wellness.
    The Department is also working with the Surgeon General on a 
comprehensive agenda, ``The Year of the Healthy Child,'' which focuses 
on helping children become and stay healthy and fit. In addition to 
working with these agencies, the Department of Education has an 
agreement with the Centers for Disease Prevention and Control (CDC), 
Division of School Health, that allows a person to be detailed from CDC 
to the Office of Safe and Drug-Free Schools to help link services 
provided by CDC with State and local education agencies.
    Response to Questions of Senator Mikulski by Margaret Spellings

Community Colleges

    Question 1. President Bush's community college initiative is 
focused on training workers to meet the needs of high-growth industries 
and, although that is an important goal, I want to make sure that 
community colleges can accommodate increased enrollment while keeping 
tuition affordable. In my home State of Maryland, enrollment at our 
community colleges is expected to grow 30 percent in the next 10 years, 
while 4-year colleges will grow by 15 percent. The combination of 
budget cuts and increased enrollments is forcing community colleges to 
make tough choices between raising tuition and turning students away. 
What would you do to ensure that community colleges remain accessible 
and affordable for everyone?
    Answer 1. President Bush is a strong supporter of community 
colleges and will continue to support these important institutions. 
Last year, the President proposed the Community-Based Job Training 
Grants program at the Department of Labor, which received $250 million 
in funding, and he will again request this funding in the fiscal year 
2006 budget. This grant program will help community colleges build 
capacity and produce graduates with the skills most in demand by local 
employers. The President has also proposed establishment of a new 
Community College Access Grants program, funded at $125 million, to 
improve the services that community colleges provide. The initiative 
will focus, in particular, on supporting ``dual enrollment'' programs 
through which high school students take college-level courses and 
receive both high school and postsecondary credit.
    In addition, the President will propose increasing the Pell Grant 
maximum award by $100 each year for the next 5 years to raise the award 
to $4,550 in 2010. This increase will help students afford the cost of 
tuition of community colleges, as nearly 40 percent of Pell Grant 
recipients attend community colleges.

Tuition Tax Credit

    Question 2. As we are all aware, college tuition is on the rise. 
Tuition at University of Maryland has increased by 30 percent over the 
last 2 years; tuition for Baltimore Community College rose by $300 in 1 
year. The average cost of going to a 4-year public college is $10,635 
but financial aid isn't keeping up. Twenty years ago, Pell Grants 
covered 80 percent of average costs for college; now they cover only 40 
percent. To really help middle class families afford the costs of 
higher education, we need to increase the maximum Pell Grants, but we 
also need a bigger tuition tax credit. Would you support increasing the 
tuition tax credit to $4,000 per year and making it refundable so it 
helps families who don't owe taxes?
    Answer 2. Data from the College Board confirm that colleges and 
universities are raising advertised tuition prices at rates 
significantly above the rate of inflation. This alone poses a 
substantial barrier to postsecondary education for many low-income and 
potential first-generation postsecondary students who are unaware of 
the aid that is available.
    Instead of focusing resources on tax credits which benefit more 
middle-income families, the President is making the Pell Grant program 
a priority, since it provides funding to low-income students who 
otherwise would not be able to attend college. In addition, as 
reauthorization of the Higher Education Act (HEA) moves forward, we 
need to address the following issues:

    <bullet> Make low- and middle-income, first-generation college 
students aware of the true costs (and benefits) of postsecondary 
education;
    <bullet> Ensure Federal student financial aid goes to the neediest 
students;
    <bullet> Develop more accurate and complete consumer information 
for students and families;
    <bullet> Find ways to encourage colleges and universities to 
constrain tuition and fee increases so that the Federal aid does not 
simply chase spiraling prices; and
    <bullet> Continue to reduce the paperwork burden faced by financial 
aid applicants.

    While the President's focus will remain on increasing Pell Grant 
funding, I look forward to working with Congress to ensure that higher 
education is accessible and affordable.

Digital Divide/CTCs

    Question 3. In a country where 70 percent of jobs require computer 
skills, technology is a key part of education and opportunity. All 
Americans, regardless of race, income, or geographic location should 
have access to technology, but only 55 percent of Blacks and 49 percent 
of Hispanics are computer users compared to 70 percent of Whites. Only 
30 percent of Blacks and 32 percent of Hispanics have access to the 
Internet in their homes compared to 55 percent of Whites.
    We must close this digital divide and put technology and computers 
in schools, libraries, and community centers. In No Child Left Behind, 
I made sure there was funding to create 1,000 new Computer Technology 
Centers (CTCs) across the country. Every year, President Bush takes 
money for tech centers out of the Federal budget so I have to fight to 
put it back in. What do you think is the role of technology in 
education and would you support increased funding for CTCs and similar 
projects to close to digital divide?
    Answer 3. I agree with you that it is important for all students to 
have access to 21st century skills and tools, including computers, to 
bridge the digital divide. The President prioritizes Federal funding in 
education away from smaller, categorical programs toward large, 
flexible grant programs like title I that allow States and school 
districts to target resources to reforms that will lead to increases in 
student achievement. The Department of Education's National Education 
Technology Plan, which was recently released, highlights examples of 
what States, districts, and schools are doing to close the digital 
divide. The President has also supported policies that expand the 
availability of broadband, and I look forward to working with you to 
promote access to computers and broadband technologies to improve 
student learning.
     Response to Questions of Senator Murray by Margaret Spellings

High School Reform

    Question 1. I have a bill called the Pathways for All Students to 
Succeed (PASS Act), which targets funding at specific high school 
reforms, including literacy skills, academic counseling and making more 
resources available for necessary reforms to turn around low-performing 
high schools. The PASS Act creates grants to establish effective, 
research-based reading and writing programs in our secondary schools, 
including students with limited English proficiency and those with 
disabilities, through a coaching model. Literacy coaches would bring 
professional development into schools, help teachers identify and work 
with students who need extra help reading and writing and help teachers 
integrate literacy skills into curricula in all subject areas. The PASS 
Act also funds grants for comprehensive, high-quality academic and 
occupational counseling at a ratio of no more than 150 students to 1 
academic counselor. Academic counselors would work with parents and 
teachers to create individualized graduation plans for each student, 
including what students need to do in high school to be successful in 
postsecondary education and careers, and promote parental involvement 
in their child's education and coordinate support services for at-risk 
students. Finally, the PASS Act would help communities turn around low-
performing high schools through grant funding.
    The President has expressed interest in high schools, including 
targeting reading and implementing graduation plans. What do you and 
the President envision for high school reform and specifically for 
literacy skills and graduation plans? As you know, little Federal 
funding reaches our Nation's high schools. However reforming high 
schools will be expensive for our schools. What funding levels and 
sources do you anticipate using for this critical undertaking?
    Answer 1. As part of his fiscal year 2006 budget request, the 
President will propose $1.5 billion to help every high school student 
graduate with the necessary skills to succeed. Under this plan, high 
school teachers will analyze 8th grade test data for incoming 9th grade 
students so that when they see a student at risk of falling behind, the 
teachers and the parents can get together and design a program to help 
ensure that the child can catch up.
    The President will also propose measuring progress with tests in 
reading and math in the 9th, 10th and 11th grades. Consolidating high 
school improvement programs will provide States the flexibility to 
choose interventions that work best for their students.
    To assist with literacy for adolescents who are significantly 
behind grade level, the President will ask Congress to increase funding 
for his Striving Readers Initiative to $200 million, as well as 
increase Federal support for AP and IB programs. He believes another 
way to encourage students to take rigorous classes is to enhance Pell 
Grants for low-income students who have completed the State Scholars 
program. Under his proposal, high achieving students who take rigorous 
course loads in high school will receive up to an additional $1,000 
during each of their first 2 years in college.
    I look forward to working with you on these and your proposals to 
ensure that every high school student graduates with the skills needed 
to succeed in college and in a globally competitive workforce.

No Child Left Behind

    Question 2. What is your position on reviewing the requests from 
States for flexibility in the requirements--both in the regulations as 
well as in the changes to the NCLB law itself?
    Answer 2. As I stated at my hearing, I am committed to listening to 
all interested parties at the State and local level to ensure that this 
law is sensible and workable. The Department will continue to give 
careful and thoughtful consideration to every State request for 
implementing the various requirements of NCLB. Those requests for 
flexibility that are permissible under the statute and regulations will 
be granted. I pledge to work with States and local school districts to 
make this law work and will listen to all suggestions.

Higher Education

    Question 3. Since the inception of the Direct Student Loan program, 
students borrowing money to attend college under the Direct Loan 
program have benefited greatly from the competition that has resulted 
with the guaranteed loan program. Students in both programs have 
benefited from better loan servicing, discounted borrowing terms, and 
improved repayment options. As Secretary, what steps will you take to 
ensure that the Direct Loan program remains a viable, dependable and 
cost effective program?
    Answer 3. We are committed to the viability of both the Direct Loan 
and Federal Family Education Loan Programs (FFEL). Since its inception, 
the Department has invested millions of dollars in new technologies and 
integrated solutions to better serve students, parents, and the schools 
who participate in the Direct Loan Program. Currently, to provide 
improved services to Direct Loan borrowers and to ensure an efficient 
and effective program, FSA is investing in two major system 
consolidation and integration initiatives. Additionally, FSA provides 
Direct Loan training to schools, numerous publications for schools, 
students and borrowers as well as Web sites for information and 
training. The Department works with the Direct Loan Coalition, an 
alliance of Direct Loan schools, to ensure issues are discussed and 
resolved.

    Question 4. The Department of Education has updated the State tax 
tables that affect the calculations used to determine how much 
financial aid students will receive (regulations were published in the 
Federal Register on December 23, 2004). Unfortunately, while an update 
of the 1988 data is certainly overdue, there is concern that the 2002 
tables provided in the 12/23 Federal Register will not paint an 
accurate picture of what students and their families are able to pay 
for college. For instance, the State of Washington does not have a 
State income tax and relies instead on sales and property tax. 
Therefore the tables may not accurately reflect a student's tax burden. 
As Secretary would you review the structure of the tax tables for 
fairness and equity to students; would you make an effort to ensure 
that the tables are updated in a more timely manner; and finally will 
you ensure that the details of how these tables were calculated, 
including the relevant statistics from the IRS, are made available to 
the public so that the changes are better understood and the process is 
more transparent?
    Answer 4. The Higher Education Act requires the Secretary of 
Education to publish updated State tax tables each year based on 
information received from the Internal Revenue Service (IRS). The 
Department is following the law by updating State tax tables for 
purposes of the need analysis calculation. The Department was unable to 
update the State tax tables for many years because information was not 
available from the IRS. When the necessary information became 
available, the Department took the appropriate steps to update the 
tables. Congress chose to stop the update by adopting a provision that 
prohibited the Department from updating the State tax tables for the 
2004-05 award year, but did not adopt the amendment prohibiting the 
update for the 2005-06 award year, so the Department moved forward in 
accordance with the law.
    While I am not familiar with the particular situation in 
Washington, I commit to looking into this issue as the Department moves 
forward. We must ensure we use accurate and up-to-date information, so 
I pledge to update tables annually, as required by law, and work to 
ensure the formula is fair and equitable.

    Question 5. Traditionally, the Federal Government has worked in 
partnership with colleges and universities to provide a college 
education for all who seek it. The Federal Government provides funding 
to students to attend any college or university that is accredited by a 
federally recognized accreditation agency. Recent legislative proposals 
have gone beyond the shared goal of ensuring access to higher education 
and seek to influence the academic affairs of colleges and 
universities, such as curriculum and the transfer of academic credit. 
Please provide your view of the Federal Government's role in higher 
education and tell the committee whether you believe the Federal 
Government should expand its role in higher education and delve into 
the academics of higher education.
    Answer 5. The Federal Government needs to do more to assist 
students who are going from high school to postsecondary education and 
from one postsecondary institution to another. Encouraging States and 
institutions to have reasonable and fair policies related to transfer 
of credits is in the best interest of students and taxpayers. Neither 
students nor the government are served well when they have to pay for 
the same credits again and again--this leads to increased costs for 
many students who are already facing rising tuition costs across the 
country. In addition, we need to do a better job of providing accurate 
and useful information to parents and families on the cost and policies 
of institutions so that they can make informed decisions.

Perkins

    Question 6. According to Section 113(b)(3)(A)(i) of Perkins, the 
State eligible agency, with input from eligible recipients, shall 
establish the level of performance for each of the core indicators, and 
the State eligible agency may express the level in ``a percentage or 
numerical form, so as to be objective, quantifiable, and measurable . . 
.''
    The Washington State eligible agency, with the support of the State 
community and technical college system, has expressed the State's 
targets for the core indicators for postsecondary student attainment 
and completion as numerical targets (e.g., the number of students 
completing postsecondary career and technical education). The State has 
chosen to express the targets numerically because the State's goal is 
to increase the number of trained workers in order to meet employer 
demand. The Office of Vocational and Adult Education has rejected the 
choice of the State, and refused to accept any target not expressed as 
a percentage.
    Why has the Department of Education ignored the discretion that 
Congress clearly granted State eligible agencies when Washington State 
is fully and demonstrably committed to improving the performance of its 
vocational and technical education programs and to meeting the skill 
needs of State employers?
    Answer 6. I appreciate your bringing this matter to my attention. 
While I am not familiar with the details, I pledge to look into the 
feasibility of your request and I look forward to working with you to 
resolve it in a timely manner.

Training Grants

    Question 7. Washington State has seen many brave men and women 
deployed to serve in the conflicts in Afghanistan and Iraq over the 
last 3 years.
    Unfortunately too many have returned as amputees, necessitating a 
difficult and uncertain recovery process.
    I was very disheartened to learn that the Department of Education, 
through the Regional Services Administration (RSA), has decided not to 
support training grants for students in prosthetics or orthotics.
    There are a very limited number of prothetists and orthotists 
across the country who can build the artificial limbs and braces that 
our returning war veterans will need to return to a productive 
lifestyle.
    Less government support to these students will mean fewer 
practitioners and more difficulty for our newly injured veterans to 
secure the quality devices they so desperately need and deserve.
    Given the significant and growing needs of our returning veterans 
for these prosthetic or orthotic devices, why did the RSA discontinue 
these critically needed training grants?
    Will the Department of Education reinstitute these training grants 
to support those students studying to be the next generation of 
providers of artificial limbs and braces?
    Answer 7. I am not familiar with these particular grants at this 
time, but I commit to looking into this issue, as I share your concern 
for ensuring that our returning war veterans receive the best possible 
care. I will work closely with the Assistant Secretary for OSERS to 
review our work in this important area. In addition, it is my 
understanding that the Office of Special Education and Rehabilitative 
Services (OSERS) has a long history of funding research and training in 
prosthetics and orthotics that meets a variety of needs and 
applications. For example, OSERS is currently funding research on 
prosthetics and orthotics and is developing technology access for land 
mine survivors.
      Response to Questions of Senator Reed by Margaret Spellings
    Question 1. What are your ideas for ensuring that LEAP continues to 
encourage State investment in need-based grant aid for low-income 
students?
    Answer 1. As you know, in the past the President's budget has not 
requested new funds for this program because the program has served the 
purpose of encouraging States to create their own grant programs. 
Rather than funding programs that have already accomplished their goal, 
we are targeting our scarce resources to our number one priority for 
higher education, the Pell Grant Program. This means retiring the $4.3 
billion shortfall and providing sufficient funds to ensure an increase 
to the maximum award of $100 each year for the next 5 years. We believe 
putting the Pell Grant Program on firm financial footing must be the 
highest priority.

    Question 2. Studies show that early intervention activities and 
early information about likely financial aid awards are the key 
components of successful college access programs. How will the 
Department of Education, under your leadership, work to encourage such 
programs?
    Answer 2. We will continue informational outreach efforts already 
undertaken by the Department. Currently, the Department makes brochures 
and documents available to high schools around the country and to 
guaranty agencies and other parties that conduct financial aid nights 
for students and parents. In addition, the Department promotes its Web 
site that has been redesigned to help students in their college search, 
in finding and applying for student aid; and in repaying that aid. I 
will also commit to looking at additional ways to increase outreach on 
this important issue.

    Question 3. How will you work to reverse the grant-loan imbalance 
so that college is attainable for low-income students?
    Answer 3. On January 14th, the President announced his plan for 
retiring the Pell Grant shortfall and increasing the maximum award to 
assist low-income students in paying for postsecondary education. This 
bold, new plan will directly help low-income students by investing $15 
billion over the next 10 years into the Pell Grant program. I look 
forward to working with Congress on this plan and the reauthorization 
of the Higher Education Act.

    Question 4. Have you seen the interim recommendations from the 
Advisory Committee on Student Financial Assistance's Simplification 
Study released last July? What are your thoughts on these 
recommendations, such as the creation of an E-Z FAFSA for low-income 
students?
    Answer 4. I have not read the interim recommendations but I 
absolutely believe we should consider all ideas for simplifying the 
student aid process. If confirmed, I will look into ways to address 
this issue.

    Question 5. What changes will you seek in the Higher Education Act 
to make completing the FAFSA easier and more understandable for parents 
and students, particularly low-income students?
    Answer 5. I can't identify specific changes today, but as I have 
said in the past, I will consider all ideas for simplifying the student 
aid process and that includes simplifying the actual form.

    Question 6. How will you work to make web access to the FAFSA 
easier and more widely available to low income students, including 
providing increased funds to schools for additional computer 
technology?
    Answer 6. Based on the Department's statistics, you can be assured 
that web access is readily available. Today, we have more than 80 
percent of our students filing electronically and we continue to 
encourage more to do so. In addition, we constantly upgrade our on-line 
application program so that students and families find it user 
friendly. However, some students and parents simply do not want to file 
electronically so we provide a supply of the paper forms for those 
instances.

    Question 7. How will you make clear to parents, students, and 
schools that the FAFSA may be completed for free by paper or online and 
steer these interested parties away from companies promising to get 
students better aid by paying a fee to a third party to fill out the 
FAFSA?
    Answer 7. The Department prominently displays the word ``Free'' on 
all its material related to the FAFSA and guidance counselors and 
financial aid directors constantly remind students that the Department 
provides free help if one has questions. With respect to third party 
companies, to date, the Department has not found any party to be acting 
illegally but the Department does monitor this issue and has referred 
cases to the FTC with respect to the information being advertised on 
completing the FAFSA.

    Question 8. As you know, in Title II of HEA, there is funding for 
awarding partnership grants to eligible college teacher preparation 
programs to help prepare and develop teachers in high need school 
districts. Will you support the addition of a requirement that 
participating partnerships institute a residency program aimed at 
providing ongoing support to new teachers during their first 3 years of 
teaching, modeled after successful medical residency programs, in order 
to improve the quality of learning in our Nation's classrooms?
    Answer 8. The Department's grant competition related to title II 
puts a priority focus on mentoring type programs to help new teachers 
adjust to the classroom environment and we will be glad to consider 
changes that will improve the program in providing needed assistance to 
our newest teachers.

    Question 9. How will you and the Department disseminate resources 
and information to teachers on best teaching practices and ensure that 
teachers receive training on cutting edge techniques and methods?
    Answer 9. The Department launched the Teacher-to-Teacher Initiative 
last January. Roundtable discussions were held with hundreds of 
teachers around the country. Teachers gave the same message at each 
event: they wanted clear information about NCLB, high-quality 
professional development, access to the latest research, and 
recognition for the work they are doing with students. Regular e-mail 
updates are sent to thousands of teachers who've signed up on the 
Department's Web site. Eleven workshops have been held around the 
country with almost 2,000 attendees. Our eLearning Web site features 23 
sessions from these workshops, and over 50,000 teachers have come to 
the site. Many States are accepting teacher participation in workshops 
and eLearning for recertification and to meet the highly qualified 
requirements. If confirmed, I will work with teachers on the ground to 
ensure that they are receiving the tools they need to teach effectively 
in the classroom.

    Question 10. Can you provide specific details on the President's 
proposed new high school reform initiative aimed at encouraging schools 
to develop IEP-like performance plans for incoming high school 
students?
    Answer 10. Out of a hundred 9th graders in our public schools, only 
68 will complete high school on time. In today's globally competitive 
economy, the United States cannot afford to have a 68 percent on-time 
graduation rate for 9th graders, nor can the individual youth afford to 
leave school without a high level of skills and preparation. For this 
reason, the President is proposing an early intervention initiative 
that will enable and help school districts and schools intervene early, 
assess and design programs that meet the needs of each youth so they 
can successfully complete high school and advance to further learning 
and employment.
    The President's new High School Initiative will provide $1.5 
billion in the fiscal year (fiscal year) 2006 budget, of which $1.2 
billion will be used to provide effective interventions for those 
students who are not learning at grade level. Under this plan, high 
school teachers will analyze 8th grade test data for incoming 9th grade 
students so that when they see a student at risk of falling behind, the 
teachers and the parents can work together to design an intervention 
program. This program will help the student quickly gain the core 
reading and math skills he or she will need to participate in a 
rigorous high school curriculum.
    The program will allow maximum flexibility so the district and 
school can create interventions that are uniquely tailored to each 
student's needs.

    Question 11. In Rhode Island, school districts are required to 
create strategic plans for providing more personalized learning 
environments for high school students, including individualized 
learning plans. How will you align the President's IEP-like performance 
plan initiative with existing State performance plan requirements, such 
as Rhode Island's?
    Answer 11. The intent of the President's proposal for early 
intervention plans appears to be well-aligned with the purpose of the 
Rhode Island initiative for creating personalized learning 
environments. The intervention plan concept would build on that notion 
of a personalized learning environment by creating customized 
interventions when students are falling behind in academic skills. The 
President has indicated that, under the plan, high school teachers will 
analyze 8th grade test data for incoming 9th grade students so that 
when they see a student at risk of falling behind, the teachers and the 
parents can work together and design a program to help make sure that 
child can catch up. The proposal would provide a great deal of 
flexibility so interventions can be uniquely tailored to each student's 
needs. This program will enable and help school districts and schools 
intervene early, assess and design programs that meet the needs of that 
particular student.

    Question 12. Research studies in over 14 States have demonstrated 
conclusively that school library media specialists, when working 
collaboratively with teachers in a school with a well-staffed, well-
stocked library, have a direct and significant impact on student 
achievement in the classroom. In light of the proven role played by 
school libraries and school library media specialists in education, 
what will you do personally, and within the operations of the 
Department of Education, to improve the collaboration between school 
library media specialists and teachers in implementing NCLB and the 
Improving Literacy Through School Library program?
    Answer 12. The Department will continue to proactively improve the 
collaboration between school library media specialists and teachers in 
implementing NCLB and the Improving Literacy Through School Library 
program.
    The Department will publish a notice announcing the fiscal year 
2005 competition and will emphasize that to all potential applicants 
that the purpose of the Literacy Through School Libraries program is to 
improve student reading skills and achievement by providing students 
with increased access to up-to-date school library materials and well-
trained professionally certified school library media specialists. In 
addition, I will encourage applications from those who focus their 
efforts on elementary schools to maximize the impact of the project on 
improving reading achievement.

    Question 13. Given the clear link between high quality school 
libraries and increased academic achievement, as Secretary of 
Education, what will you do to support increased funding for the 
Improving Literacy Through School Libraries program?
    Answer 13. The Improving Literacy Through School Libraries program 
is supported by the Administration as one of the tools to improve the 
literacy skills of students through increased access to up-to-date 
school library materials and professionally certified school library 
media specialists. As you know, Mrs. Bush is a strong supporter of 
libraries, and I look forward to working with her office and with you 
to improve our Nation's school libraries.

    Question 14. The enactment of NCLB and the Education Sciences 
Reform Act brought scientifically-based research, development, 
dissemination, and technical assistance to the forefront of K-12 
education. Yet, for the past 2 years, the President has sought to 
eliminate the regional education laboratories and reduce funding for 
technical assistance providers in his budget request. Will you seek to 
reverse the Administration's recent budget stance on this issue and 
provide adequate funding for these important research institutions so 
that schools have the necessary tools to improve student achievement?
    Answer 14. The Administration has supported level funding the new 
Comprehensive Centers system as authorized by Congress, and the 
Department has worked this past year to bring this new system into 
existence. The Administration has not supported funding for the 
regional education laboratories because the recent reauthorization did 
not make needed improvements in the structure and function of the labs, 
which have not consistently provided high quality research and 
development products or evidence-based training and technical 
assistance. Instead, the Administration has supported the improvements 
to the quality of education research with existing funds through the 
Institute of Education Sciences, and has supported increases in funding 
for programs like title I and Reading First that provide resources to 
teachers and administrators that can be used to access--and thus 
support the creation of--research-based programming. I will continue to 
work to increase technical assistance to States, schools, and teachers, 
so that they have the tools to increase student achievement.

    Question 15. I am concerned that the Department has chosen to focus 
its efforts disproportionately on aspects of public school choice and 
supplemental services in the implementation and enforcement of the 
parental involvement provisions under NCLB. I authored the parental 
involvement provisions in NCLB and in doing so, intended that there be 
targeted efforts to implement all of these provisions, not just a 
select few. In your testimony before the committee, you stated that 
parents must be active participants in a child's education. What will 
you do to improve implementation of NCLB, including ensuring that its 
parental involvement goals are being achieved?
    Answer 15. I cannot agree with you more that parents need to be 
actively involved and must have an integral role in their children's 
education to help them succeed. To better inform and involve parents, 
the Department redesigned its webpage to include information 
specifically for parents. It includes information about homework, 
after-school programs, reading, NCLB, and college preparation, among 
other topics. Much of this information is provided in both Spanish and 
English. Additionally, since the enactment of NCLB, the Department has 
provided guidance on parental involvement in a variety of forms, 
including Parental Involvement guidance (now being developed in 
Spanish), as well as parental notification requirements in the LEA and 
School Improvement Guidance, Public School Choice Guidance, 
Supplemental Education Services Guidance, Report Card Guidance, and 
Teacher Quality Guidance.
    When the Department conducts title I monitoring, staff looks for 
evidence that the State is implementing the parental involvement 
provisions in the statute; and if that evidence is lacking, then the 
State is required to take corrective action. Among the evidence staff 
looks for is that:
    <bullet> States review the effectiveness of LEA parental 
involvement activities;
    <bullet> LEAs have written parental involvement policies at the LEA 
and school levels, including outreach to parents of limited English 
proficient students.
    <bullet> LEAs sent letters notifying parents that they have the 
right to know the qualifications of their children's teachers and 
letters notifying parents if their child is assigned to or being taught 
by a teacher who is not highly qualified. LEAs reserved at least 1 
percent of title I funds for parental involvement activities, and 
involved parents in deciding how to expend the funds; and
    <bullet> Schools hold annual meetings to inform participating 
parents about title I programs.
    I look forward to working with you to ensure that all participants 
in a child's education, especially parents, have the information they 
need to be actively involved.

    Question 16. The recently enacted IDEA Improvement Act includes 
provisions I authored on personnel preparation and professional 
development programs for special education teachers and general 
educators who work with children with disabilities, with an emphasis on 
retaining special education teachers new to the profession. What is 
your plan for educating, advising, and ensuring technical assistance to 
States, parents, teachers, students, schools, and colleges about Part 
D's new and enhanced personnel preparation and development program 
requirements and the resources available to these interested parties to 
meet the requirements?
    Answer 16. The Department has a number of technical assistance 
investments that provide technical assistance and information to the 
States, teachers, school administrators, parents, and advocacy groups. 
For example, the Department invests in regional Technical Assistance 
Centers that work directly with States. Parent Training and Information 
Centers work directly with parents. These investments will continue to 
support our efforts in educating our stakeholders about Part D's new 
and enhanced personnel preparation and development program 
requirements. I understand that specific plans are underway to develop 
training modules for stakeholders on all aspects of the IDEA, which 
will be used at Department meetings with States and other stakeholders 
specifically convened for this purpose. I intend to support this 
effort.

    Question 17. How will you ensure that these new and critical Part D 
programs are funded in fiscal year 2006?
    Answer 17. Part D programs are crucial to the successful 
implementation of IDEA. We need a highly qualified workforce who have 
the skills and knowledge they need to promote grade level achievement 
for students with disabilities. I believe that the Department should 
have a strong leadership role in personnel preparation, which 
translates into adequate investments to support this leadership role. 
While I cannot commit to a particular funding level, I look forward to 
working with you on this issue.
     Response to Questions of Senator Clinton by Margaret Spellings
    Question 1. Will you keep the long-standing title IX athletics 
policies in place, including all three methods of compliance, and do 
nothing to undermine their use or application to enhance women's 
opportunities to participate in sports?
    Answer 1. Yes. Based on recommendations by the Secretary's 
Commission on Opportunities in Athletics, the Department of Education 
in July of 2003 reaffirmed its commitment to the long-standing 3-part 
test. I share that commitment.

    Question 2. Do you foresee any changes in the Department's enforce 
of title IX athletics policies?
    Answer 2. The Department will continue to vigorously enforce the 
existing title IX policies. I plan to expand the Department's efforts 
in providing technical assistance and information to schools to help 
them apply the 3-part test and other title IX requirements.

    Question 3. Will you urge the Department of Justice to mount a 
vigorous defense against any lawsuit that challenges the legality of 
the title IX athletics policies or that otherwise attempts to limit the 
government's ability to enforce those policies?
    Answer 3. Yes. The Executive Branch has mounted a vigorous and, to 
date, successful litigation defense of its title IX policies and its 
ability to enforce them, and it will continue to do so.

    Question 4. Does the Department intend to supplement its current 
guidance on public school choice with any concrete examples of how 
overcrowded districts can meet the new transfer requirement--short of 
adding classroom space not in their budgets or hiring additional 
teachers they cannot afford?
    Answer 4. The Department has provided extensive guidance on Public 
School Choice, both through its official program guidance documents and 
through two publications, Innovations in Education: Public School 
Choice and Innovations in Education: Successful Magnet Schools. Both 
publications provide examples of real-live districts that are 
successfully implementing choice programs. The Department is planning 
to build on this guidance to provide additional ideas and assistance 
through a toolkit on public school choice and a technical assistance 
strategy to help districts learn from these documents and better 
implement the choice provisions. The issue of expanding capacity will 
be central to these efforts.

    Question 5. Would the department under your leadership reconsider 
providing some meaningful level of Federal school construction 
assistance to transform this hollow promise into a reality?
    Answer 5. School construction has traditionally remained a State 
and local matter, and this Administration has not supported using 
Federal resources for that purpose. Federal intervention in this area 
would penalize those districts that have concentrated their previous 
efforts on building maintenance, and create a future disincentive to 
continue those efforts. The Administration position on this matter is 
unlikely to change. The traditional role of the Federal Government in 
education, dating back decades, has been to focus resources on at-risk, 
disadvantaged, and disabled students, through large, flexible programs 
like title I and IDEA. I will continue to support that role.

    Question 6. The information we have makes it clear that children 
benefit--for years to come--when they go to school in healthy school 
buildings. Yet the Department has never funded the Healthy, High-
Performance Schools program authorized in No Child Left Behind? This 
program would provide technical assistance and resources to school 
districts seeking to modernize their school buildings. How can we work 
with you to enable this worthwhile program to come to life?
    Answer 6. The Administration believes that limited Federal 
elementary and secondary education resources should be concentrated on 
those programs that have the greatest impact in improving the education 
of children with the greatest needs. That means focusing our resources 
on large flexible programs like title I and IDEA Part B, and using 
remaining resources on programs that directly support those efforts to 
improve the education of economically disadvantaged and limited English 
proficient students, students with disabilities, and other students who 
are not making adequate yearly progress toward state-established 
standards. However, I look forward to reading the recently-released 
report you requested on the health and learning impacts of poor 
environmental conditions in schools and working with you on this issue.

    Question 7. The IDEA reauthorization included much-needed resources 
for helping children with behavioral and emotional problems. Are we in 
agreement that this is an important investment for the long-term future 
of our children and can we count on your support for funding for this 
program?
    Answer 7. I agree that it is very important for the Department to 
make investments in the long-term future of children with behavioral 
and emotional problems, which is why President Bush has requested 
annual 1 billion dollar increases in funding for IDEA State Grants in 
his first four budget proposals and why special education funding has 
increased 67 percent since the President has been in office. The 
Department is investing in several projects related to improving 
services to these children, and I intend to continue the work of the 
Department to effectively serve children who have difficulty with 
behavior and emotional adjustment.

    Question 8. Do you believe Perkins is an appropriate vehicle to 
help girls learn about the potential value of nontraditional 
occupations? Do you support efforts to expand innovative programs and 
policies in this area?
    Answer 8. In today's globally competitive economy, it is critical 
that young women and men be given the opportunity to fully explore 
career options absent of gender stereotypes. This is particularly 
important as the United States seeks to ensure that all students are 
proficient in mathematics and science, and that a larger pool of 
American students pursue careers in science, technology and 
engineering, the drivers of our ``innovation economy.'' We are 
committed to working with Congress to ensure that all Federal programs 
support young women and men in reaching high levels of achievement so 
they can pursue highly skilled, economically viable careers and are not 
bound by gender pre-conceptions.

    [Whereupon, at 11:58 a.m., the committee was adjourned.]

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
